<html>
<title> - DEEPENING POLITICAL AND ECONOMIC CRISIS IN VENEZUELA: IMPLICATIONS FOR U.S. INTER- ESTS AND THE WESTERN HEMISPHERE</title>
<body><pre>[Senate Hearing 114-69]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-69
 
             DEEPENING POLITICAL AND ECONOMIC CRISIS  
              IN VENEZUELA: IMPLICATIONS FOR U.S. INTER-
              ESTS AND THE WESTERN HEMISPHERE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WESTERN HEMISPHERE
                TRANSNATIONAL CRIME, CIVILIAN SECURITY,
                      DEMOCRACY, HUMAN RIGHTS, AND
                         GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                        U.S. GOVERNMENT PUBLISHING OFFICE
96-257 PDF                  WASHINGTON : 2015                        
                
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4126312e012234323529242d316f222e2c6f">[email&#160;protected]</a>  
       
                
                
                
                COMMITTEE ON FOREIGN RELATIONS          

                 BOB CORKER, TENNESSE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                         ------------          

               SUBCOMMITTEE ON WESTERN HEMISPHERE        
            TRANSNATIONAL CRIME, CIVILIAN SECURITY,        
                  DEMOCRACY, HUMAN RIGHTS, AND        
                     GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        

JEFF FLAKE, Arizona                  BARBARA BOXER, California
CORY GARDNER, Colorado               TOM UDALL, New Mexico
DAVID PERDUE, Georgia                TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts

                             (ii)          

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Boxer, Hon. Barbara, U.S. Senator from California, opening 
  statement......................................................     4
Canton, Santiago, executive director, Partners for Human Rights, 
  Robert F. Kennedy Center for Justice and Human Rights, 
  Washington, DC.................................................    38
    Prepared statement...........................................    41
Farah, Douglas, president, IBI Consultants, Takoma Park, MD......    52
    Prepared statement...........................................    54
Lee, Alex, Deputy Assistant Secretary for South America and Cuba, 
  Bureau of Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................     7
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      Marco Rubio................................................    74
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     6
Rubio, Hon. Marco, U.S. Senator from Florida, opening statement..     1
Sabatini, Christopher, Ph.D., adjunct professor, School of 
  International and Public Affairs at Columbia University, New 
  York, NY.......................................................    35
    Prepared statement...........................................    36
Smith, John, Acting Director of the Office of Foreign Assets 
  Control, U.S. Department of the Treasury, Washinngton, DC......    10
    Prepared statement...........................................    12

              Additional Material Submitted for the Record

Written statement of Maria Eugenia Tovar, a Venezuelan citizen, 
  submitted by Senator Marco Rubio...............................    73

                                 (iii)

  


DEEPENING POLITICAL AND ECONOMIC CRISIS IN VENEZUELA: IMPLICATIONS FOR 
               U.S. INTERESTS AND THE WESTERN HEMISPHERE

                              ----------                              


                        TUESDAY, MARCH 17, 2015

        U.S. Senate, Subcommittee on Western Hemisphere, 
            Transnational Crime, Civilian Security, 
            Democracy, Human Rights, and Global Women's 
            Issues, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
(chairman of the subcommittee) presiding.
    Present: Senators Rubio, Flake, Gardner, Perdue, Isakson, 
Boxer, Menendez, Udall, Kaine, and Markey.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The committee will come to order. To start 
this hearing, the Subcommittee on the Western Hemisphere, 
Transnational Crime, Civilian Security, Democracy, Human 
Rights, and Global Women's Issues will come to order, as I 
said.
    This hearing is titled ``The Deepening Political and 
Economic Crisis in Venezuela: Implications for U.S. Interests 
and the Western Hemisphere.''
    I would like to begin by welcoming Mr. Alex Lee, who is the 
Deputy Assistant Secretary of State for South America and Cuba, 
and Mr. John E. Smith, the Acting Director of Office of Foreign 
Assets Control.
    We had invited Assistant Secretary of State Roberta 
Jacobson to participate. We were informed that she is in Havana 
today so she will not be available. So we appreciate you being 
here, Mr. Lee.
    So with vast oil reserves, Venezuela is one of the richest 
countries in Latin America, and the Venezuelan people are 
intelligent, they are well educated, they are hardworking 
people. The evidence of this can be found in my home State in 
Miami and in Doral and in Weston, FL, where a vibrant 
Venezuelan community has helped build quality and vibrant 
communities.
    And Venezuela is also the cradle of democracy in South 
America. And that is why it is so tragic that Venezuela has 
turned into a social, political, and economic disaster.
    The reason for this is simple. Because today that nation is 
increasingly in the iron grip of corrupt and incompetent 
leaders. A rich country suffering from a massive and growing 
shortage of food, medicine, and basic goods to the point where 
Maduro has had to order supermarkets to install fingerprint 
scanners to enforce food rations. Venezuela has an inflation 
rate of over 60 percent, among the highest in the world. Price 
controls in Venezuela have led to massive shortages of medicine 
and medical equipment, has forced hospitals to suspend cancer 
treatments and all but emergency surgical procedures. Shortages 
of spare parts have grounded much of the bus and truck fleet, 
and many airlines have stopped flying to Venezuela altogether.
    The government, by the way, has also defaulted on several 
large debts. Back when they were facing elections in 2012 and 
2013, they authorized more imports than they could afford, but 
when the bills came due, they stopped paying them, building up 
tens of billions of dollars' worth of debt. The result is that 
Venezuelan bonds are treated as among the riskiest in the 
world, demanding premiums that are twice those of Bolivia, four 
times those of Nigeria, and 13 times those of Mexico or Chile.
    It is the incompetence of Nicolas Maduro and his 
predecessor, Hugo Chavez, that have left Venezuela in the 
position that it finds itself in. But instead of seeking out 
reforms to improve these conditions, the response of the Maduro 
regime has been to crack down on dissent, erode democracy, and 
violently violate the human rights of their own people.
    Here is just a brief recap of steps Maduro and his cronies 
have taken to strengthen their grip on power.
    In April 2013, the main opposition TV network, Globovision, 
was forced to sell to a pro-government owner.
    In July 2013, pro-government businessmen bought Cadena 
Capriles, the owner of the largest daily in Venezuela, Ultimas 
Noticias.
    In August 2013, the most corrupt man in Venezuela--and that 
is one heck of a title--Mr. Diosdado Cabello, the National 
Assembly President, used a simple majority vote instead of the 
required two-thirds vote to suspend an opposition deputy from 
office, paving the way for a series of votes to grant Maduro 
decree powers.
    In September 2013 Maduro closes Voz de Orinoco, a radio 
station. He closed it for, ``calling for rebellion.''
    In October 2013, Maduro restricts bulk paper imports to 
opposition newspapers, making it harder for them to go to 
print.
    In February 2014, security officials, working with armed 
pro-government thugs, confront, beat, and even kill anti-Maduro 
protestors.
    That same month, the National Telecommunications Commission 
prohibits local TV and radio from covering antigovernment 
protests.
    In May 2014, the Maduro government begins to routinely 
block Web sites that are critical of the regime.
    In July 2014, a Spanish investor group close to Maduro buys 
El Universal, one of the nation's flagship daily newspapers, 
and immediately the content of that newspaper changes to one of 
supportive of Maduro.
    In August 2014, the government begins proceedings against 
Radio Caracas, and it suspends an opposition radio show from 
broadcasting.
    This is just a small sampling of the antidemocratic moves 
and the violent moves taken by this regime just in the last 
year and a half.
    Now, faced with these long string of human rights 
violations and the fact that many of these violators and the 
people who enable them have strong economic links to the United 
States and in particular south Florida, late last year Congress 
passed and the President signed a law allowing the United 
States to deny visas and freeze the assets of human rights 
violators in Venezuela. And last week, the President applied 
these sanctions against several human rights violators.
    These sanctions are not against the Government of 
Venezuela. These sanctions are not against the people of 
Venezuela, nor do they aim to deny the people of Venezuela 
anything. These sanctions, that the President has imposed, deny 
known human rights violators the chance to use the money they 
have stolen from the people of Venezuela to enjoy luxuries here 
in the United States. These sanctions also deny human rights 
violators the chance to travel freely to the United States.
    Faced with an economic catastrophe and dwindling public 
support, Nicolas Maduro has tried to use these sanctions as a 
way to deflect from these problems and rally people around 
anti-Americanism and nationalism. He has gone as far as to 
absurdly claim that the United States is preparing an invasion 
of Venezuela, and he has tried to place the opposition in a 
position of either supporting him or being labeled as traitors.
    So let me be very clear. The future of Venezuela belongs to 
the people of Venezuela to decide via free and fair elections. 
The United States has no interest and no plans of imposing or 
encouraging what direction a free people of Venezuela freely 
choose. The purpose of these sanctions is only this: to deny 
corrupt officials and human rights violators the opportunity to 
buy homes, make investments, and vacation in the United States 
with the money they have stolen from the people of Venezuela.
    Nevertheless, we can expect to see more of these theatrics 
from Nicolas Maduro in the days and weeks to come. In fact, we 
have just received word that he is shopping around an open 
letter to the American people to be published any day now in 
some major American media outlet or various media outlets, 
encouraging the American people to stand up to their elected 
officials and ask them to stop picking on him. By the way, in 
the same letter, he accuses the United States of being involved 
in a 2002 coup plot in Venezuela, another absurd claim.
    This past weekend he asked for and was given absolute power 
once again by the National Assembly. This grab for power 
through decree powers that were given to him--you can expect to 
see more of this because the declining economy and falling oil 
prices has cut into his ability to buy support. Here are some 
of the things we expect to see.
    Unable to find credible evidence of coup plots between the 
opposition and U.S. diplomats, I expect and predict that soon 
you will see them produce fabricated evidence of coup plotting. 
You will see clandestine assassination of opposition figures, 
and you may even see Maduro and his cronies try to move up this 
year's legislative elections to capitalize on this nationalism 
before the popularity of his government fades even more.
    But no amount of repression or theatrics will solve or 
cover up the disaster that he has brought upon the people of 
Venezuela. Food seized from private stores rot in warehouses 
because of their incompetence. Maduro and his cronies continue 
to manipulate currency to make money for themselves. Maduro and 
his cronies will continue to force those doing business with 
the government to use companies where they control the 
subcontractors. And at some point this year, we may even see 
the gas subsidies, long provided by the government, either 
altered or removed altogether.
    And we will also continue to see human rights violations. 
The Defense Minister Vladimir, Padrino Lopez, has authorized 
the use of force against peaceful demonstrators, which has led 
to the murder of a 14-year-old boy. We will see more arrests 
like the recent one of the elected Mayor of Caracas, Antonio 
Ledezma, who was arrested last month. And sadly, we will see 
more deaths such as one when opposition leader Rodolfo Gonzalez 
took his own life when faced with the Maduro decision to move 
the dissident leader to a cell block of common criminals.
    It is also worth noting some other aspects of this regime.
    First, the Cuban dictatorship has penetrated every aspect 
of the Venezuelan Government. We will get into that today.
    Second, Maduro has opened the door to closer military 
relations with Iran, Russia, and China. In fact, the Venezuelan 
military is currently conducting exercises with visiting 
Russian troops and equipment.
    Third, the Maduro regime continues to harbor vast elements 
of the FARC within Venezuelan territory, offering this 
terrorist group sanctuary and protection.
    And fourth, along with Cuba, Maduro continues to aid 
populist anti-American elements throughout Central and South 
America.
    The people of Venezuela deserve better than this, and while 
the direction of their future belongs to them, we will be a 
strong voice in firm support of their aspirations for a better 
country and a better life. And we will not allow those who are 
violating their rights and denying them this better future the 
chance to come to Doral or Weston or to Miami or CocoPlum and 
enjoy life with the money they have stolen from their own 
people.
    With that, I would like to thank and recognize our ranking 
member, Senator Boxer, and I look forward to continuing to work 
with you on these important issues.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much for holding this really 
important and very timely hearing. And I also would like to 
thank our witnesses for participating.
    In February 2014, thousands of Venezuelans took to the 
streets to protest against the administration of President 
Nicolas Maduro and were met with a brutal crackdown by 
government security forces and armed pro-government gangs.
    Last month marked the 1-year anniversary of these 
widespread antigovernment demonstrations, which lasted nearly 4 
months and left more than 40 people dead.
    Tragically, the grievances voiced by protestors--a failing 
economy, chronic shortages of consumer goods, and high levels 
of crime, violence, and corruption--have certainly not been 
addressed. In fact, the political and economic situation in 
Venezuela has continued to deteriorate over the past year.
    According to official figures, Venezuela's economy shrank 
2.8 percent in 2014 and inflation rose to 64 percent, the 
highest rate in Latin America. Venezuela's murder rate is the 
second-highest in the world behind Honduras. And Transparency 
International ranks Venezuela as the most corrupt country in 
Latin America.
    The Maduro government continues its brutal repression of 
dissent by systematically targeting opposition figures, human 
rights defenders, journalists, and civil society activists for 
violence, harassment, intimidation, and other human rights 
abuses. Just last month, the mayor of Caracas was arrested and 
jailed for allegedly, ``conspiring to organize and carry out 
violent acts against the government,'' and a 14-year-old boy 
was shot in the head and killed by a police officer during an 
antigovernment protest.
    In response to the deepening crisis in Venezuela, Congress 
unanimously enacted the Venezuela Defense of Human Rights and 
Civil Society Act of 2014, which President Obama signed into 
law in December. This very important law requires the President 
to impose sanctions on individuals or entities involved in 
serious human rights violations against antigovernment 
protestors, or on those who have ordered the arrest or 
prosecution of individuals for their legitimate exercise of 
freedom of expression or assembly. I applaud President Obama's 
decision to implement this law by sanctioning seven Venezuelan 
officials involved in human rights abuses and public 
corruption, and I encourage him to continue that crackdown.
    The United States has an obligation to shine a bright light 
on the abuses being committed against the people of Venezuela, 
and the President's action sends a strong message to the people 
there and the government that we will not stay silent in the 
face of violence, corruption, and the suppression of the 
fundamental rights and freedoms of the Venezuelan people.
    But it is also important to make clear that these sanctions 
directly target the perpetrators of abuses. They do not target 
the people of Venezuela. And as our chairman said, that is 
critical. We want to hurt the people who are causing all this 
hurt, not the ordinary people who are simply trying to survive.
    Today's hearing will be an important opportunity to examine 
the United States policy toward Venezuela and the role of 
sanctions in addressing the current economic and political 
crisis there. It will also help us chart a path forward in 
support of the people of Venezuela and their aspirations; their 
aspirations that are just like all people, a longing to be 
truly free and truly democratic.
    Thank you very much, Mr. Chairman.
    Senator Rubio. Thank you.
    The ranking member of the Foreign Relations Committee and 
someone who spends a tremendous amount of time on Western 
Hemisphere issues is here with us today, and I would like to 
recognize him for some comments.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Thank you and 
the ranking member for holding what I think is an incredibly 
important hearing. There are many challenges in the world that 
distract or diversify our attention, but this one in our own 
hemisphere is incredibly important.
    Last may, after 40 deaths, more than 50 documented cases of 
torture, high profile political persecutions, and thousands of 
arbitrary and unlawful detentions by the Venezuelan Government, 
this committee met to review the shocking pattern of systematic 
human rights violations by the Maduro government, its security 
forces, and its judicial system which continues today and has 
only gotten worse.
    Venezuela is awash in a culture of gross impunity at every 
level. Checks and balances on Executive power have completely 
eroded. There is no accountability for the crimes against 
Venezuelan citizens by an out-of-control regime.
    It should come as no surprise, as Venezuela's fiscal and 
economic crisis has deepened, that the Maduro government is 
radicalizing its tactics. Last month, the Minister of Defense, 
Padrino Lopez, signed a decree authorizing security forces to 
use lethal force--lethal force--against civilians, and with 
that decree came the tragic death of 14-year-old Kluiverth Roa, 
who was shot in the head by the national police.
    We saw, as has been said here, the elected mayor of 
Caracas, Antonio Ledezma, forcefully removed from this office 
and jailed on trumped-up charges. And more than a year after 
his arrest, Leopoldo Lopez, the continent's most high profile 
political prisoner, continues to languish in prison without a 
trial, without any semblance of due process. And just last week 
in an unacceptable and utterly grotesque statement, 
Venezuelan's Ambassador to the OAS, Roy Chaderton, actually 
joked about shooting members of the Venezuelan opposition in 
the head.
    Against this backdrop of persecution, violence, and 
outrageous human rights violations, now even more disturbing 
trends started to emerge. Just last week, the Treasury 
Department announced that the Banca Privada d'Andorra, BPA, was 
involved in a complex scheme to launder nearly $2 billion--let 
me repeat that--$2 billion in funds from the Venezuelan state 
oil company, PDVSA. BPA then moved these funds into the U.S. 
financial system.
    In December, a private jet trafficking millions of dollars 
in cocaine was captured in Fort Lauderdale. In September, a 
truck carrying $10 million in cash coming from the United 
States was captured in Venezuela. All of this is on top of the 
thousands of pounds--literally tons--of cocaine trafficked by 
the Venezuelan National Guard that has been seized in Europe.
    The United States and the international community cannot 
tolerate such blatant violations of international law. I am 
pleased that Treasury has named senior Venezuelan officials as 
kingpins and acknowledged the Venezuelan National Guard is 
deeply involved in drug trafficking. Obviously, in today's 
Venezuela, we are not just watching the rise of an 
authoritarian regime, we are watching the emergence of a drug 
trafficking regime involved in networks that threaten and 
endanger the hemisphere.
    So finally, let me just say I welcome the President's 
decision to move forward with implementation of the Venezuela 
Defense of Human Rights and Civil Society Act, which, Mr. 
Chairman, you and I authored and you were deeply involved in 
helping us draft and ultimately move through the Senate. And I 
appreciate that--and the announcement last week of targeted 
sanctions against seven Venezuelan officials, including senior 
members of the military, intelligence services, and judiciary. 
In my view, we can go further, but this is an important first 
step.
    Let me reemphasize. These are targeted sanctions against 
Maduro government officials, not sanctions against the people 
of Venezuela.
    I look forward to hearing the administration's strategy for 
addressing the political, diplomatic, and security challenges 
that Venezuela presents.
    And I thank you, Mr. Chairman, for the opportunity.
    Senator Rubio. Thank you.
    And now we are going to get to our witnesses' testimony.
    Just a brief housekeeping item. We will have votes, I 
think, scheduled at 11 o'clock. There may be a need to go into 
a brief recess for a few minutes while we go to and from the 
vote, but we will continue the hearing until we conclude it.
    With that, Mr. Lee, we are prepared for your opening 
statement.

  STATEMENT OF ALEX LEE, DEPUTY ASSISTANT SECRETARY FOR SOUTH 
 AMERICA AND CUBA, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Lee. Chairman Rubio, Ranking Member Boxer, and members 
of the committee, thank you for inviting me to speak to you 
about Venezuela. I appreciate your interest in Venezuela and 
your support for United States assistance and our policies 
there.
    We are deeply concerned about the situation in Venezuela 
where last year legitimate political, economic, and social 
grievances and a lack of adequate democratic space brought 
protests and, unfortunately, violence. Tensions within 
Venezuela continue to build and the government has intensified 
its actions to repress dissent. The United States has called on 
the Venezuelan Government to respect human rights, uphold the 
rule of law, and engage in peaceful, inclusive dialogue with 
Venezuelans across the political spectrum to alleviate the 
current tension. We have called on the Venezuelan Government to 
release Mayor Antonio Ledezma, opposition leader Leopoldo 
Lopez, Mayor Daniel Ceballos, and others it has unjustly 
jailed, including dozens of students. We have encouraged the 
government to improve the climate of respect for human rights 
and fundamental freedoms, including respect for the freedoms of 
peaceful assembly and association. I know this committee shares 
our concerns, and we welcome your strong support for democracy 
in Venezuela.
    Venezuela's problems cannot be solved by criminalizing 
legitimate democratic dissent. These actions appear to be a 
clear attempt by the Venezuelan Government to divert attention 
from that country's economic and political problems. Rather 
than imprisoning and intimidating its critics, we believe the 
Venezuelan Government should focus on finding real solutions 
through democratic dialogue.
    We will not refrain from speaking out about human rights 
abuses in Venezuela. We are joined in this by dozens of 
individuals and entities, including the U.N. High Commissioner 
on Human Rights, Organization of American States Secretary 
General Insulza, the Peruvian, Costa Rican, and Colombian 
Governments, and the Inter American Commission on Human Rights, 
among others.
    Advancing human rights and democratic processes are a key 
U.S. foreign policy objective. The President's March 9 
Executive order, ``Blocking Property and Suspending Entry of 
Certain Persons Contributing to the Situation in Venezuela,'' 
which implements the Venezuela Defense of Human Rights and 
Civil Society Act of 2014, is a manifestation of our commitment 
to advancing respect for human rights, safeguarding democratic 
institutions, and protecting the United States financial system 
from the illicit financial flows from public corruption in 
Venezuela.
    Executive Order 13692 is aimed at persons involved in, or 
responsible for, certain conduct in Venezuela, including 
actions that undermine democratic processes or institutions, 
the use of violence or conduct that constitutes human rights 
violations and abuses, including in response to antigovernment 
protests, actions that prohibit, limit, or penalize the 
exercise of freedom of expression or peaceful assembly, as well 
as public corruption by senior government officials in 
Venezuela. The Executive order does not--repeat--does not 
target the people or the economy of Venezuela.
    I want to be clear. It is not our policy or intent to 
promote instability in Venezuela or to endorse solutions to 
Venezuela's problems that are inconsistent with its own legal 
system. The United States is not seeking the downfall of the 
Venezuelan Government, nor trying to sabotage the Venezuelan 
economy. We remain Venezuela's largest trading partner. 
President Maduro has publicly expressed a desire to improve our 
bilateral relationship, and we are open to direct communication 
with the Venezuelan Government. We maintain diplomatic 
relations and welcome conversations and debate. We remain 
committed to maintaining our strong and lasting ties with the 
people of Venezuela. We will not, however, refrain from calling 
out human rights abuses and other actions and policies that 
undermine democracy.
    We hope the Venezuelan Government will focus its energy on 
finding real solutions for the country's mounting economic and 
political problems through democratic dialogue with the 
political opposition, civil society, and the private sector. 
This year's National Assembly elections present an opportunity 
for Venezuelans to engage in legitimate, democratic discourse. 
And credible election results could reduce tensions in 
Venezuela. We have urged regional partners to encourage 
Venezuela to accept a robust international electoral 
observation mission, using accepted international standards, 
for those elections. Now is the time for the region to work 
together to help Venezuela to work toward a democratic solution 
to the challenges the country faces.
    We will also continue to work closely with Congress and 
others in the region to support greater political expression in 
Venezuela and to encourage the Venezuelan Government to live up 
to its required commitments to democracy and human rights, as 
articulated in the OAS Charter, the Inter American Democratic 
Charter, and other relevant instruments.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Lee follows:]

               Prepared Statement of Edward Alexander Lee

    Chairman Rubio, Ranking Member Boxer, members of the committee, 
thank you for inviting me to speak with you about Venezuela. I 
appreciate your interest in Venezuela and your support for U.S. 
assistance and our policies there.
    We are deeply concerned about the situation in Venezuela where last 
year legitimate political, economic, and social grievances and a lack 
of adequate democratic space brought protests and, unfortunately, 
violence. Tensions within Venezuela continue to build and the 
government has intensified its actions to repress dissent. The United 
States has called on the Venezuelan Government to respect human rights, 
uphold the rule of law, and engage in a peaceful, inclusive dialogue 
with Venezuelans across the political spectrum to alleviate the current 
tension. We have called on the Venezuelan Government to release Mayor 
Antonio Ledezma, opposition leader Leopolda Lopez, Mayor Daniel 
Ceballos, and others it has unjustly jailed, including dozens of 
students. We have encouraged the government to improve the climate of 
respect for human rights and fundamental freedoms, including respect 
for the freedoms of peaceful assembly and association. I know this 
committee shares our concerns, and we welcome your strong support for 
democracy in Venezuela.
    Venezuela's problems cannot be solved by criminalizing legitimate, 
democratic dissent. These actions appear to be a clear attempt by the 
Venezuelan Government to divert attention from that country's economic 
and political problems. Rather than imprisoning and intimidating its 
critics, we believe the Venezuelan Government should focus on finding 
real solutions through democratic dialogue. As I have mentioned, we 
will not refrain from speaking out about human rights abuses. We are 
joined in this by dozens of individuals and entities, including the 
U.N. High Commissioner on Human Rights, Organization of American States 
(OAS) Secretary General Insulza, the Peruvian, Costa Rican, and 
Colombian Governments, and the Inter-American Commission on Human 
Rights, among others.
    Advancing human rights and democratic processes are a key U.S. 
foreign policy objective. The President's March 9 Executive order 
``Blocking Property and Suspending Entry of Certain Persons 
Contributing to the Situation in Venezuela,'' which implements 
theVenezuela Defense of Human Rights and Civil Society Act of 2014, is 
a manifestation of our commitment to advancing respect for human 
rights, safeguarding democratic institutions, and protecting the U.S. 
fmancial system from the illicit financial flows from public coruption 
in Venezuela.
    Executive Order 13692 is aimed at persons involved in, or 
responsible for, certain conduct in Venezuela, including actions that 
undermine democratic processes or institutions, the use of violence or 
conduct that constitutes human rights violations and abuses, including 
in response to antigovernment protests, actions that prohibit, limit, 
or penalize the exercise of freedom of expression or peaceful assembly, 
as well as public corruption by senior government officials in 
Venezuela. The Executive order does not target the people or the 
economy of Venezuela.
    I want to be clear: it is not our policy or intent to promote 
instability in Venezuela or to endorse solutions to Venezuela's 
political problems that are inconsistent with its own legal system. The 
United States is not seeking the downfall of the Venezuelan Government 
nor trying to sabotage the Venezuelan economy. We remain Venezuela's 
largest trading partner. President Maduro publicly expresses a desire 
to improve our bilateral relationship, and we are open to direct 
communication with the Venezuelan Government. We maintain diplomatic 
relations and welcome conversations and debate. We remain committed to 
maintaining our strong and lasting ties with the people of Venezuela. 
We will not, however, refrain from calling out human rights abuses and 
other actions and policies that undermine democracy.
    We hope the Venezuelan Government will focus its energy on finding 
real solutions for the country's mounting economic and political 
problems through democratic dialogue with the political opposition, 
civil society, and the private sector. This year's National Assembly 
elections present an opportunity for Venezuelans to engage in 
legitimate, democratic discourse. And, credible election results could 
reduce tensions in Venezuela. We have urged regional partners to 
encourage Venezuela to accept a robust international electoral 
observation mission, using accepted international standards, for those 
elections. Now is the time for the region to work together to help 
Venezuela to work toward a democratic solution to the challenges the 
country faces.
    We will also continue to work closely with Congress and others in 
the region to support greater political expression in Venezuela, and to 
encourage the Venezuelan Government to live up to its required 
commitments to democracy and human rights, as articulated in the OAS 
Charter, the Inter-American Democratic Charter, and other relevant 
instruments.
    Mr. Chairman, I would like to end by saying that we sincerely 
appreciate the Senate Foreign Relations Committee's contributions to 
the promotion of human rights in Venezuela. The strong, bipartisan 
cooperation among this committee's members and staff to support the 
State Department's championing of democracy, human rights, and freedom 
of expression throughout the hemisphere is a credit to our great 
country.

    Senator Rubio. Thank you.
    Mr. Smith.

   STATEMENT OF JOHN SMITH, ACTING DIRECTOR OF THE OFFICE OF 
   FOREIGN ASSETS CONTROL, U.S. DEPARTMENT OF THE TREASURY, 
                         WASHINGTON, DC

    Mr. Smith. Chairman Rubio, Ranking Member Boxer, 
distinguished members of the committee, thank you for the 
invitation to appear before you today at this important hearing 
on political and economic developments in Venezuela, the human 
rights situation in the country, and the implications of these 
topics for regional stability and United States interests. I 
will address the administration's implementation of the 
sanctions measures in the Venezuela Defense of Human Rights and 
Civil Society Act of 2014, which was signed into law in 
December.
    On March 9, the President issued an Executive order 
declaring a national emergency with respect to the situation in 
Venezuela, which is a prerequisite for the imposition of 
economic sanctions under the International Emergency Economic 
Powers Act. The Executive order, which implements the targeted 
economic sanctions contained in the act and builds on them in 
key respects, imposes economic sanctions on persons listed in 
an annex to the order and any persons determined by the 
Secretary of the Treasury, in consultation with the Secretary 
of State, to have engaged in, or to have been responsible for, 
certain enumerated activities in relation to Venezuela such as 
undermining democratic processes or institutions, committing 
serious abuses or violations of human rights, limiting or 
penalizing the exercise of freedom of expression or peaceful 
assembly, or being involved in public corruption by senior 
Venezuelan Government officials.
    The Executive order also contains a status-based authority 
targeting current and former officials of the Government of 
Venezuela, which gives the Secretary of the Treasury additional 
flexibility to go after targets of concern for which there may 
be limitations on our ability to designate under the other 
conduct-based authorities. The President named seven Venezuelan 
individuals in the annex to the order. The property and 
interests in property of these individuals are blocked, meaning 
their assets within U.S. jurisdiction are frozen, and U.S. 
persons are prohibited from engaging in any transactions or 
dealings with them.
    Last week's action imposing sanctions on seven individuals 
focused on those involved in human rights abuses and the 
persecution of political opponents connected to the events 
surrounding the February 2014 protests highlighted in the act. 
Most of the individuals targeted are currently, or were 
formerly associated with, Venezuela's National Guard, the Armed 
Forces, the intelligence service, or the national police, 
members of which played key roles in repression against 
individuals involved in the protests. The Executive order also 
targeted a national-level prosecutor who was charged, based in 
part on implausible and/or fabricated information, several 
opposition members with conspiring to assassinate or overthrow 
President Maduro.
    Mr. Chairman, I want to acknowledge the leadership you have 
demonstrated on this issue, and I note that six of the seven 
targets in the annex to the Executive order were included in 
your list of individuals published last May.
    In addition to implementing the act, the order expands the 
designation criteria beyond the requirements of the act. This 
will allow greater targeting flexibility and the highlighting, 
targeting, and deterrence of additional problematic behavior 
that is ongoing in Venezuela. We remain committed to defending 
human rights, advancing democratic governance, and protecting 
the U.S. financial system from abuse.
    To be clear and as the chairman and ranking member and 
fellow speakers have said, these sanctions are not aimed 
against the country of Venezuela. They do not target the 
Venezuelan people, nor do they sanction the Venezuelan 
Government as a whole. To the contrary, this remains a targeted 
sanctions program focused tightly and precisely on bad actors 
undermining Venezuela's democracy, violating the human rights 
of its citizens, and diverting much-needed economic resources 
for personal gain, resources that could and should be invested 
for the public good.
    Turning specifically to the sanctions program's focus on 
public corruption in Venezuela, I would echo President Obama, 
who has said that fighting corruption is one of the great 
struggles of our time. Corruption, beyond its unethical nature, 
siphons off important resources that could be used to feed 
children or build schools and infrastructure that promote 
development.
    It is also worth noting the long history of the application 
of United States sanctions to foreign policy and national 
security concerns with a Venezuelan nexus. Even before this 
past year's events, we have not hesitated to designate 
Venezuelan banks and other companies for their connections with 
Iranian entities sanctioned for nuclear proliferation 
activities, as well as designating Venezuelan targets for their 
links to narcotics trafficking.
    As I conclude these remarks, I want to emphasize that we 
retain the ability to respond to events in Venezuela as they 
unfold. We stand ready with a powerful financial tool to deter 
abuses and target those who may choose to undermine democratic 
processes or institutions or to violate human rights in 
Venezuela.
    Thank you.
    [The prepared statement of Mr. Smith follows:]

                  Prepared Statement of John E. Smith

                      venezuela sanctions program
    Chairman Rubio, Ranking Member Boxer, distinguished members of the 
committee, thank you for the invitation to appear before you today at 
this important hearing on political and economic developments in 
Venezuela, the human rights situation in the country, and the 
implications of these topics for regional stability and U.S. interests. 
As the Acting Director of the Treasury Department's Office of Foreign 
Assets Control (OFAC), I will address the administration's 
implementation of the sanctions measures in the Venezuela Defense of 
Human Rights and Civil Society Act of 2014 (the Act), which was signed 
into law on December 18, 2014.
Executive Order 13692
    On March 9, the President issued Executive Order 13692 declaring a 
national emergency with respect to the situation in Venezuela, which is 
a prerequisite for the imposition of economic sanctions under the 
International Emergency Economic Powers Act (IEEPA). The Executive 
order, which implements the targeted sanctions contained in the Act and 
builds on them in key respects, imposes economic sanctions on persons 
listed in an Annex to the Order and any persons determined by the 
Secretary of the Treasury, in consultation with the Secretary of State, 
to have engaged in, or to have been responsible for, certain enumerated 
activities in relation to Venezuela such as undermining democratic 
processes or institutions, committing serious abuses or violations of 
human rights, limiting or penalizing the exercise of freedom of 
expression or peaceful assembly, or being involved in public corruption 
by senior Venezuelan Government officials. The Executive order also 
contains a ``status-based'' authority targeting current and former 
officials of the Government of Venezuela, which gives the Secretary of 
the Treasury additional flexibility to go after targets of concern for 
which there may be limitations on our ability to designate under the 
other ``conduct-based'' authorities. The President named seven 
Venezuelan individuals in the Annex to the Order. The property and 
interests in property of these individuals are blocked, meaning their 
assets within U.S. jurisdiction are frozen, and U.S. persons are 
prohibited from engaging in any transactions or dealings with them. The 
Executive order also suspends the entry into the United States of 
individuals who are determined to meet the criteria for economic 
sanctions.
    Last week's action imposing sanctions on seven individuals focused 
on those involved in human rights abuses and the persecution of 
political opponents connected to the events surrounding the February 
2014 protests highlighted in the Act. Most of the individuals targeted 
are currently or were formerly associated with Venezuela's National 
Guard, the Armed Forces, the intelligence service, or the national 
police, members of which played key roles in repression against 
individuals involved in the protests beginning in February 2014. The 
Executive order also targeted a national-level prosecutor who has 
charged--based in part on implausible and/or fabricated information--
several opposition members with conspiring to assassinate or overthrow 
President Maduro. Mr. Chairman, I want to acknowledge the leadership 
you have demonstrated on this issue, and I would note that six of the 
seven targets in the Annex to the Executive order were included in your 
list of individuals published in May of last year.
    In addition to implementing the Act, the order expands the 
designation criteria beyond the requirements of the Act. This will 
allow for greater targeting flexibility and the highlighting, 
targeting, and deterrence of additional problematic behavior that is 
ongoing in Venezuela. We remain committed to defending human rights, 
advancing democratic governance in Venezuela, and protecting the U.S. 
financial system from abuse.
Building on the Legislation
    While the Act focuses on human rights abuses specifically related 
to last year's protests, the Executive order expands our targeting 
authority to more broadly cover any significant acts of violence or 
serious violations of human rights in relation to Venezuela, and 
restrictions on the exercise of freedom of expression or peaceful 
assembly in Venezuela, allowing us to deter and address repression as 
it may arise. The order also includes designation criteria related to 
the undermining of democracy in Venezuela and to public corruption by 
senior Venezuelan Government officials. Finally, the E.O. gives us the 
discretionary authority to designate current or former Venezuelan 
Government officials. As we have learned from experience across a 
number of sanctions programs, this type of ``status-based'' authority 
is a useful tool that allows us to go after targets of concern for 
which there may be limitations to our ability to designate under 
``conduct-based'' authorities.
    To be clear, these sanctions are not aimed against the country of 
Venezuela. They do not target the Venezuelan people or the economy, nor 
do they sanction the Venezuelan Government as a whole. To the contrary, 
this remains a targeted sanctions program focused tightly and precisely 
on bad actors undermining Venezuela's democracy, violating and abusing 
the human rights of its citizens, and diverting much-needed economic 
resources for personal gain--resources that could and should be 
invested for the public good.
Public Corruption
    Turning specifically to this sanctions program's focus on public 
corruption in Venezuela, I would echo President Obama, who has said 
that fighting corruption is one of the great struggles of our time. 
Corruption, beyond its unethical nature, siphons off important 
resources that could be used to feed children or build schools and 
infrastructure that promote development.
    As the largest economy in the world, we remain Venezuela's primary 
trading partner and maintain financial ties to Venezuela. These 
relationships, while a natural outcome of our long-standing economic 
engagement with the region, also potentially expose our financial 
system to illicit financial flows from public corruption in Venezuela, 
as Venezuelan Government officials who control access to scarce U.S. 
dollars attempt to take advantage to reap illicit gains. This close 
interaction with the U.S. financial system, however, also gives us 
leverage from a sanctions perspective. Venezuela's heavy use of the 
U.S. dollar and Venezuelans' frequent travel to the United States make 
targets of our sanctions vulnerable. We expect our designations will 
have bite.
    In addition, Treasury is using the full range of its financial 
tools to address the exploitation of the U.S. financial system in 
furtherance of corruption schemes. Last week, for example, the 
Financial Crimes Enforcement Network (FinCEN) of the Department of the 
Treasury issued a public notice of finding that Banca Privada d'Andorra 
(BPA) is a financial institution operating outside of the United States 
that is of a ``primary money laundering concern.'' The finding that 
accompanied this notice outlined how a third-party money launderer in 
Venezuela worked with BPA to deposit the proceeds of public corruption, 
some of which transited the U.S. financial system, into an account at 
BPA. This network was well connected to Venezuelan Government officials 
and facilitated the movement of at least $50 million through the United 
States from 2011 to 2013 in support of this money laundering network.
Narcotics, Terrorism, and Iran
    It is also worth noting the long history of the application of U.S. 
sanctions to foreign policy and national security concerns with a 
Venezuela nexus. Even before the past year's events, we have not 
hesitated to designate Venezuelan banks and other companies for their 
connections with Iranian entities sanctioned for nuclear proliferation 
activities pursuant to our counterproliferation authorities. These 
actions included the designation of the International Development Bank 
in Caracas, a subsidiary of the Tehran-based Export Development Bank of 
Iran.
    Our actions to combat narcotics trafficking in Latin America 
pursuant to the Foreign Narcotics Kingpin Designation Act have 
proceeded to a steady drumbeat, and they have not overlooked Venezuelan 
targets. For example, in September 2011, OFAC designated four 
Venezuelan Government officials for acting for, or on behalf of, the 
FARC, a designated narcoterrorist organization. The four officials 
acted in direct support of the FARC's narcotics and arms trafficking 
activities in Venezuela. In September 2012, shortly after his arrest in 
Panama, OFAC designated a Venezuelan narcotics trafficker and his 
company. The trafficker was previously indicted in the Southern 
District of Florida on cocaine trafficking charges. And in August 2013, 
OFAC designated a former Venezuelan National Guard captain as a 
significant foreign narcotics trafficker. The captain had previously 
been indicted in the Eastern District of New York in March 2011 on 
multiple cocaine trafficking charges. He facilitated cocaine loads from 
Colombia through Venezuela in partnership with well-known narcotics 
traffickers in Colombia and Mexico.
    We have also acted to constrain Lebanese Hezbollah activity in 
Venezuela, designating in 2008 Hezbollah supporters and fundraisers 
active in Venezuela pursuant to our counterterrorism sanctions 
authorities. One of the targets was a senior Venezuelan diplomat who 
had facilitated the travel of Hezbollah members to and from Venezuela.
                               conclusion
    Before I conclude these remarks, I want to emphasize that we retain 
the ability to respond to events in Venezuela as they unfold. We stand 
ready with a powerful financial tool to deter abuses and target those 
who may choose to undermine democratic processes or institutions. In 
concert with this Congress, we have made clear that the United States 
will not stand idly by and witness the repression that has occurred in 
Venezuela this past year. We have demonstrated in numerous and diverse 
scenarios across the globe that the United States has the ability to 
target those involved in human rights abuses and the undermining of 
democracy and to prevent them from accessing the United States 
financial system. And when we do so, they will find themselves isolated 
domestically, regionally, and globally.

    Senator Rubio. Thank you both for being here and for your 
opening testimony.
    I will begin the questioning round. We will do 7 minutes 
since I think we will have time to get through all of this.
    Let me begin with you, Mr. Lee. I wanted to talk to you 
about the political state in Venezuela. So as I have outlined 
in my opening statements and so has the ranking member and the 
ranking member of the full committee, in Venezuela there is an 
increased encroachment on freedom of the press and 
communication. There has been an increased encroachment on the 
judiciary branch. It no longer truly operates as an independent 
branch. We have seen the prosecutorial powers used to not just 
fabricate evidence but to target political opponents. We have 
seen members of the opposition expelled by simple majority 
votes from the National Assembly. We have seen the jailing of 
virtually every prominent--at some point, virtually every 
prominent voice in Venezuela that opposes the Maduro 
government. And there is now this pattern of decree powers that 
have been given to Maduro, including the one this weekend.
    Is Venezuela still a democracy?
    Mr. Lee. The Venezuelan electoral system is actually quite 
good in terms of the mechanical process. What the government 
has done is used a variety of means, gerrymandering, massive 
use of public funds, trumped-up charges against key opposition 
people, a systematic undermining of the independence of the 
media to tilt all the electoral ground in its favor. That still 
does not change the reality of how Venezuelans view the 
situation in Venezuela or how they perceive the government's 
handling. And if you look at polling, the polling shows that 
the majority of Venezuelans view the government mismanaging the 
economy and things are getting worse.
    We call on the Venezuelan Government to announce elections. 
We call on the Venezuelan Government to hold those elections in 
a way that provides the political space for the opposition, and 
we believe that if that is done and, in particular, if the 
international community can provide electoral monitoring of 
those elections, the Venezuelan people will have an opportunity 
to express their views.
    Senator Rubio. Well, thank you, Mr. Lee. And I appreciate 
your answer, and I understand it. I would just suggest that we 
need to view this from a different perspective because in Latin 
America, there is a troubling trend, and that is, people come 
to power through an election and then begin to undermine all 
the apparatus of a free society. So if I am a member of the 
opposition and there is no free press that can cover my 
activities, because they are not allowed to operate, so I have 
no way to get my word out, Maduro has unfettered access to the 
national airwaves, I have no access to the national airwaves. 
If I speak out too vehemently against him in the National 
Assembly, I could be removed and arrested. First they remove 
you so they can strip you of the immunity of being a deputy, 
and then they arrest you for it. And not to mention that there 
is evidence of electoral fraud in the last elections.
    You combine all these things--and just because you have an 
election, or say you had an election, does not make it a free 
and fair election. This is the pattern that has been followed 
in places like Nicaragua and other places as well. There is 
more to democracy than just holding an election. And certainly 
they are capable of having a free and fair election 
mechanically, but when the people running against you cannot go 
on the airwaves, cannot have TV shows, cannot speak out or they 
will be arrested, the entire media is owned by your cronies, 
you have unfettered access to the airwaves, they have none, and 
if you are part of the opposition and you oppose Maduro, you 
can be arrested, in my mind that does not sound like a 
democratic society.
    And I think it is important for us to understand that this 
is the new way tyrants are now operating. They dress themselves 
up as democrat, but then they end up governing in much 
different ways. And that is an important distinction for us to 
point to.
    I want to get to the issue of individuals. There are a 
number of individuals that were not sanctioned that I would 
encourage us to continue to look at. For example, last year 
Generals Aref Jimenez and Julio Cesar Morales Prieto, who held 
senior positions in Venezuela's directorate of armaments and 
explosives, played a key role in their efforts to create and 
support the government-affiliated colectivos. There was 
basically already regular armed groups. The DAEX, by the way, 
is currently led by Gen. Ignacio Velasquez Ramos. This is a 
group that has been intricately involved in cracking down on 
dissent.
    Of the seven designated individuals that constitute a 
national security threat to the United States, their bosses are 
not represented. For example, Gen. Vladimir Padrino, the 
Minister of Defense and as such, the highest ranking military 
officer, has not been held responsible for human rights 
violations committed by his subordinates. Some of the sanctions 
were based on Venezuelan officials allegedly involved in 
corruption and illicit activities, but we did not include 
Diosdado Cabello, the head of the Parliament who has been 
identified by defectors and others as the head of the cartel, 
the Los Solis, a drug cartel operated by Venezuelan generals.
    And then there is multiple print and broadcast reports, 
articles, and even books detailing the presence in the United 
States of Chavez and Maduro government officials that have 
become fabulously wealthy from what are alleged to be corrupt 
activities. They too use our financial system to transfer 
funds. One example is an individual by the name of Alejandro 
Andrade, who is a former army lieutenant and a fellow plotter 
of Chavez in the 1992 attempted coup that cost the lives of 
over 300 Venezuelans and who was later appointed by Chavez as 
the treasurer of the country. He is reported to be living in 
multimillion dollar equestrian estate in south Florida. And 
there are many other former officials, bankers, and business 
executives also living or owning property in the United States 
that are alleged to have acquired fortunes illicitly with the 
complicity of the Chavez/Maduro government. And I would 
encourage you to look at some of them as well.
    Mr. Smith, has the Treasury looked at certain financial 
institutions in Venezuela or the Venezuelan banking system as a 
whole to see who might qualify as financial institutions of 
primary money laundering concern under section 311 of the USA 
PATRIOT Act?
    Mr. Smith. Senator, I can tell you that with respect to 
many of the names that you talked about, we continue to 
investigate vigorously under all of the prongs of the Executive 
order. Unfortunately, you are asking me about authority, the 
particular one with respect to the financial institution--you 
are asking me about an authority that is administered by one of 
my sister agencies, the Financial Crimes Enforcement Network, 
and I can take that question back to them.
    Senator Rubio. Well, let me just encourage you to act on 
information my office has received and to money laundering 
carried out by the petroleum company, PDVSA--P-D-V-S-A. There 
are close ties, according to these allegations and information 
that I have received between this organization and money 
laundering and drug trafficking activity. And there are a 
number of names that have been forwarded to us as individuals 
involved in this illicit activity: Rafael Ramirez, Nervis 
Gerardo Villalobos, Omar Farias, Carlos Luis, Aguilera Borjas, 
Alcides Rondon, and Rafael Jimenez Villaroel. We have received 
significant information about their ties between the state-run 
oil entity and drug trafficking and other laundering activities 
within Venezuela. And I will have more on this topic in a 
moment, but I want to recognize the ranking member.
    Senator Boxer. Thanks so much, Mr. Chairman.
    Gentlemen, whoever feels comfortable answering these 
questions. President Obama's Executive order imposing sanctions 
on Venezuelan officials implicated in human rights violations 
and corruption was met with widespread criticism from Latin 
American nations. This is very upsetting to a lot of us. At a 
special meeting in Ecuador on Saturday, the 12-nation Union of 
South American Nations issued a statement criticizing the U.S. 
action as ``an interventionist threat to sovereignty and the 
principle of noninterference in the internal affairs of other 
countries,'' and calling for the Executive order to be 
rescinded.
    In addition, President Maduro has said he will use next 
month's Summit of the Americas in Panama to denounce the 
sanctions.
    What steps are we taking to engage with Latin American 
nations about the recently announced sanctions? Have any 
countries in the region expressed support for our action?
    Mr. Lee. I will start and then my colleague will finish, 
Senator.
    Senator Boxer. Okay.
    Mr. Lee. We need to balance our condemnation of the human 
rights violations, which came through loud and clear with the 
law and the Executive order, as well as the various U.S. 
Government statements over the past 2 years, with the need to 
convince the region to act----
    Senator Boxer. Wait a minute. Just tell me. Are there any 
nations who support what we did in Latin America, and what are 
we doing to make sure they understand that what we did was the 
right thing, the moral thing, the correct thing for the people 
of Venezuela? So instead of reading me something, I know it is 
diplomacy and I understand all that. But on the ground, are we 
talking with our friends in region? Because it is upsetting to 
me that we see so little support.
    Mr. Lee. Senator, you are right that the Latin American 
community has sharply criticized our sanctions against 
individual Venezuelans. We have made a full court press to 
explain that what we are doing represents our principles and 
that we are exercising our own sovereignty in not allowing 
human rights violators or corrupt actors to come into our 
country or to enjoy our financial system.
    At the same time, we point out that and we urge the other 
Latin American countries to provide greater efforts with the 
Venezuelan Government to try to bridge the differences within 
Venezuela----
    Senator Boxer. Okay. So just to cut through. We are working 
with our friends in the region to get them to understand why 
what we did was right. Yes or no?
    Mr. Lee. Yes.
    Senator Boxer. Okay. And will the crisis in Venezuela be a 
priority for President Obama when he attends the Summit of the 
Americas?
    Mr. Lee. Yes, ma'am.
    Senator Boxer. And how do United States sanctions fit into 
a broader United States strategy to address the growing crisis 
in Venezuela? In other words, what else are we doing besides 
the sanctions, besides talking to other nations? Do we have 
anything else that we are working on?
    Mr. Lee. The greatest chance for Venezuela to solve its 
problems is holding a credible electoral process, and for that, 
we need to work with the international community, particularly 
Venezuela's neighbors. And we were encouraged that UNASUR 
recently, after its meeting in Quito, issued for the first time 
a statement that has called on Venezuelans to engage in 
dialogue and to hold an election to try to bridge the 
differences, and we believe that is a positive step forward. We 
would like our Latin American partners to more vigorously 
champion the need for an electoral monitoring mission in 
Venezuela. But, yes, we are constantly engaged with likeminded 
countries, and we have seen a growing appreciation in Latin 
America that the economic situation in Venezuela is untenable 
and the Venezuelan Government's effort to try to control 
political opposition to it through repression is only greatly 
exacerbating the problem.
    Senator Boxer. Well, I want to say thank you for that. I 
agree with you that this upcoming election is critical. It is 
absolutely critical. And I agree with the comments made by my 
chairman here about having a vote and then having someone 
elected and declaring martial law and taking over and saying I 
can just decree this, that, and the other. That is what is 
going on.
    But later this year, Venezuela is expected to hold their 
parliamentary elections, and opposition leaders view these 
elections as an important chance to gain seats in the National 
Assembly and enable the opposition to put pressure on Maduro, 
particularly as his approval ratings have plummeted. So your 
point of focusing on the election--I really appreciate that, 
and I think that is what we should all focus on because I think 
clearly, if you look at what the people are saying in terms of 
their suffering and the rest, this could be a very important 
turning point--this election--if it is free and fair.
    And I am concerned about the lack of support in the region 
for our sanctions, and I think we should tell, as you are 
already, our friends in the region that it is our right as a 
nation not to allow people to come here and hide their money 
and all the rest of it. That is our right as a sovereign 
nation. And if we can build support, pivot to this upcoming 
election, I think it is absolutely crucial. And if it is not 
free and fair and if there is suppression, it is very 
dangerous.
    So I want to again thank my chairman for these very 
important hearings and thank both of you for your contribution.
    Senator Rubio. Thank you, Senator Boxer.
    Senator Gardner.
    Senator Gardner. Thank you all to the witnesses for being 
here today, and I join Chairman Rubio and other members of the 
subcommittee in expressing my utmost concern about the state of 
affairs in Venezuela.
    Given his dwindling public support, it seems that President 
Maduro has inherited all the authoritarian instincts of the 
late Hugo Chavez but none of his charm.
    I commend the administration for imposing additional 
sanctions on Venezuelan officials last week, though that action 
has predictively ushered in hysterical reaction from Caracas. I 
look forward to working with the committee to ensure that 
genuine democracy returns to Venezuela in our lifetime.
    We have had a lot of conversations this morning about the 
elections and the order. And so given the United States 
sanctions announcement, the Venezuelan National Assembly has 
granted President Maduro the power to govern by decree until 
the end of 2015. Mr. Lee, you talked about the mechanical 
process of elections being good or sound in Venezuela, at least 
at this point. Do you see, leading up to the elections, this 
decree power, and what should we look for? Do you see it 
impacting the election, and what should we look for in terms of 
their ability to tilt the playing field, as you mentioned some 
of the things they have been trying to do in the past?
    Mr. Lee. Well, we are clearly concerned that President 
Maduro might use his decree powers in a way that would 
complicate even more the ability to hold free and fair 
elections. We will have to see how he uses his decree powers, 
which last until the end of the year, or during the period in 
which the elections are going to be held.
    Again, I think that one of the most effective ways to 
pressure the Venezuelan Government to do the right thing with 
regard to elections is to encourage the international 
community, and in particular Venezuela's Latin American 
neighbors, to emphasize to the government the absolute 
importance of holding free and fair elections. Democracy and 
the commitment to support democracy is not only an obligation 
by Venezuela under the OAS but in many of its other subregional 
organizations that it is a member of, including MERCOSUR and 
UNASUR. And so we very much want the other countries in the 
region to try to help broker an understanding between the 
government and the opposition to provide the conditions for an 
election that is viewed as credible by all. We believe that is 
as a solution would go a long, long way to addressing some of 
the major, major problems that the country is facing.
    Senator Gardner. Thank you, Mr. Lee.
    Mr. Smith, kind of following up on those comments, what has 
the reaction been to our sanctions in the region, and have we 
coordinated these sanctions with any of our allies in the 
region such as Brazil or Colombia?
    Mr. Smith. I will defer to my State Department colleague to 
talk about the reaction in the region. I will say that we do 
coordinate with allies in the region and allies around the 
world as we can. And so most of the time, we have what is 
called a prenotification process where we work with other 
countries to give them notification of what we are going to do 
so they may not be surprised and they can work with us.
    Senator Gardner. Thank you.
    Mr. Lee, do the anti-U.S. demonstrations on the streets of 
Caracas and elsewhere represent a security threat to remaining 
U.S. diplomatic and civilian personnel or their interests?
    Mr. Lee. Clearly, you know, the safety of our staff in 
Caracas is paramount just like the safety of American citizens 
living in Venezuela is paramount. Up to now, we have not seen 
targeting of Americans per se. So for that, we are encouraged.
    Senator Gardner. Have we taken any precautions? Has the 
State Department taken any precautions to protect our citizens 
and diplomats?
    Mr. Lee. Yes, sir. We have a system to notify Americans 
residing in Venezuela whenever we are aware of information 
suggesting that Americans may be targeted or there may be 
disturbances. And so we have a network that we use to get that 
information out.
    Our Embassy also is constantly reviewing its posture with 
respect to any possible disturbances. And so this is something 
that we just do as a matter of course.
    Senator Gardner. Mr. Chairman, I know we have votes coming 
up. So I will yield back my time so that you can get some other 
questions.
    Senator Rubio. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Lee, I listened to your statement, and I have to 
wonder. I do not know why one would even suggest or have to 
feel the necessity to say that we are not trying to promote 
instability in Venezuela. We clearly are not trying to promote 
instability in Venezuela. But if we are going to make that 
statement about human rights and democracy anyplace in the 
world--forget about Venezuela--we are in a sad state of 
affairs. This is not an American view. This is what the OAS 
Charter says. This is what the Inter-American Democratic 
Charter says. This is what the U.N. Declaration of Human Rights 
entails.
    So when you say that and then when you say--and I cannot 
believe that you included it in your opening remarks, 
suggesting that President Maduro wants to improve our bilateral 
relationships. Yes, that is a good way to do it by unilaterally 
striking at reducing our Embassy and taking a whole host of 
other aggressive and active postures against the United States. 
It boggles my imagination.
    It also worries me when the State Department in a different 
context--I know you were down in Cuba before all the 
announcements. I guess I should have seen your effusiveness as 
a sign of things to come. And then see that others in the 
Department talked about it is not who you invite to the table, 
speaking to the Summit of the Americas, but what you speak 
about. Well, here we are with both Cuba, which of course has no 
democracy and human rights, and Venezuela, under which 
democracy and human rights are a deep threat. And I do not get 
the sense that the State Department has the drive and the 
conviction of these views by actions.
    I think it would be fair to say that we allowed the Latin 
Americans, when Senator Rubio and I were pursuing the 
legislation, which we thought was necessary to do--we were 
asked by the administration and told by the administration we 
are trying to allow our Latin American partners to get Maduro 
to move in a different direction. Is that not fair to say that 
we did try? We gave them space and time to try to achieve that.
    Mr. Lee. Yes, you did.
    Senator Menendez. And they did not succeed.
    Now, I look at the President's own declaration, which I 
applaud, and I look at drug trafficking--where do drugs end up? 
They end up on the streets of our cities. They end up addicting 
our young people. That is a national security threat. That 
would be whether it is Venezuela or any other part of the 
world. When you look at the amount of drug trafficking by 
Venezuela, when you look at the specifics of our own 
administration, the naming the Venezuelan National Guard as 
part of this process, I just do not quite get it as it relates 
to the statements that are made by the Department. The 
Venezuelan National Guard, members of the military directly 
involved in narcotics trafficking.
    Mr. Smith, we have this $2 billion--this comes after--$2 
billion. Even here, that is not chump change. Two billion 
dollars that ultimately works its way into the United States 
financial system; $2 billion taken from the people of Venezuela 
because PDVSA is, in essence, the national patrimony of 
Venezuela. And I think the people of Venezuela, who are 
suffering enormously as a result of the Maduro government, 
would be far better off with having those $2 billion in 
Venezuela helping their lives. So how are we acting as it 
relates to these $2 billion that made its way into the United 
States financial system?
    Mr. Smith. So, sir, I can say the Treasury Department has 
been engaged in vigorous actions across the board, and for many 
of the activities that you have been talking about, we have 
been working for years on narcotics trafficking. We have 
designated across the board narcotics traffickers----
    Senator Menendez. I appreciate it. Talk to me about the $2 
billion.
    Mr. Smith. When you asked about the $2 billion, that was an 
action that one of my sister agencies, the Financial Crimes 
Enforcement Network, took, and that is the agency that I would 
have to refer this question back to.
    Senator Menendez. Okay. So you have nothing to do with 
that.
    Mr. Smith. It is another part of my Department.
    Senator Menendez. So you cannot speak to that.
    Can you speak to that, Mr. Lee?
    Mr. Lee. No, sir.
    Senator Menendez. Oh, my God. We come to a hearing on 
Venezuela. There are $2 billion siphoned out of PDVSA, and no 
one is capable of responding to it. It is amazing. It is 
amazing.
    Let me ask you this. The actions that have been taken under 
our legislation--while I recognize the convenience of 
responding to Venezuelan sanctions against seven U.S. officials 
with parity, the parameters set forth in our legislation and 
their expansion under the President's Executive order leaves 
many other Venezuelan officials eligible given their complicity 
in human rights abuses, certainly more than the seven that have 
been named. I and other members have specifically called for 
Defense Minister Vladimir Padrino Lopez to be added to the list 
of sanctioned individuals given his role in authorizing the use 
of lethal force against unarmed citizens.
    To that end, do you agree that current United States law 
clearly leaves other Venezuelan officials eligible to be 
targeted for sanctions?
    Mr. Lee. Clearly we have, as a result of the law and the 
Executive order, the authorities to use against human rights 
violators and senior officials engaged in corrupt action.
    Senator Menendez. It is a simple question. I am not asking 
you who. I am asking you do you believe that the law allows you 
to pursue other Venezuelan authorities who may, in fact, fall 
in the categories as determined both by the law and the 
President's Executive order.
    Mr. Lee. Yes.
    Senator Menendez. Or, Mr. Smith, if you are the appropriate 
person----
    Mr. Smith. Yes, sir.
    Senator Menendez. Yes. Okay.
    And finally, can you tell me what we are doing about how 
OFAC makes a kingpin designation? What are the implications and 
consequences in pursuing kingpin designations, which several 
people here have been in Venezuela?
    Mr. Smith. Sure. OFAC works with a broad interagency group 
that is specified in the statute to make kingpin designations. 
We gather the evidence. We compile it. We run it through to 
make sure that there are no law enforcement or intelligence 
equities, and then we make the kingpin designations. The 
President has the authority to make what are called the Tier 1 
designations of significant foreign trafficking individuals or 
entities, and then OFAC has the authority to make those that 
are Tier 2, the material support and others. Last year we did 
over 200 kingpin designations. It is one of our most active 
programs, and we continue to pursue those vigorously.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman. I will be very 
brief. We have a vote coming up, and I would ask the panel to 
be brief. I just have a couple questions.
    First of all, the United States is enabling a dictatorial 
regime in Venezuela in my mind as it continues to routinely 
violate human rights affairs there in Venezuela, I would argue 
primarily because we continue to rely on imports of oil 
produced in their state-run enterprises. It seems somewhat 
hypocritical to me to want to limit what others are doing in 
Venezuela while we are quite happy to continue to import $30 
billion of oil each year. It is another reason why projects 
like Keystone continue to be critical to reduce our dependence 
on oil from bad actors like Venezuela.
    But I want to go to a separate issue and that is Cuba. You 
know, last year Venezuelan President Maduro referred to 
President Obama's shift in policy toward Cuba as ``a gesture of 
courage.'' Will this opening of United States relations with 
Cuba hurt or help our situation in trying to change behavior 
with Maduro? And what impact will this change in Cuba policy 
have on our long-term effort here to bring democracy back to 
Venezuela?
    Mr. Lee. Well, Senator, diplomacy is not a one-size-fit-
all. And so we basically have to kind of see where the 
opportunities are, make our decisions on what will best advance 
our national interests. And we have decided, for example, that 
it advances our national interests to combine, with regard to 
Venezuela, sanctions and reaching out to other Latin American 
likeminded countries to urge the Venezuelan Government to meet 
its democratic obligations. And so that is one strategy that we 
have used toward----
    Senator Perdue. I am sorry. Let me get to the point. We are 
going to run out of time and we are going to have to bolt.
    Specifically, if we move to a more liberal relationship 
with Cuba, what specific impact will that have on Maduro in his 
continuing dominance of his people in Venezuela?
    Mr. Lee. I am not sure that there will be a direct 
relationship.
    Senator Perdue. Okay. Thank you.
    The next is, you know, given the difficult situation in 
Venezuela--they have an oil economy basically. And as I see it 
down there, the consumer is really not able to bring their 
economy back. But how is this going to hurt their financing 
program, Petrocaribe, or its extensive support to Cuba?
    Mr. Lee. I think Venezuela's mounting economic problems 
manifest itself in a whole variety of ways, but one of them 
clearly is an inability to sustain the support to Petrocaribe 
like it had in the past. We have seen reports of Venezuela 
cutting back its subsidized support through Petrocaribe to a 
variety of Caribbean countries, and so that really puts into 
question the ability of Venezuela to maintain the level of 
support it had promised in the past.
    Senator Perdue. So one last quick question. If we really 
want to change behavior in Venezuela, oil is the way to do it. 
I just do not believe these sanctions go far enough to really 
change behavior. We see it in other parts of the world, Russia 
particularly. When we started out with similar sanctions there, 
it had no impact.
    Mr. Smith, what do you believe would be the impact if we 
really were to get serious about changing behavior in Venezuela 
to go after the oil? And that means that we would have to pay a 
price, too, because the oil that we bring in, the $30 billion, 
is done in 
JV's I think with U.S. corporations with their state-owned oil 
enterprise.
    Mr. Lee. May I answer?
    Senator Perdue. Yes, please.
    Mr. Lee. After consulting with a variety of civil society 
actors and political actors in Venezuela, we have made the 
decision that it really advances United States interests not to 
use sectoral sanctions in Venezuela.
    Senator Perdue. What is that? I am sorry.
    Mr. Lee. To use like an oil sanction.
    Senator Perdue. So specifically, we think that these 
sanctions will change the behavior of this despot in Venezuela.
    Mr. Lee. We believe the sanctions, under the authorities 
that we have as a result, help highlight unacceptable 
behavior----
    Senator Perdue. How long do you think it will take to 
change that behavior specifically?
    Mr. Lee. I cannot say.
    Senator Perdue. Well, what is a reasonable person's 
estimate?
    Mr. Lee. I really cannot say.
    Senator Perdue. Let me ask it differently. So how long 
would we be patient to watch the human rights violations in 
Venezuela before we stiffen those sanctions?
    Mr. Lee. We think that if Venezuela is going to stop this 
downward slide, it is basically through more democracy and the 
best way to express that is through holding elections that are 
seen as credible. And we believe that the international 
community can play a role toward that. I think we need to 
combine the use of sanctions against individuals in order to 
express our democratic principles----
    Senator Perdue. I am sorry to interrupt. But those 
sanctions against individuals--we have really very little 
evidence around the world that sanctions against individuals 
have ever really changed behavior. So, again, I think it is 
more a question now let us see how long it is going to take. My 
question is, What is a reasonable expectation on our part of 
these sanctions relative to changing behavior? It is one thing 
to have an election, as we just talked about, but to have a 
credible election to give a free vote for the people down 
there--I mean, what should be a reasonable timeframe while we 
wait for these to take effect?
    Mr. Lee. I cannot say, sir.
    Senator Perdue. Thank you very much.
    Senator Rubio. Thank you.
    I am going to wait for Senator Kaine to return because we 
are in the middle of this vote, and I appreciate your 
questions.
    So let me, Mr. Lee, just touch on the issue of human 
rights. They have been well documented, we know, some of them 
that have already happened. I want to inform you of a couple 
more that I hope the State Department will look at closely as 
we continue to examine other people that can be sanctioned.
    The first is--have you been made aware of a facility that 
is colloquially referred to as La Tumba, The Tomb? Have you 
heard that term?
    Mr. Lee. No, sir.
    Senator Rubio. Okay. Well, let me tell you about it based 
on the information we have received. It is a detention area 
that is located four stories below the Plaza Venezuela, which 
is a SEBIN station where detainees are held captive in 2-to-3-
meter-sized rooms. 
They are subjected to minimum temperatures and permanent neon 
lighting and denied sunlight so that they can become 
disoriented and suffer physical and psychological 
deterioration. We have also received information that Gabriel 
Valles, Gerardo Caredo, and Lorent Saleh have been held captive 
in that facility and are subjected to this torture. The purpose 
of this treatment is to coerce from them false testimony 
against members of the opposition.
    I also want to make you aware of the circumstances 
surrounding the death of Rodolfo Gonzalez. The information we 
have received--obviously, he was an opposition activist, a 
senior citizen, and he was jailed in a SEBIN facility beginning 
in April 2014, supposedly for conspiring against the 
government, which was actually false. During this time, he was 
visited by Iris Varela, who is the minister of the national 
prison system days before his apparent suicide while in 
custody.
    And according to the information we have received, Varela 
threatened to transfer him to a general population prison, 
basically with other common criminals--with common criminals--
not other common criminals. He was instructed to gather his 
personal belongings and he was even taken to a prison medic for 
an examination prior to this transfer.
    According to the information provided to us, Mr. Gonzalez's 
lawyer has confirmed that he was visited by one of the 
individuals that is sanctioned. It is a prosecutor, Katherine 
Harrington, who offered to improve the conditions of his 
detention in exchange for testimony which would incriminate 
Antonio Ledezma in a conspiracy against the government.
    So these are just two recent pieces of information we have 
been made aware of just in the last few days that call to light 
the sort of human rights violations that are occurring in 
Venezuela. And I would encourage the State Department to take 
seriously, as this information comes in, because it gives us 
more and more people that we can look at for sanctions and also 
to shame them publicly.
    One day we are going to have freedom in Venezuela. There 
will be a functional government again and hopefully a better 
future for the Venezuelan people, and these individuals 
responsible for the human rights abuses are going to have to be 
accountable for what they are doing. So that is why it is so 
critical that these human rights abuses be documented now so 
that in the future these individuals will be held to account 
for the crimes they are committing against the people of 
Venezuela.
    Senator Kaine, I will leave you in charge while I go vote, 
and I will be back. So you probably have 10 minutes of 
questions.
    Senator Kaine. I will easily occupy that, Mr. Chair. Thank 
you.
    And thanks to the witnesses and all.
    The questions that I have been here to hear and your 
testimony I think has answered questions that I was going to 
ask about the internal situation in Venezuela and the relations 
of our sanctions to that situation and the human rights abuses.
    I want to talk about the relationship of what is happening 
in Venezuela with neighbors, so in particular, Colombia, which 
is such a strong ally of the United States.
    I was in Colombia in the middle of February, and I was 
actually there on a day when President Maduro came out with a 
fairly incendiary set of statements not only against the United 
States but also against Colombia. I mean, it just appeared, the 
classic situation where when things are going bad at home, find 
somebody else to blame. That he was blaming the United States 
did not strike me as that unusual. That is a classic page out 
of the playbook. But it was a little bit unusual I thought, the 
degree of some of the rhetoric that he was leveling against 
Colombia.
    Now, that relationship is an important one. It is a 
complicated one. A lot of Venezuelans live in Colombia and vice 
versa. Venezuela has at times been sort of a haven for the FARC 
and at other times has helped advance the peace discussions 
between the Colombian Government and the FARC. Economic 
challenges in Venezuela could at an important time in Colombia, 
even kind of a fragile time in these negotiations, push folks 
across the borders in ways that would be destabilizing.
    So I was just wondering, especially you, Mr. Lee, if you 
would talk about the situation in Venezuela now as it might 
affect Colombia, who has got to be one of our best partners in 
the world right now.
    Mr. Lee. Well, I think one of the reasons why--of the three 
Foreign Ministers that UNASUR countries sent to Venezuela, one 
of them was the Foreign Minister of Colombia. And that reflects 
Colombia's important stake in what happens in Venezuela as a 
commercial partner, as a place, in the past, that had received 
large numbers of Colombians, and a preoccupation that has grown 
over time over what is going to be the impact of Venezuela's 
chronic mismanagement of its economy and how will that spill 
over into Colombia.
    An additional element in all of this is the Colombian 
Government, particularly under President Santos, was greatly 
appreciative of the Venezuelan Government's support for the 
peace process in Colombia, which has been kind of a central 
focus of President Santos.
    And so the various examples that you talked about highlight 
this cross-cutting sensitivity, and I think probably the best 
way of summarizing it is the Colombian Government is very 
conscious that if conditions continue to deteriorate in 
Venezuela, this will have an adverse and a direct adverse 
impact on Colombia. So that is one of the reasons why you have 
seen the Colombian Government trying to champion the region to 
focus along with Brazil and Ecuador. But in a sense, out of the 
three countries, what happens for good or bad in Venezuela has 
a far more direct impact on Colombia.
    Senator Kaine. How do you interpret the statements of 
President Maduro kind of blasting Colombia for some of their 
own internal problems?
    Mr. Lee. Well, President Santos like President Obama and 
Secretary Kerry is in good company because there is a certain 
theatrical element in the statements of President Maduro. The 
incident that you are referring to was basically President 
Santos coming to the defense of a former Colombian President 
that in his view had not been accorded with the respect due to 
a former Colombian President who was basically trying to 
demonstrate concern for the human rights of a key political 
prisoner.
    Senator Kaine. This question may have been asked when I was 
over voting, out of the room. Talk a little bit about the 
current status of the situation with the reduction of U.S. 
Embassy personnel in Venezuela and how those discussions are 
ongoing with respect to the presence of Venezuela Embassy and 
consulate personnel in the United States.
    Mr. Lee. We have proposed to the Venezuelan Government the 
need for bilateral discussions. We have proposed a team to meet 
with them so they can appreciate why we staff our mission the 
way they do and also for us to share with them how we see their 
staffing up here. Staffing in our respective diplomatic 
missions is essentially a function of what the host government 
agrees to and our operational requirements. And I think it is 
important for the Venezuelan Government to understand that we 
need a certain level of staffing in order to ensure the 
protection of our mission, in order to provide the level of 
consular services for Americans, and also to provide travel 
documents to Venezuelans who wish to come to the United States. 
Last year our Embassy in Caracas adjudicated 250,000 Venezuelan 
submissions for travel documents. We might not be able to 
support all of those functions if our staffing is reduced to 
certain numbers.
    Senator Kaine. Mr. Smith, I would like to ask about the 
impacts of the sanctions thus far. Obviously, Venezuela is 
dealing with huge issues because of years of economic 
mismanagement, and then low oil prices themselves impose a 
significant cost on an economy that has really leaned heavily 
on that resource instead of having a more diverse economy. Talk 
a little bit about, to the extent that you can, what is the 
marginal effect of the sanctions from our side compared to the 
overall economic challenges, most of their own making, that 
Venezuela is dealing with.
    Mr. Smith. Thank you, Senator. I think one of the most 
important things to understand about the sanctions and to 
remember and that we emphasize is that these were targeted 
sanctions just against the seven individuals. So I think to the 
extent that it would affect Venezuela as a whole would be any 
kind of concern about the idea that we could do further 
sanctions with respect to the country there, I think our 
financial institutions in the United States and around the 
world may be a little bit more hesitant to deal with some of 
the potential bad actors in the Venezuelan society in the 
government because of the impact of the sanctions.
    But one of the things that we also emphasize with these 
sanctions is they were not targeted at the Government of 
Venezuela. They were not targeted at the country of Venezuela, 
and they were not targeted at the people of Venezuela. So there 
has been the mix of--the impact--I think it would have been 
felt mostly on the individuals targeted and others that might 
believe they are to be targeted next.
    Senator Kaine. And just kind of thinking down the road in 
terms of the strategic challenge you have in a situation like 
this, while some would say sanctions against just a few 
individuals, that is not showing the strength that they might 
want to see. Another argument would be, look, if there is an 
economic kind of collapse underway because of the mismanagement 
of the current government, to do bigger sanctions against the 
government would enable them to better say, oh, look, we are 
just having problems because the United States is doing bad 
things. Instead, by doing the sanctions against individuals, 
hopefully there would be more of an understanding among the 
Venezuelan population that the economic challenges they are 
facing are because of a government that is mismanaging the 
economy rather than because of the effect of the external 
sanctions. So I am kind of thinking through. That has to be, I 
guess, one of the balancing acts that you are using as you 
decide whether to make these sanctions just against individuals 
or against financial institutions or against the government 
itself. Am I correct in analyzing it that way?
    Mr. Smith. I can start. I would say, yes, you are right. I 
think one of the things that people do not recognize with 
sanctions is that more is not always better, that there could 
be some disadvantages to going out with the broad sanctions 
that would have significant disadvantages to the U.S. national 
security-foreign policy relationship not just with Venezuela 
but in the region. And so what we try to do is do the correct 
balance to make sure that in this case what we were doing was 
focusing on the bad actors, those that were undermining 
democratic institutions and that were abusing human rights. And 
the purpose of the sanctions--this first salvo was to actually 
show our concern with the human rights situation in Venezuela 
and really call attention to that.
    Senator Kaine. Mr. Lee.
    Mr. Lee. I would just add the action that we took against 
the seven--and we focused on seven very emblematic individuals 
who clearly had significant ties to human rights violations or 
corruption, and we were very confident in being able to 
highlight that. And that message was clearly heard.
    But we believe that we need to combine a statement of 
principle and one of the ways of demonstrating those principles 
are the use of targeted sanctions against individuals but also 
trying to work, as best we can, with likeminded countries in 
the region to use their influence to try to help the Venezuelan 
opposition broker a relationship with the Venezuelan Government 
that would allow the political space for a credible electoral 
outcome in the next National Assembly elections. This 
particular message of working and trying to promote that 
discussion is much more effectively done by other countries 
than ourselves, and so we have to work somewhat indirectly 
through other countries to help that process.
    So it is a combination of these statements of sanctions 
against specific individuals but this is all in the context of 
working collaboratively with likeminded countries in the region 
to try to influence the behavior of the Venezuelan Government.
    Senator Kaine. We have been having, obviously, and will 
continue to have, significant discussions about Iran in this 
committee and in this chamber. Talk a little bit about the 
current Iranian-Venezuelan relationship, the degree of Iranian 
influence that you see in Venezuela these days.
    Mr. Lee. Well, we are very vigilant about this particular 
relationship, which basically came into full fruition under 
previous Iranian and Venezuelan Presidents. Most parts of the 
agreements that have been reached by the two countries or 
statements have been mostly on economic or trade sets of 
issues. The overwhelming majority do not seem to have gone 
anywhere. Those joint ventures that have been established--we 
hear indirectly that lots of the Iranian companies complain of 
the conditions to operate in Venezuela like just about any 
other company finds itself in Venezuela.
    But our particular attention is on Iranian activities, 
whether of their intelligence services or engaging in possible 
activities in money laundering or possible actions for avoiding 
sanctions on Iran. So these are all areas that we pay 
particularly close attention to on an ongoing basis.
    So I would say, yes, this is a source of concern, and this 
is a relationship that we pay a lot of attention to.
    Senator Kaine. And the last question I would like to ask is 
a little bit about Venezuela's influence in the region. Senator 
Gardner was, I think, being comical when he said the current 
Venezuelan leader had some of President Chavez's weaknesses but 
none of the charm. Clearly Venezuela was a regional player 
because of the strong personality of the previous leader but 
also because of the ability to use the resource of oil to win 
friends and influence people. Their own economic challenges 
have made that harder to do. Lower oil prices have complicated 
that situation, and I think the point that Senator Gardener was 
making that at least in terms of sort of the charismatic 
outreach to other nations, that is not the current President's 
strong suit. But that is my perception from afar.
    Talk a little bit about Venezuela's ability to project 
influence in the Americas during this time of deepening 
economic crisis.
    Mr. Lee. Well, I think Venezuela's ability to exercise 
influence has been gravely undermined by its serious economic 
problems and its ongoing efforts to try to stave off a balance 
of payments crisis. And you see this being played out in a 
variety of areas. Venezuela is unable to support Petrocaribe in 
a way that it had before. It has cut back significantly on some 
countries. Venezuela no longer can exercise the financial 
largesse that it could before. If anything, Venezuela is 
essentially staggering from one financial crisis to another 
trying to scrounge up enough money in order to pay for 
desperately needed imports for its population. And for the 
first time, we are hearing serious concerns about Venezuela's 
ability to have enough reserves to pay for food imports.
    So all of these things conspire to basically put Venezuela 
very much on a defensive. It is one of the reasons for the 
Venezuelan Government trying ever so hard to obfuscate what is 
going on in Venezuela, to try to shed and put the blame on 
outside actors, of which we are only one. There are a variety 
of other countries or Presidential leaders from other countries 
that have been identified as doing a variety of imaginary bad 
things to Venezuela. So all of this is, I think, a reflection 
of the turmoil that Venezuela is finding itself.
    Senator Kaine. And just kind of order of magnitude, you 
know, lower oil prices has been a very good thing for the world 
and for the United States generally. It does not mean every 
aspect of it is good. So Colombia, a great ally--lower oil 
prices hurts them. But they have a more diverse economy. Talk 
about oil revenues as a chunk of the Venezuelan economy or a 
chunk of the Venezuelan governmental budget. Give me an order 
of magnitude so that I can understand how much this drop and 
likely somewhat long-term low price is going to be affecting 
them.
    Mr. Lee. Well, Venezuela depends--95 percent of its 
earnings from its oil sector. And chronic undercapitalization 
of its oil industry, wasteful government policies, price 
controls, labor controls, a three-tiered exchange system that 
puts a premium on insiders taking advantage of it, all of these 
have conspired to make the Venezuelan economy go into recession 
last year, even at a time when oil prices were about $100 a 
barrel. Now, with oil prices half of that, Venezuela is facing 
a really major foreign exchange problem. And Venezuela imports 
now far more than it did 10 years ago. So it imports virtually 
everything, all of its foodstuff, almost all of its consumer 
goods. And so you have seen kind of a progressive deterioration 
of Venezuelan companies to manufacture things because they 
cannot get the dollars necessary for the inputs to manufacture 
things in the country. And so that is one of the reasons why 
you are seeing widespread shortages and chronic shortages in 
the country.
    Now with the drop of the oil prices to $50, that can only 
get infinitely worse. The IMF, for example, projects that 
Venezuela will suffer a contraction of 7 percent this year. 
Already the inflation rate is projected to go from 64 to over 
80 percent. So we are dealing with a very chaotic Venezuelan 
economy and a Venezuelan Government that seems struggling to 
try to take any effective measures to arrest this downward 
economic slide.
    Senator Kaine. And I just wanted to underline. I think I 
heard you right--kind of the statistic--95 percent of 
Venezuelan Government revenues are derived from the oil 
industry?
    Mr. Lee. Yes, sir.
    Senator Kaine. Last question. You know, talking about the 
prospects for a parliamentary or assembly--the legislative 
elections, again from afar, but just given the recent activity, 
the imprisonment of political opposition leaders, even some 
with significant posts, mayorships of major cities, the 
emergency decree entered into earlier in the month giving the 
President nearly complete power--I mean, you would have to be 
pessimistic. We got to keep pressing, but I mean, we should not 
be sugar-coating and suggesting that there is a high likelihood 
of elections that we will feel are free and fair. I mean, given 
all of the actions that are being undertaken right now, would 
not the prospects of elections that the global would look to be 
free and fair happening this year happening this year seem 
really, really slim?
    Mr. Lee. Well, Senator, this is obviously a major concern 
of ours because we do see free and fair elections as a 
necessary first step for Venezuela to try to dig itself out of 
the situation it is in. And so that is the reason why we 
highlight the importance of these elections. We fully recognize 
and are concerned about President Maduro's acquisition of 
emergency decree powers. We will have to see how he utilizes 
those. But this is why we go to all of the countries in the 
region to emphasize that the region as a whole has an 
obligation to champion a democratic solution to Venezuela's 
problems.
    Senator Kaine. I want to thank you both for your testimony. 
There is an ongoing vote, and so we will have a brief pause 
before the second panel is called up for their testimony. But 
to both of you, thank you very much. We will stand in a brief 
recess until the chair returns from voting, and then we will 
begin with the second panel. Thank you.
    Excuse me. I excused you too soon. You almost got out the 
door. But I was informed that the chair may have some 
additional questions for the panel. There is a second vote and 
he is on his way back. So if you could just hang close before 
you are dismissed, but then we will move right into panel two. 
Thank you.

[Recess.]

    Senator Rubio. Thank you. I appreciate your patience. The 
committee will come back into order.
    Members may come in and out. We just finished the second 
vote, so hopefully some folks will be able to make it back 
here. There are some other committee meetings going on as well.
    Before I dismiss this panel, I appreciate your time and 
your patience indulging us here with these votes that are 
coming in.
    Mr. Smith, I wanted to touch upon a couple issues with you 
in regards to the nature of this regime. So Ambassador 
Brownfield, the Assistant Secretary of the Bureau of 
International Narcotics and Law Enforcement Affairs, has been 
quoted as saying that recent media reports about the Venezuelan 
Government's complicity with cartels were not inconsistent with 
the evidence with regards to their work in drug trafficking.
    And I wanted to share with you something that I hope we 
will continue to look at. Actually this is for both of you that 
I hope you will continue to look at.
    There is a law enforcement advisory that went out in 
February of this year, and I want to read from it or paraphrase 
from it. But basically it said that there is reporting that 
indicates that government officials in Venezuela coordinate 
flights carrying bulk cash to the Syrian regime of Bashar al-
Assad, that the source of these funds include funds that are 
donated by the Venezuelan Arab expatriate community, but the 
bulk of the cash includes money that Venezuelan officials 
collect for the trafficking of drugs and exacting bribes from 
other drug traffickers who land cash-loaded planes in 
Venezuela.
    This, by the way, is part of a longer standing Venezuelan 
support of the Assad regime, as was reported back in 2012. The 
state-owned company, Petroleos de Venezuela, PDVSA, P-D-V-S-A--
it was discovered that there were tankers in Syrian ports. This 
was discovered and disclosed, by the way, by an economic 
research firm that tracks maritime satellite data.
    What do we know or what can any of you tell us about the 
links between the Maduro regime and the Government of Syria 
under Assad? Do we have any information on that you could 
share?
    Mr. Smith. I do not have any information I can share. We 
have been tracking the disturbing activities of members of the 
Government of Venezuela, and we have linked them publicly to 
narcotrafficking activities, and we have also linked them to 
other disturbing activities that we have been able to highlight 
in a variety regimes we have not designated pursuant to our 
Syria authorities.
    Senator Rubio. Well, this information again is produced by 
U.S. law enforcement agencies. They are obviously available to 
you. I would encourage you to look at them as we move forward. 
These are important pieces of information that we should not be 
ignoring and should certainly figure into our calculus.
    There are also links to Iran and Venezuela. My office has 
received reports that there is a collusion between the Maduro 
regime and Argentina regarding an operation that could 
facilitate a transaction with Iran that would violate U.N. 
stipulations. Do you have any information on Venezuela 
providing Argentina with licit or illicit financial incentives 
in exchange for procuring Argentinean support toward this help 
toward Iran abating sanctions?
    Mr. Lee. We are aware of those press reports and reports, 
but I have nothing to add to it at the moment.
    Senator Rubio. Okay. Well, there is a report by the 
Washington, DC-based Center for a Secure, Free Society and from 
Canada's Institute for Social and Economic Analysis which 
raises concerns about the use of Venezuela as a bridge to 
smuggle Iranian agents into North America. It states that 
Venezuelan authorities provided at least 173 passports, visas, 
and other documentation controlled by Cuba state-owned Albet to 
Islamist extremists seeking to slip unnoticed into North 
America. Have you followed up on those reports?
    Mr. Lee. I have not. There may be others who have, but I am 
not in a position to comment on it.
    Mr. Smith. Senator, I would just add that we have sanctions 
investigators that work across our sanctions programs, 
including Iran, Syria narcotrafficking and now Venezuela, and 
they follow up on all of the law enforcement and intelligence 
reporting to try to build cases where they can.
    Senator Rubio. Now, I want to go through Venezuela's 
connection to Cuba. According to high-level military defectors 
from Venezuela's Government, there are between 2,700 and 3,000 
Cuban intelligence agents in the South American nation embedded 
in sectors such as the military, agriculture, finance, and 
petroleum refining. According to high-level military defectors 
from Venezuela's Government, the Cubans have modernized 
Venezuela's intelligence services, both the SEBIN, which is the 
Bolivarian National Intelligence Service that reports directly 
to the President, and also military intelligence. They have 
also set up a special unit to protect Nicolas Maduro.
    Last year, former Venezuelan intelligence agents and 
sources with direct access to active officers of the Bolivarian 
Armed Forces told El Nuevo Herald newspaper that Cuba plays a 
leading role in the repression unleashed by Maduro against 
Venezuelan protestors. The Cubans are in charge of operations 
which range from security around the Presidential palace to 
planning of arrests of opponents. These Venezuelan sources told 
El Nuevo Herald that Cubans have planned the operations of 
between 600 and 1,000 armed men who comprise the Chavista 
paramilitary group known as the colectivos.
    In 2007, Juan Jose Rabilero, head of Cuba's Committee for 
the Defense of the Revolution, the CDR, very similar to the 
colectivos, claimed that there were over 30,000 members of 
Cuba's Committee for the Defense of the Revolution in 
Venezuela.
    According to investigations by independent Venezuelan 
journalists, the Cubans have computerized Venezuela's public 
records giving them control over the issue of identity papers 
and voter registration. The Cubans have representatives in the 
ports and airports and have taken part in the purchases of 
military equipment. A state-owned Cuban company, Albet 
Ingenieria y Sistemas, received $170 million to develop 
electronic data systems in Venezuela. Through Albet, the Cuban 
Government has been given access to Venezuelan databases from 
which it can modify and even issue documents to citizens of 
other countries. Its portfolio includes the Maduro 
communications office and operating systems for prisons, 
emergency services, hospitals, and police.
    Are you aware of the links between Venezuela and Cuba that 
go as deep as what I have just outlined, and if so, what have 
we done or are we doing to continue to monitor that and call 
attention to it?
    Mr. Lee. Senator, the links between Cuba and Venezuela and 
the links between Cuba and Venezuela's intelligence services 
and military and a variety of other social missions is well 
known. Many of the things that you have said I am very familiar 
with. Some of them I am not. But the fundamental reality that 
there is a close relationship between both countries is very 
evident.
    Senator Rubio. Well, let me ask you this. You would agree 
that the Venezuelan Government under Maduro is repressing its 
own people. Right?
    Mr. Lee. Yes.
    Senator Rubio. You would agree that the Cubans are helping 
the Venezuelans and putting in place the systems of repression.
    Mr. Lee. I think that the kind of advice the Cubans provide 
is not necessarily the most democratic.
    Senator Rubio. Well, what does that mean? Are the Cubans 
helping the Venezuelans repress their own people? Are the 
Cubans assisting the colectivos, these armed groups, irregular 
groups on the ground that are used to confront protestors and 
other such activity?
    Mr. Lee. I am personally not aware of a link between the 
Cubans and the colectivos. I am aware of the link between the 
colectivos and the use by the Maduro government of the 
colectivos to repress peaceful demonstrators. I think that is 
very clear.
    Senator Rubio. Are you aware that the Cubans are 
intricately involved in issuing documents in Venezuela such as 
voter registration, passports, and not just to Venezuelans but 
to noncitizens of Venezuela as well? Would you acknowledge that 
that is happening?
    Mr. Lee. I am aware of some levels of cooperation that you 
are talking about.
    Senator Rubio. Mr. Lee, is Venezuela in your portfolio?
    Mr. Lee. Yes, it is, sir.
    Senator Rubio. And the Cubans--everyone in Venezuela--in 
fact, anyone who looks at it realizes the Cubans are crawling 
all over the place in Venezuela. There are tens of thousands, 
perhaps hundreds of thousands of Cubans all over the country 
embedded in every sector of the government. I mean, anyone who 
comes back from Venezuela tells you that repeatedly. How can 
this be part of your portfolio and you not be aware of the 
enormous Cuban presence that exists in Venezuela?
    Mr. Lee. Senator, I did not deny that Cuba has an outsized 
influence in Venezuela. It is clear that they have a long-
standing and deep relationship in a variety of areas, including 
in the intelligence services, including in the military, 
including a wide variety of government agencies that we are 
perfectly aware of.
    Senator Rubio. So if you acknowledge that they have an 
outsized influence and they are involved in intelligence and 
security agencies, why can you not just state today what 
everyone knows, and that is that the Cuban Government is 
actively assisting the Venezuelan Government in suppressing its 
people?
    That is what the Cubans are expert at in Venezuela. What 
else could they be contributing to the effort? That is what 
they are best known for on the island. That is what they have 
most established expertise at doing to their own people in 
Cuba. So you have a repressive regime in Cuba that for over 55 
years has actively repressed its own people and cut down on all 
sorts of activity on the island. They have an outsized 
influence in Venezuela. They have an outsized influence in both 
its intelligence gathering and its security agencies. Why is 
that not a logical thing, even if you did not have specific 
facts, which I am sure you do, but even if we did not have it, 
why is it not a reasonable assumption that the Cubans are 
actively assisting the Venezuelan Government in suppressing the 
people of Venezuela?
    Mr. Lee. The fundamental responsibility for what happens in 
Venezuela is the Venezuelan Government's. And really, if we are 
going to focus on where the blame is, it should be for the 
Venezuelan Government's own actions against its own people. And 
I think we need to focus on holding the Venezuelan Government 
responsible for its actions.
    Senator Rubio. No one disputes that, Mr. Lee, but the 
question is not whether the Venezuelans are ultimately 
responsible. Ultimately they are the ones that asked for the 
assistance and are putting it into place. The question is 
whether the Cubans are assisting the Venezuelan Government in 
putting in place the mechanisms that the Venezuelan Government 
is using to repress the people of Venezuela. You cannot answer 
that question today?
    Mr. Lee. I think the Venezuelan Government charts its own 
course, takes advice from the Cubans on certain things, but 
fundamentally it is the Venezuelan Government that charts its 
own course, for good, for ill, whether effectively or feckless.
    Senator Rubio. Mr. Lee, I think what is obvious here is 
that you cannot say what everyone knows, and that is that the 
Cuban Government is helping the Venezuelan Government do this 
because, on the one hand, while we are sanctioning Venezuelan 
Government officials, we are lifting sanctions on Cuban 
officials that have made this possible. And so at the end of 
the day, it truly is amazing to me that in this hearing, the 
individual responsible for this portfolio on behalf of the U.S. 
Government refuses to state on the record that the Cuban 
Government is intricately involved in helping the Venezuelan 
Government to repress its own people.
    This is a claim we have been willing to make about multiple 
countries around the world. This is a claim we have made about 
the Cubans in the past. This is a claim that we have made about 
the Cubans and that the State Department has acknowledged up 
until December of last year when suddenly they stopped talking 
about it.
    I just find it unbelievable that we cannot get somebody 
from the Department of State who is responsible for this 
portfolio to openly acknowledge that the Cuban Government is 
providing extraordinary assistance to the Venezuelan Government 
in suppressing the people of Venezuela.
    And I hope that you will reconsider. I hope the State 
Department will reconsider acknowledging that because it 
undermines our credibility as a nation to turn a blind eye to 
the role that the Cuban Government is playing in the 
suppression of the Venezuelan people.
    The people of Venezuela are fully aware of it. There is not 
anyone that gets off a plane from Venezuela that does not tell 
you there are Cubans everywhere, and there are Cubans 
everywhere on the island involved in governmental functions. 
Multiple people from Venezuela will tell you that when you go 
get a passport or any document, it is oftentimes a Cuban behind 
the counter that is coordinating it all. And to somehow think 
they are there as a benign force for purposes of providing 
moral support is quite frankly absurd.
    And so I hope that you will reconsider your answer in the 
days to come because it is clear to everyone who knows anything 
about this--and you know a lot about this--that the Cubans are 
helping the Venezuelans carry out these operations that they 
are taking against their own people.
    With that, I think we are done with questions, and I 
appreciate both of you being here today.
    We will call up our second panel.
    Before we welcome the second panel, I would like to 
unanimous consent that a letter by Ms. Maria Eugenia Tovar, who 
is the mother of Genesis Carmona Tovar, who was murdered by a 
gunshot on February 18, 2014, while participating at a peaceful 
demonstration in Venezuela be included in the record.
    Now, let me welcome the panel. Douglas Farah is the 
president of IBI Consultants and a senior (non-resident) 
associate of the Americas Program at the Center for Strategic 
and International Studies. He works as a consultant and 
subject-matter expert on security challenges, terrorism, and 
transnational organized crime in Latin America both for the 
U.S. Government and the private sector.
    Santiago Canton is an executive director of Partners for 
Human Rights at the Robert F. Kennedy Center for Justice and 
Human Rights. Mr. Canton manages programs around the globe that 
promote and protect human rights and strengthen democratic 
processes through strategic litigation, capacity building, and 
advocacy initiatives.
    Dr. Christopher Sabatini is the senior director of policy 
at the Americas Society and Council of the Americas and founder 
and editor in chief of the hemispheric policy magazine, 
Americas Quarterly. Dr. Sabatini chairs the AS/COA Rule of Law 
Working Group. He has served as an advisor to the World Bank 
and the U.S. Agency for International Development.
    I welcome all three of you here, and I will begin with you, 
Dr. Sabatini.

 STATEMENT OF CHRISTOPHER SABATINI, PH.D., ADJUNCT PROFESSOR, 
    SCHOOL OF INTERNATIONAL AND PUBLIC AFFAIRS AT COLUMBIA 
                    UNIVERSITY, NEW YORK, NY

    Dr. Sabatini. First of all, thank you, Senator for the 
invitation. Thank you also for your dedicated commitment to 
speaking out on human rights violations in Venezuela and your 
commemoration just recently of the start of the peaceful 
protests a year ago, and of course, the legislation that led to 
the Executive orders.
    I am going to talk about three things today. The first is 
the political and economic situation in Venezuela. The second 
is the very sad lack of a regional response to the 
deterioration in that situation. And the last is the recent 
U.S. Executive orders that came and caused such a commotion, if 
you will, in the region.
    First, the political and economic situation in Venezuela. 
As all of the people said, it is likely to get worse. Sixteen 
years of economic mismanagement and incompetence have wreaked 
havoc on the Venezuelan economy. There is greater concentration 
in the economy on oil--it now represents 95 of exports--and 
lower productivity of that oil. In addition there is a huge 
public sector deficit. There are over $8 billion the Venezuelan 
Government will have to pay to foreign creditors this year 
alone, with only about $20 billion in the central bank. And 
according to different estimates, oil has to be anywhere 
between $100 to $120 per barrel to be able to meet the 
government's expectations when, of course, it is around $50 a 
barrel.
    The IMF, as you mentioned, Senator, is expecting 
contraction of the economy this year of 7 percent on top of the 
contraction of 2.8 percent, and in addition to the inflation 
rates we have talked about, people are now actually saying by 
the end of this year, inflation may reach triple digits.
    What makes this worse is the level of political 
confrontation. At every turn when things have gotten worse with 
this government, people hope and expect it to moderate, whether 
it was when Chavez lost a referendum or whether it was the 
close election with Maduro who only won by about 1.5 percent of 
the vote, people thought he could follow a more moderate 
course. He did not. When the going gets tough, he confronts, 
and that has been precisely the problem. And I expect because 
of that, the economic and political situation will get worse, 
which brings me to the regional response.
    Despite multiple commitments among multilateral 
organizations to defend and protect human rights, the regional 
community in Venezuela has been mute. What that means is by 
standing aside as this President disarticulates democratic 
institutions, attacks political opponents and jails mayors, the 
regional community has been an enabler to the violation of 
human rights in Venezuela. That has to be recognized. They are 
violating their own commitments to a number of multilateral 
organizations.
    The only voices that have spoken up are Juan Manuel Santos, 
the President of Colombia, and five former Presidents who 
signed a letter just last week expressing their concern about 
the confrontation, including Oscar Arias Sanchez, including 
former President Zedillo, Calderon, and Fernando Henrique 
Cardoso.
    Which brings to the Executive order. It is important to 
distinguish, as everyone has so far, that these are only very 
targeted sanctions against people. Unfortunately, the language 
that was used as a result bureaucratic boilerplate became a red 
herring. But what is really sad about this is that in 2009 the 
United States pulled the visas of 15 Honduran officials of the 
de facto government of Micheletti. At that time, they did not 
use the language they are using now of calling it intervention 
or impertinent intervention in the internal affairs of a 
country and respecting national sovereignty. They applauded 
that decision. I think it is worth asking regional leaders in 
the hemisphere why is it okay to pull visas of a de facto 
government that came to power in a coup in Honduras, but why 
are they not willing to stand by the United States when it does 
the exact same thing in Venezuela. And what is wrong with 
allowing a government to be able to say to human rights abusers 
we do not want you to come to Disneyland? We do not want you to 
do your banking in our--again, I would like to say that I think 
this is a very, very sad moment in terms of the regional 
commitment to democracy which has eroded when only 15 years ago 
they stood up collectively and denounced violations, the very 
same violations by Alberto Fujimori and rolled them back?
    I am also concerned about the way the media has portrayed 
this. Again, the language around the Executive order was 
problematic, but the media has presented this as giving Maduro 
steam, as giving him sort of bait to be able to roll back 
democratic institutions and build political momentum. The truth 
is that is not true. His disapproval rating still stands at 70 
percent, and his approval rating still stands at 23 percent. In 
other words, this has not become a political boon to the 
President, but yet, regional leaders and the media insist on 
that it is.
    I will end on one last point. While the language about 
Venezuela--national security risk may have been a little 
overblown, I would argue that it is a security risk in the 
region. For the first time, we face the specter of a failed 
state in a large South American country just south of us, and 
that is unprecedented. And getting out of it and how you would 
rebuild eventually is unimaginable.
    [The prepared statement of Dr. Sabatini follows:]

             Prepared Statement of Dr. Christopher Sabatini

    The confluence of Venezuela's fast deteriorating economy, the 
increased targeting of political opponents, the National Assembly's 
granting decree powers to President Nicolas Maduro, and the 
mobilization of the military make it impossible to predict what will 
happen for the remainder of Maduro's term, which ends in 2019. As 
things stand today, though, it's impossible to see this ending well.
    I say this for four reasons.
    First, 16 years of severe economic mismanagement--public fiscal 
profligacy; the economy's greater concentration on oil exports (which 
now represent 95 of the country's exports); pervasive corruption; a 
complicated, severely overvalued exchange rate; and the arbitrary 
expropriation of select industries--combined now with the drastic drop 
in the price of oil (to under $50 a barrel)--have left the country 
teetering on the brink of an economic meltdown. The International 
Monetary Fund (IMF) has predicted that Venezuela's GDP will contract by 
7 percent this year, after contracting by more than 2 percent last year 
and inflation is hovering around 70 percent, though most now believe it 
will reach triple digits by the end of the year. And the stories of 
shortages of basic foods and goods are well known. People are suffering 
economically, and it will only increase.
    Second, in the 16 years that the Bolivarian Revolution has been in 
power, it has systematically taken apart the checks and balances of 
democratic government and politicized the state. This has included 
packing the judicial system (including the supreme court) and the 
electoral commission with political allies, tearing down the 
independence of the Central Bank, closing down or buying out 
independent media, creating parallel local governments and police 
forces, cracking down on political opponents--including one former 
mayor, Leopoldo Lopez, who has been in prison for more than 1 year and 
the mayor of Caracas, Antonio Ledezma, who was jailed earlier this 
month--and politicizing the armed forces.
    More than just a violation of fundamental democratic principles, 
what has occurred is that the very institutions that would be necessary 
to mediate political disputes and manage conflict have become 
completely vitiated and distrusted by a large portion of the 
population.
    Which brings me to the third point, this government--both that of 
former President Hugo Chavez and his successor Maduro--has never shown 
any tendency to moderate. If anything, when faced with difficulty and 
adversity, their reaction has been the opposite: to double down on 
their policies and pursue a more confrontational strategy. That 
tendency has become more pronounced and worsened under Maduro, who, 
even as the country clearly veers toward economic collapse and faces 
broad popular protests, answers by toughening his position: cracking 
down on opponents, blaming others--the opposition, economic elites and, 
of course, the United States--and accumulating more power under the 
executive and for the party, the United Social Party of Venezuela 
(PSUV). This does not appear likely to change, and will--as it has--
only worsen the country's economy and its political divisions.
    Fourth, despite multiple multilateral commitments to defend human 
rights and representative democracy the regional community has been 
practically mute on this issue. Venezuela's neighbors, such as Brazil, 
Argentina, Bolivia, Ecuador, and Chile, have shown no inclination to 
become involved to defend basic human rights and democratic norms. 
There was a brief effort last year by the South American Union (UNASUR) 
to try to mediate the dispute between the government and the political 
opposition after street protests had swept the country over political 
and economic conditions, resulting in more than 40 dead and the arrest 
of three opposition leaders, including Leopoldo Lopez. Those efforts at 
mediation produced nothing, Perhaps worse--I would argue--they were 
conducted under a value-neutral calculus. Rather than attempting to 
defend the right of peaceful democratic protests and secure the release 
of what were clearly politically motivated arrests, the South American 
Union's delegation intervened to mediate the dispute, treating both 
sides as moral equals.
    By standing aside as the Maduro government attacks democratic 
institutions and the opposition, the regional community has enabled the 
violation of human rights of Venezuelan citizens. The lack of effective 
collective action has not only allowed the conditions in Venezuela to 
fester, they have loosened the region's overall commitment to 
democratic standards. The question is who will stand up? Unfortunately, 
other than Colombian President Juan Manuel Santos' statement after the 
arrest of Antonio Ledezma and the other mayors, no sitting President 
has--though four former Presidents Fernando Henrique Cardoso of Brazil, 
Oscar Arias of Costa Rica, Alejandro Toledo of Peru, and Ernest Zedillo 
and Felipe Calderon of Mexico recently wrote a letter public letter 
expressing their concern.
    Perhaps even more curious, the countries of the South American 
Union issued a statement after President Barack Obama's Executive order 
to pull the visas of seven Venezuelan public officials and froze their 
assets, criticizing the action.
    Which brings me to the last point on the White House and Treasury 
Department's Executive order last week.
    Unfortunately, the language calling Venezuela a national security 
risk to the U.S. that accompanied the announcement revoking the visas 
of the seven officials and freezing any assets they may have in the 
U.S. has become a red herring, provoking a ridiculous ramping up of 
military preparedness of Venezuelan troops for an imaginary U.S. 
invasion, justifying a power grab by Maduro for decree powers and even 
provoking South American nations through UNASUR to denounce the 
policies.
    A few clarifying points are in order, though.
    First, the Executive order was only to pull the visas of these 
officials, basically denying them the right to travel to the United 
States. These are not sanctions on the country or sanctions on the 
general population. They are an effort to deny those who were involved 
in human rights abuses from entering the U.S. territory. Dare I ask, 
what's wrong with denying human rights abusers the right to travel to 
your country?
    Second, there has emerged an unremarked contrast between Latin 
American reactions to the denial of Venezuelan Government officials 
U.S. visas and their reactions to a similar U.S. action in 2009 on 
officials in Honduras. In the summer of 2009, the U.S. pulled the visas 
of 15 high-level officials of the de facto government of then-President 
Roberto Micheletti. Far from calling it ``an interventionist threat to 
the principle of non-interference in the internal affairs of other 
countries'' (the language used by the South American Union last week), 
the U.S. decision was applauded by the regional community. Today, it is 
being denounced as impertinent intervention. Why? Either sympathies 
toward the target government are different or the region has changed. I 
suspect both, but in either case it smacks of hypocrisy from our 
partners in the hemisphere, and a egregious betrayal of Venezuelan 
citizens' human rights
    Third, it was the absence of action from regional partners that 
prodded the U.S. to action. Whatever you may think of the actions the 
U.S. took, they have occurred in a vacuum when the Venezuelan 
Government's actions only 15 years ago would have provoked expressions 
of concern and even action among elected governments in the region. 
Today, it is only the former, elected, democratic Presidents that I 
mentioned earlier who are willing to speak up. But clearly Venezuela's 
teetering economy and human rights situation are a immediate regional 
issue that demands a regional response.
    Which brings me to my last point. While Venezuela doesn't represent 
a national security risk to the U.S. in the alarmist way hinted at in 
last week's Executive order, it is a risk, more regional perhaps, but a 
risk.
    For one, the disarticulation of institutions and the politicization 
of the state described above, given the economic and political crisis 
the country finds itself, raise the specter of a failed state in the 
Western Hemisphere. This level of economic calamity and lack of 
institutionality has not existed in a major Latin American country/
economy in recent history. The question of how to end this downward 
spiral and rebuild the country is unprecedented . . . not to mention 
unimaginable.
    Then there are also the well substantiated allegations of the 
Venezuelan state's involvement in narcotics trafficking. Evidence has 
grown that segments of the country's armed forces, including the 
National Guard, and elected officials are involved in transporting 
cocaine from Colombia and money laundering. Regarding the latter, the 
recent case opened up by the U.S. Treasury Department accusing the 
Banco Popular de Andorra of laundering $4.2 billion points to the level 
of corruption and nefarious activities occurring in Venezuela today. 
Are we to believe that the government isn't aware of this?
    One need only look at the map of flights ferrying cocaine from 
South America to northern markets in which Venezuela is arched with 
overflights or dotted with take off points to see the central place the 
Andean country has taken in the drug trade. With the three countries 
that border it (Colombia, Guyana, and Brazil), numerous countries 
affected by its alleged role in narcotrafficking, and Venezuela 
teetering on economic and political collapse, Venezuela would seem to 
be more of a risk to regional security than to the United States.
    Unfortunately, Venezuela's neighbors have chosen to focus on a 
hyperbolic U.S. statement rather than how the looming crisis in the 
country could affect them and their responsibility and role to prevent 
it.

    Senator Rubio. Thank you. Thank you, Dr. Sabatini.
    Mr. Canton.

STATEMENT OF SANTIAGO CANTON, EXECUTIVE DIRECTOR, PARTNERS FOR 
 HUMAN RIGHTS, ROBERT F. KENNEDY CENTER FOR JUSTICE AND HUMAN 
                     RIGHTS, WASHINGTON, DC

    Mr. Canton. Thank you very much, Mr. Chairman, for the 
opportunity to appear before you today to share some 
information regarding the human rights situation in Venezuela. 
I have presented a 20-page written statement with very detailed 
information about the human rights situation. So in this brief 
presentation, I will just refer to the most important 
violations.
    The rule of law in Venezuela has been in a downward spiral 
for the last 15 years. The signs of this decline have been 
unequivocal: increasing concentration of power; lack of 
independence of the judiciary; restricting freedom of 
expression; excessive and lethal use of force and other forms 
of restrictions to peaceful assembly; widespread use of 
torture; restricting civic space and financing of NGOs; and 
prosecuting under false charges political opposition leaders; 
and closing the door to any outside monitoring.
    Violations for freedom of expression. Journalists face 
constant threats and harassment. The state exercises tight 
control of our media outlets and has been ranked 137 out of 180 
countries in the 2015 World Press Freedom Index. The U.N. 
Secretary General, the High Commissioner of Human rights of the 
U.N., and the Special Rapporteur on the Right to Freedom of 
Opinion and Expression of the U.N. have criticized the 
Venezuelan Government for limiting free expression. Over 259 
incidents of threats and harassment of journalists were 
reported between January and April 2014.
    In recent years, state authorities have tightened 
restrictions on television and radio through forced closures, 
fines, judicial cases, and economic pressures. From 2013 to 
2014, 13 newspapers stopped operating and many more are at risk 
of closure now due to print paper shortages that the government 
is responsible for.
    Violations to freedom of association and assembly. Peaceful 
opposition protestors are routinely violently assaulted by the 
Venezuelan police and military, the latter of which was 
recently granted explicit power to use force to control 
peaceful demonstrations. Law prohibits Venezuelan human rights 
defenders from receiving international support if they defend 
political rights or monitor the performance of public bodies. 
Protests have reignited since last February of this year. 
Violent repression and the use of military force during these 
demonstrations have already resulted in a fatal victim. On 
February 24, Kluiverth Roa Nunez, a 14-year-old high school 
student, was killed by a gunshot to the head.
    Lack of judicial independence. Since the National Assembly 
passed a law that increased the membership of the Supreme Court 
from 20 to 32 justices, its members have publicly rejected the 
principle of separation of powers and the judiciary has acted 
as another arm of the executive branch to advance the 
government's political agenda.
    Arbitrary arrests and detentions. According to the Office 
of the High Commissioner of Human rights of the U.N., more than 
70 people have been arbitrarily detained or arrested in 
Venezuela over the last year alone. According to official 
information, approximately 3,000 people were arrested between 
February and June 2014 in the context of the public protests 
that took place across the country. Many were denied access to 
a lawyer, and some remained in pretrial detention for several 
months. Dozens of students remain also in detention.
    One of the individuals that were arrested in connection to 
the February 2014 protests is Leopoldo Lopez, leader of the 
opposition party, Voluntad Popular. He has remained in pretrial 
detention with fabricated charges.
    A month after, the mayor of San Cristobal, Daniel Ceballos, 
from the same party was also arrested.
    In August 2014, the U.N. Working Group on Arbitrary 
Detentions concluded that the detention of both Lopez and 
Ceballos was arbitrary and demanded its release. Recently a 
couple of months ago, the Committee Against Torture of the U.N. 
also demanded the release of them.
    One year after Leopoldo Lopez's arrest, Caracas Mayor 
Antonio Ledezma, the second most-voted person in Venezuela 
after Maduro, was also arrested on fabricated charges.
    Torture and cruel, inhumane and degrading treatment in 
prisons. The U.N. Committee Against Torture expressed alarm 
regarding reported acts of torture and ill-treatment of persons 
arrested in connection with the demonstrations of February of 
last year. These acts of torture include beatings, electric 
shocks, burns, suffocation, sexual violence, and threats.
    Just earlier this month, the Inter-American Commission of 
Human rights granted protective measures in favor of two 
political prisoners in ``the tomb'' prison that you referred 
to, Senator. It is important to note that these type of 
measures are only granted 
in extreme cases of urgency, gravity, and threats of 
irreparable harms.
    Then there is the violation of political participation. I 
am running out of time, so I am going to finish very quickly 
with this presentation.
    There is a violation of the right to political 
participation. As you know, Leopoldo Lopez was not allowed to 
run in the election, and in addition to Leopoldo Lopez, just 
recently Julio Borges, another member of the opposition, was 
also expelled from Congress. Maria Corina Machado was expelled 
a few months ago. So it is very difficult for the opposition to 
participate freely in politics.
    Mr. Chairman, the disregard by the Venezuelan Government of 
the human rights of its people is absolute. The human rights 
situation in Venezuela is critical and not only for opposition 
leaders but for the population in general. The report by the 
U.N. Committee Against Torture from last December indicates 
that almost 1,300--and I insist, 1,300--extrajudicial killings 
took place in Venezuela between 2012 and 2013. And the 
prevailing impunity does not contribute to improve the 
situation. According to government information, of the 
approximately 30,000 human rights violations reported to the 
authorities between 2011 and 2014, only 3 percent have been 
prosecuted.
    The account I have just presented is only but a fraction of 
the grave and systematic violations that are taking place in 
Venezuela. It is time for the international community to ensure 
through multilateral and bilateral efforts that democracy and 
the rule of law are respected. In 2001, the hemisphere adopted 
the Democratic Charter to address challenges such as the ones 
Venezuela is going through. The U.S. Government should work 
together with the OAS and UNASUR and the leaders of the region 
to ensure that the Democratic Charter is respected.
    Thank you very much.
    [The prepared statement of Mr. Canton follows:]

                Prepared Statement of Santiago A. Canton

    Chairman Rubio, Ranking Member Boxer, and members of the 
Subcommittee on the Western Hemisphere, thank you for the opportunity 
to appear before you today to share critical information impacting 
United States policy toward Venezuela, in particular regarding the 
human rights and security situation in that country. I commend the 
committee for holding this important and timely hearing.
                              introduction
    Democracy and rule of law in Venezuela have been on a downward 
spiral for the past 15 years, with great consequences not only for the 
country's economy and security, but also for the human rights of the 
Venezuelan people. I would like to focus on this generalized disregard 
for the respect of basic human rights that has become the state-
sanctioned rule in Venezuela.
    The signs of this decline have been unequivocal: increasing 
concentration of power in the executive branch, debilitating the 
independence and autonomy of the judiciary; restricting freedom of 
expression and shutting down dissenting media outlets; excessive--
sometimes lethal--use of force and other forms of restrictions to 
peaceful assembly; widespread use of torture and horrid detention 
conditions; restricting civic space and financing of NGOs; imposing 
administrative sanctions or even prosecuting under false charges 
political opposition leaders; and closing the door to any outside 
monitoring or criticism, among others.
    The current human rights violations in Venezuela are not isolated 
instances. On the contrary, they are the product of a pattern of 
systematic violations that started more than a decade ago. To 
understand what is currently happening in Venezuela it is necessary to 
know the context that gives rise to today's violations. Instead of 
reversing this trend, the assumption of power by Nicolas Maduro after 
president Chavez's death has only increased the government's repression 
of the Venezuelan people in a desperate attempt to hold on to power in 
the midst of growing popular discontent.
    Chavez and Maduro have repeatedly disregarded all the accusations 
of human rights violations as an international conspiracy of right wing 
individuals and NGOs. However, respected institutions and groups of the 
international community have consistently denounced the human rights 
violations taking place in Venezuela.
    International human rights bodies and officials, including the 
United Nations High Commissioner for Human Rights, the U.N. Special 
Rapporteur on Torture, the Working Group on Arbitrary Detention, the 
U.N. Rapporteur on Extrajudicial Executions, the U.N. Special 
Rapporteur on the independence of judges and lawyers and the U.N. 
Special Rapporteur on Human Rights Defenders, as well as regional 
bodies such as the Inter-American Commission and Inter-American Court 
of Human Rights, have made strong calls of concern over the last years 
regarding the intentional disregard by the Venezuelan Government of its 
human rights obligations under international law.
    Openness to dissent and criticism has not only been lacking with 
regard to local actors. In fact, since 1996 no special procedure of the 
United Nations has been allowed to visit the country.\1\ Likewise, 
there have been several instances of international human rights 
delegations of nongovernmental organizations being expelled from the 
country, including a Human Rights Watch's delegation.\2\
    Widespread human rights abuses are committed daily in total 
impunity. The Venezuelan Government itself admits the shockingly low 
levels of violations that end up being prosecuted. In its most recent 
reports to the U.N. Committee Against Torture, the government informed 
the committee that of the 31,096 human rights violations reported to 
the authorities between 2011 and 2014, only in 3.1 percent did a 
prosecutor present criminal charges.\3\
    Meanwhile, the government continues amassing authority and 
completely eroding the separation of powers. Indeed, since 2010 the 
Government has adopted a series of so-called Enabling Laws (Leyes 
Habilitantes), which authorize the President of the Republic to issue 
decrees with the rank, value, and force of statute on those matters 
that are so delegated. Many of these laws are overly broad and have 
been used by the Executive to imposed restrictions on human rights 
without appropriate controls. Following his predecessor's steps, just a 
few months after assuming power, President Maduro requested the 
National Assembly to enact a law granting him special powers for 12 
months to address the economy and combat corruption. On November 19, 
2013, a law was passed which allow the President to reform--by decree--
norms to strengthen punishment in criminal, administrative, civil and 
disciplinary areas ``to avoid damage to or inadequate management of the 
public patrimony, and to prevent acts of corruption'' and norms that 
punish ``attacks on the Security and Defense of the Nation, the 
institutions of the State, Public Powers, and the provision of public 
services indispensable to the development and the quality of life of 
the people''; among other areas generally reserved to Congress.\4\ On 
Sunday, February 15, the National Assembly started discussing a new 
``Enabling law'' requested by President Maduro to receive special 
decree powers for at least the next 6 months, allegedly in response to 
the most recent U.S. sanctions.\5\
    Authorities at several levels openly disregard the Venezuelan 
Constitution, as has been recently the case with the Minister of 
Defense's authorization to the armed forces to potentially use lethal 
force if needed to control public protests.\6\ This authorization to 
use lethal force is even more concerning taking into consideration the 
existing pattern of extrajudicial executions that has taken place in 
Venezuela over the last decade. According to information collected by 
the U.N. Committee Against Torture, 667 homicides at the hands of state 
agents were committed in 2012 and 600 in 2013.\7\
    While openly restricting civil and political rights, the government 
of Venezuela has also made an effort to portray itself as a promoter of 
economic, social and cultural rights both domestically and throughout 
the region by providing economic assistance through Petrocaribe \8\ and 
other foreign assistance programs. Indeed, in June 2013, Venezuela 
received recognition from the United Nations Food and Agriculture 
Organization (FAO) for the early achievement of one of the Millennium 
Development Goals and the World Food Summit (WFS) goal of halving the 
number of hungry people by 2015.\9\ However, there have been growing 
reports over the past few years on the increasing difficulties for the 
Venezuelan population to access food and other basic necessities,\10\ 
which President Maduro attributes to ``an economic war by sectors who 
seek to destabilize the country . . . through the undersupply of food 
products.'' \11\
    This situation has motivated a series of measures against private 
distributorships of food and other basic supplies, including the 
adoption in 2011 of the Law on Costs and Fair Prices that regulates a 
``maximum'' sales price for certain foods and other goods.\12\ Such 
measures have included, in extreme cases, taking over a toilet paper 
factory,\13\ the authorization to occupy supermarket chain accused of 
``hoarding'' and more recently, putting Venezuela's food distribution 
under military protection.\14\
                     major human rights violations
I. Violations of Freedom of Expression
    Violations of the right to freedom of expression are rampant in 
Venezuela. Journalists face constant threats and harassment. The State 
exercises tight control over media outlets, including through 
restrictive telecommunications laws. There is overall repression of 
dissenting views. Peaceful protesters are violently attacked. A review 
of the analysis of leading human rights and press freedom organizations 
reveal a shockingly bad situation.
    The United Nations Secretary General, High Commissioner for Human 
Rights, and Special Rapporteur on the promotion and protection of the 
right to freedom of opinion and expression have strongly criticized the 
Venezuelan Government for severely limiting free expression in the 
country, and have urged authorities ``to ensure that people are not 
penalized for exercising their rights to peaceful assembly and freedom 
of expression.'' \15\
    Venezuelan media outlets are governed by the 2004 Law on Social 
Responsibility in Radio, Television, and Electronic Media (Resorte), 
amended in 2010. CONATEL has used this law to impose heavy fines on 
television and print media outlets, which have criticized the 
government.\16\ It is also through this law that the Venezuelan 
Government gave itself the authority to require all broadcasters to air 
the obligatory broadcasts previously mentioned.\17\
    Furthermore, changes to the Organic Law of Telecommunications in 
December 2010 declared broadcast media and the Internet to be public 
services reserved for the State. These changes gave the Venezuelan 
Executive the power to suspend and revoke broadcasting concessions and 
to take control over privately owned stations or channels whose 
operating licenses were allowed to expire or were terminated.\18\
    In recent years, State authorities have gradually tightened 
restrictions on television and radio through forced closures, fines, 
judicial cases, and economic pressures.\19\ The most famous examples of 
this trend are with regard to Venezuela's oldest private television 
channel, Radio Caracas Television (RCTV), and main opposition channel, 
Globovision. In May 2007, the Government of Venezuela decided not to 
renew RCTV's license, forcing it to close down. Globovision was taken 
over in 2010 and then sold to pro-government owners in 2013, 
essentially eliminating the primary media voice critical of the Chavez 
and Maduro governments.
    Numerous other media outlets have been forced to shut down because 
of government pressure as well. Various sources reported the closure of 
34 radio stations in 2009 and 27 in 2011. From 2013 to 2014, 13 
newspapers stopped operating according to El Nacional \20\ and many 
more are at risk of closure now due to newsprint shortages. The 
Venezuelan Government has decreed that media organizations can only 
import newspaper if it is purchased with dollars provided through 
government currency exchange, but independent media sources are 
systematically denied this option.\21\
    The Venezuelan Government also continues to use ``obligatory 
national radio and television broadcasts to transmit government 
messages,'' according to information received by Inter-American 
Commission on Human Rights.\22\
    In response to the February 2014 protests, the IACHR issued a press 
release in which it noted with concern the fact that CONATEL, the 
Venezuelan National Telecommunications Commission, had issued an 
official statement in which it advised media outlets that coverage of 
the protest-related violence could be considered a violation of the 
Resorte Law, for which they would be sanctioned accordingly.\23\ The 
Special Rapporteur on Freedom of Expression expressed particular 
concern at the continuing and worsening pattern of government actions 
resulting in the loss of opportunities for public debate, noting the 
lack of guarantees for the free and independent exercise of the right 
to freedom of expression in conformity with Venezuela's international 
obligations.\24\
    Since 2003 and continuing until today, Freedom House, an 
independent watchdog organization dedicated to the expansion of freedom 
around the world, has rated Venezuela as ``not free'' given that ``the 
ability of independent journalists and media outlets to operate freely 
and impartially'' has been seriously impeded by the political and 
economic crises which have evolved under the leadership of Hugo Chavez 
and Nicolas Maduro.\25\ In its most recent analysis, it states that 
``Maduro's administration hampered the opposition media by arbitrarily 
fining outlets, enforcing licensing requirements without respecting due 
process rights, and excluding certain outlets from access to public 
information.'' \26\ Furthermore, ``high-level government officials 
constantly demonized opposition-aligned outlets and exerted systematic 
pressure on the tone and content of reporting.'' \27\ Human Rights 
Watch has likewise noted with grave concern that ``over the past 
decade, the [Venezuelan] government has expanded and abused its powers 
to regulate media.'' \28\
    Reporters without Borders has also expressed its grave concern at 
the rapidly eroding press freedoms in Venezuela, and has ranked it 137 
out of 180 countries on the 2015 World Press Freedom Index.\29\ This 
marks a significant decline from its ranking of 116 in 2014, and 
demonstrates the continued and rapid deterioration of press freedoms in 
Venezuela.\30\ The organization notes that ``local and foreign 
journalists were the targets of threats, insults, physical attacks, 
theft, destruction of equipment and arrests during a succession of 
protests'' and places the blame for the majority of these with the 
Bolivarian National Guard.\31\
    The Committee to Protect Journalists details the shutting down of 
critical radio and television stations, the shortage of newsprint as 
the government seeks to control imports, and the resignations of 
multiple journalists who have complained of censorship.\32\ The CPJ 
characterizes these actions on the part of the Venezuelan Government as 
``a campaign to silence the critical media.'' \33\
    With regards to threats and harassment of journalists, over 259 
incidents between January and April 2014 were reported to the U.N. 
Committee Against Torture.\34\ The Venezuelan National Association of 
Journalists reported more than 50 incidents of violence or threats 
against reporters between 12 and 21 February 2014 alone.\35\
    In its 2013 annual report, the Special Rapporteur on Freedom of 
Expression of the Inter-American Commission on Human Rights, published 
details of the almost 80 reports it received during the previous year 
of threat and assaults of journalists.\36\ Likewise, the Commission 
compiled information on almost 40 attacks on newspaper offices and 
radio stations during the same time period.\37\ In a September 2014 
press release, the Commission once again called on the Government of 
Venezuela to respect the right to freedom of expression, citing reports 
that President Maduro had publicy accused CNN en Espanol, El Nuevo 
Herald, NTN24, and other media outlets of engaging in ``media 
terrorism.'' \38\
    In the Case of Perozo et al. v. Venezuela, the Inter-American Court 
of Human Rights considered a series of attacks against and harassment 
of Globovision Television Channel staff, including hostile public 
remarks and physical and verbal attacks by state officials. The State 
was found to have violated its obligations under the American 
Convention on Human Rights to ``ensure the right to freely seek, 
receive ad impart information and the right to humane treatment.'' \39\ 
Despite this judgment, Globovision would ultimately succumb to pressure 
and fall under State control, as detailed below.
II. Violations to freedom of association and assembly
    Examples of violations of the rights to freedom of association and 
assembly are also abundant. Peaceful opposition protesters are 
routinely violently assaulted by the Venezuelan police and military, 
the latter of which was recently granted explicit power to use force to 
control peaceful demonstrations.\40\ Indeed, on January 27, 2015, the 
Minister of Defense authorized the use of ``potentially lethal force, 
be it with a firearm or with another potentially lethal weapon'' as a 
last recourse [. . .], ``to avoid public disorder, to support the 
legitimate authority, and to immediately reject aggression using any 
necessary means,'' \41\ in direct contradiction with article 68 of the 
Venezuelan Constitution, which explicitly prohibits the use of firearms 
and toxic substances as a means of containing public protests.
    A legal framework has been put in place that has incrementally more 
severely restricted freedom of association and assembly in Venezuela. 
For example, under the Law for the Defense of Political Sovereignty and 
National Self-Determination, passed in 2010, Venezuelan human rights 
defenders are prohibited from receiving international support. As Human 
Rights Watch noted in a December 2010 press release, the law bars 
Venezuelan NGOs ``that `defend political rights' or `monitor the 
performance of public bodies' '' from receiving money from foreign 
sources.\42\ Furthermore, the law permits the expulsion of foreigners 
invited by NGOs ``if they express opinions that `offend the 
institutions of state, top officials or attack the exercise of 
sovereignty.' ''\43\ Venezuelan civil society organizations liaising 
with foreign donors would also be sanctioned, facing high fines and 
individual prohibitions against running for public office.\44\ Under 
the ``Organic Law on Social Control,'' adopted by the National Assembly 
at the same time, individuals are obligated to adhere to Venezuela's 
socialist principles and values or face civil, administrative, or 
criminal sanctions.\45\ Both of these laws aggressively limit the 
activities of human rights defenders.
    The International Center for Not-for-Profit Law, for its part, has 
also detailed the dire legal situation in which Venezuelan civil 
society finds itself. It characterizes the enactment of the laws 
mentioned thus far, as well as Decree No. 458, which created the 
Strategic Center of Security and Protection of the Country (CESPPA), as 
having an overall chilling effect on freedom of assembly.\46\ 
Opposition leaders have concluded that the goal of CESPPA is to control 
and censor the worsening political, economic, and social crisis 
enveloping the country.\47\
    Even prior to the passage of these laws, in its 2009 Annual Report, 
the Inter-American Commission on Human Rights noted a ``trend toward 
the use of criminal charges to punish people exercising their right to 
demonstrate or protest against government policies.'' \48\ During the 5 
years prior to the publication of that report, the Inter-American 
Commission received information regarding 2,200 individuals who faced 
criminal charges in connection with their involvement in public 
demonstrations.\49\ These crimes, which include ``blocking public 
highways, resisting the authorities, damage to public property, active 
obstruction of legally established institutions, offenses to public 
officials, criminal instigation and criminal association, public 
incitement to law-breaking, conspiracy, restricting freedom of 
employment, and breaches of the special secure zones regime, among 
others, carry prison sentences of up to 20 years.\50\ More recently, 
Freedom House and PROVEA (Programa Venezolano de Educacion-Accion en 
Derechos Humanos) have echoed the concerns of the Inter-American 
Commission, reporting that at least 10 protesters were put on trial 
before military courts in 2012.\51\
    The same groups have tracked the continually increasing repression 
of peaceful protests in Venezuela. According to Freedom House, ``PROVEA 
described a sharp rise in suppressed protests in 2007, including a 300-
percent increase in the number of injuries sustained during 
demonstrations, many caused by beatings, rubber bullets, and tear gas. 
The group also reported a 250-percent increase in the number of cases 
in which charges were brought against protesters, a sign of the ongoing 
criminalization of protest.'' \52\
    The use of force by law enforcement during a protest must be 
considered in the context of the human rights to freedom of association 
and assembly. The principal purpose of a law enforcement presence at 
demonstrations should be to ensure public safety and protect the rights 
of protesters and bystanders.\53\ The use of force by police is only 
permissible if it is strictly or absolutely necessary to protect an 
individual from harm or to enable a lawful arrest,\54\ not for the 
purpose of infringing upon a protester's right to freedom of assembly 
and association. Use of force must be strictly necessary and 
proportional to the danger to the physical integrity or life of the law 
enforcement agent or other individual.\55\ Whenever the lawful use of 
force is unavoidable, it must minimize damage to property and injury to 
persons, and respect and preserve human life.\56\ Furthermore, law 
enforcement must ensure that medical aid is rendered to any injured 
protesters and that their next of kin are notified.\57\
    Despite these internationally recognized principles, Venezuelan 
authorities have deployed excessive use of force against protesters in 
violation of multiple human rights, including the rights to freedom of 
assembly and association. At the outbreak of violence against 
protesters in February 2014, the Inter-American Commission on Human 
Rights declared that it was ``profoundly disturbed by various 
complaints alleging violations of the demonstrators' rights to peaceful 
protest and their rights to life and humane treatment, personal 
liberty, freedom of association and freedom of expression.'' \58\ Human 
Rights Watch (HRW) found that Venezuelan security forces repeatedly 
resorted to force, including lethal force, against peaceful, unarmed 
protesters and bystanders ``in situations in which it was wholly 
unjustified.'' \59\ HRW noted that these abuses included ``severely 
beating unarmed individuals; firing live ammunition, rubber bullets, 
and teargas canisters indiscriminately into crowds; and firing rubber 
bullets deliberately, at point-blank range, at unarmed individuals.'' 
\60\ Amnesty International (AI) corroborated these accounts and noted 
that, contrary to international standards, state security forces used 
firearms against protesters without providing adequate warning.\61\ AI 
also reported on the ``excessive and indiscriminate'' use of tear gas 
by police.\62\
    In its December 2014 review of Venezuela, the U.N. Committee 
Against Torture noted ``with concern that 43 people died in the context 
of the demonstrations that occurred between February and June 2014, and 
878 were wounded, of which 68 percent were civilians,'' \63\ noting 
consistent reports regarding the excessive use of force. The Committee 
also expressed concern regarding the abuse of firearms and riot control 
agents against demonstrators and in residential areas, as well as the 
involvement of the National Guard in controlling demonstrations as 
opposed to civilian police forces.\64\
    The Committee Against Torture also reported a total of 437 attacks 
by armed pro-government groups against protesters during demonstrations 
between February and April 2014, noting that a large number of these 
attacks were carried out with the complicity and acquiescence of the 
state security forces, and went unpunished.\65\ Human Rights Watch also 
noted that armed pro-government groups attacked protesters, 
journalists, and persons perceived to be opposed to the government in 
the presence of security forces and with impunity. In some cases, state 
security forces openly collaborated with pro-government groups in 
committing these attacks.\66\ The Inter-American Commission on Human 
Rights condemned attacks of this nature and noted that they occurred in 
many parts of the country.\67\
    Protests have reignited since February of this year after the 
arrest of the Caracas Metropolitan Mayor Antonio Ledezma. Violent 
repression and the use of military force during these demonstrations 
have already resulted in new fatal victims, wounded persons and 
arbitrary arrests. On February 24, Kluiverth Roa Nunez, a 14-year-old 
high school student was killed by a gunshot wound in the head during 
the clashes between students of the Catholic University of Tachira 
(UCAT) and security forces. Reports indicate that the boy was not even 
participating in the protests.\68\
III. Lack of judicial independence
    In May 2004 the National Assembly passed a new Organic Law of the 
Supreme Court, which completely weakened Venezuela's judicial 
branch.\69\ This Organic Law increased the membership of the Supreme 
Court from 20 to 32 justices and established that the new Justices 
could be designated with a simple majority vote of the National 
Assembly, making it easier for the Government and its majority in the 
legislative to take control of the country's highest Court. Since this 
political takeover of the Supreme Court of Justice, its members have 
publicly rejected the principle of separation of powers and the 
judiciary has acted as another arm of the executive branch to advance 
the government's political agenda by legitimizing its policies and 
decisions, consistently ruling in its favor and ``validating the 
government's disregard for human rights.'' \70\
    But the weakness of the judiciary precedes 2004 and is also a 
consequence of the inadequate transition in the Judicial branch 
following the adoption of the 1999 Constitution, which has resulted in 
the practice of appointing provisional or interim judges. For over a 
decade, the Judicial Commission of the Supreme Court has been 
discretionally ordering the removal of hundreds of provisional judges 
without a prior disciplinary proceeding, denying Venezuelan's judges 
one of the most basic safeguards for their independence: security of 
tenure.
    It is estimated that 62 per cent of the judges in Venezuela are 
provisional, and therefore can be easily appointed and removed.\71\ As 
underscored by the IACHR, the high number of provisional appointments 
``weakens the judicial branch and strips it of its independence and 
impartiality, thereby adversely affecting the right of access to 
justice.'' \72\ The Special Rapporteur on the independence of judges 
and lawyers has also expressed his concern over the high number of 
judges and prosecutors who are provisional, considering that they are 
``subject to various mechanisms of political interference that affect 
their independence,'' in particular bearing in mind that their removal 
is ``absolutely discretional: without cause, or procedure, or an 
effective judicial remedy.'' \73\
    One of the most notorious examples of interference by the Executive 
in the administration of justice has been the case of Maria Lourdes 
Afiuni. A judge at the 31st control Court of Caracas, in December 2009 
Afiuni granted conditional release to a businessman critic of the 
government who had been awaiting trial on corruption charges for almost 
3 years. She was immediately arrested and President Chavez called Judge 
Afiuni a ``bandit'', asking for her to be given a 30-year prison 
sentence despite her compliance with U.N. standards and Venezuelan law. 
Afiuni was formally accused of corruption, abuse of authority, and 
favoring evasion of justice.\74\ After over a year in a women's prison 
in Caracas under deplorable conditions and where she repeatedly 
suffered to threats and acts of intimidation by other inmates,\75\ she 
was put under house arrest in February 2011. On June 14, 2013, the 
judicial authorities lifted the house arrest but her trial 
continues.\76\
    The case of Judge Afiuni has captured the international attention 
and generated calls from U.N. experts and the inter-American System of 
human rights urging for her ``immediate and unconditional release.'' 
\77\ However, as denounced by Human Rights Watch in a comprehensive 
report on this issue, the arrest of Judge Afiuni has had a powerful 
impact on lower court judges who have been afraid to issue rulings that 
may upset the government, and ``whereas in the past they only feared 
losing their jobs, now they also fear being criminally prosecuted for 
upholding the law.'' \78\
    As recently as last month, Ali Fabricio Paredes, another judge--who 
incidentally presided over Afiuni's case at some point--was arrested by 
national intelligence agents, less than 24 hours after he had convicted 
Walid Makled to 14 years in prison for drug-trafficking and money-
laundering. The Attorney General ordered Judge Paredes' arrest for 
considering that he had unduly favored Makled with a lenient prison 
sentence.\79\
IV. Arbitrary arrests and detentions
    The Venezuelan Constitution prohibits the arrest or detention of an 
individual without a judicial order and provides that any detained 
individual has the right to immediately communicate with family and 
lawyers. But in practice, it is estimated that more than 70 people have 
been arbitrarily detained or arrested in Venezuela over the last year 
alone.\80\
    The use of arbitrary arrest and detention in Venezuela is not 
recent. However, international human rights organizations have 
registered an increase in the number of people arbitrarily detained 
since 2014, particularly around the protests against the Government. 
According to official information, 3,306 people were arrested, 
including 400 adolescents, between February and June of 2014 in the 
context of the public protests that took place across the country.\81\ 
It was reported that of the thousands of people arrested many were 
denied access to a lawyer of their choice and to medical assistance 
during the first 48 hours of their detention before appearing before a 
judge. Some of the people arrested remained in pre-trial detention for 
several months, in spite of the absence of solid evidence against 
them.\82\ Even the U.N. High Commissioner for Human Rights expressed 
concern over the prolonged and arbitrary detention of political 
opponents and protestors in Venezuela, and stated that it was only `` 
exacerbating the tensions in the country.'' \83\
    Notably, one of the individuals that were arrested in connection to 
the February 2014 protests is Leopoldo Lopez, leader of the opposition 
party Voluntad Popular. After been accused of promoting violence in the 
antigovernment demonstrations that started a few days later, on 18 
February 2014 Leopoldo Lopez handed himself in to the National Guard. 
He has remained in pre-trial detention since, with charges of 
incitement and conspiracy to commit arson and damages to property, 
among other offences, which could carry a maximum penalty of 10 years 
of prison.\84\
    A month after Leopoldo Lopez' detention, members of the 
Intelligence Security Services (SEBIN) arrested Daniel Ceballos, mayor 
of San Cristobal (Tachira State) and also a member of opposition party 
Voluntad Popular on suspicion of rebellion and conspiracy to commit a 
crime for his involvement in the antigovernment protests that had taken 
place in February. No arrest warrant was produced at the time of his 
arrest and shortly after, the Minister of Justice and Interior of 
Venezuela posted several messages on Twitter claiming that justice had 
been done and accusing Ceballos of promoting violence, anarchy, and 
civil rebellion.\85\
    In August 2014, the United Nations Working Group on Arbitrary 
Detentions adopted an opinion concerning Leopoldo Lopez, concluding 
that his detention was arbitrary. It considered that ``Mr. Lopez's 
participation in a march for political reasons or the exercising of his 
right to freedom of expression during the same march, such as which 
took place on February 12, 2014, does not constitute an illicit 
justification for the deprivation of liberty of a speaker or 
participant.'' It further stated that in his case ``there are no 
elements that allow the concluding of a cause-and-effect relationship 
between the call for a political demonstration, speaking during the 
same demonstration, and the resulting deaths, wounds, and material 
damage.'' \86\ The Working Group also found that ``the detention of Mr. 
Lopez in a military compound seems based on a motive of discrimination 
based on his political opinions.'' \87\ The Working Group also found 
the detention of Daniel Ceballos to be arbitrary.\88\
    The U.N. High Commissioner for Human Rights, also expressed serious 
concern at the continued detention of Venezuelan opposition leader 
Leopoldo Lopez, as well as more than 69 other people who were arrested 
in the context of the public protests that started in February 2014. He 
further called on the Venezuelan authorities ``to act on the opinions 
of the Working Group and immediately release Mr Lopez and Mr Ceballos, 
as well as all those detained for exercising their legitimate right to 
express themselves and protest peacefully.'' \89\ Both Lopez and 
Ceballos remain in detention to date, despite repeated calls from the 
international community for their immediate release.
    Exactly 1 year after Leopoldo Lopez's arrest, on February 19, 2015, 
Caracas Metropolitan mayor, Antonio Ledezma, was arrested and thereby 
expelled from office. Mr. Ledezma is an opposition leader and ally of 
Leopoldo Lopez. According to Mr. Ledezma's wife, intelligence agents 
forcibly entered his office and beat the mayor before dragging him 
away. Soon afterward, President Nicolas Maduro publicly denounced Mr. 
Ledezma as a ``vampire'' and accused him of conspiring with the United 
States and other foreign governments to foment a coup.\90\ President 
Maduro said he would respond ``with an iron fist.'' \91\ The evidence 
presented of this alleged conspiracy is a statement that Mr. Ledezma 
signed along with other opposition leaders published in a national 
newspaper, which highlighted the multiple challenges facing the country 
and called for an agreement to reach a peaceful and democratic 
transition. As such, his arrest was clearly politically motivated and 
arbitrary.
V. Torture and cruel, inhumane, and degrading treatment in prisons
    Political prisoners in Venezuela have been subject to torture and 
other cruel, inhuman, and degrading treatment while in custody. The 
scale of these human rights violations seems to have increased since 
antigovernment protests began last year, but follows a long-standing 
pattern. Reports to this end have been issued from multiple 
international and regional organizations including the Inter-American 
Commission on Human Rights; the Office of the High Commissioner for 
Human Rights; and the United Nations Committee Against Torture; as well 
as countless nongovernmental organizations such as Human Rights Watch 
and Amnesty International.
    The U.N. Committee Against Torture expressed alarm regarding 
reported acts of torture and ill-treatment of persons arrested in 
connection with the demonstrations which occurred in Venezuela between 
February and June 2014. These acts include beatings, electric shocks, 
burns, suffocation, sexual violence and threats, apparently to punish 
protesters and obtain confessions.\92\ Similarly, in most cases 
documented by Human Rights Watch in its report regarding last year's 
protests, security forces subjected those arrested for protesting to 
severe physical abuse, including beatings with fists, helmets, and 
firearms; being forced to squat or kneel, without moving, for hours at 
a time; and extended exposure to extreme temperatures.\93\ Human Rights 
Watch also reported cases of torture including a pattern of firing 
rubber bullets point blank at protesters, withholding medical treatment 
despite life-threatening injuries, and psychological abuse.\94\ Amnesty 
International reported similar horrific accounts of abuse against 
detainees in its report and highlighted that inhuman and degrading 
treatment of detainees appeared to be in retaliation for their 
involvement in protests. For example, both male and female detainees 
reported being raped or threatened with rape by security agents. Other 
reports of torture and inhuman and degrading treatment include 
detainees being repeatedly and intentionally run over or hit by police 
officers on motorcycles; being doused in gasoline; and being subjected 
to severe beatings with batons.\95\
    Inhumane treatment of detainees continues to this day. Last week, 
Rodolfo Gonzalez, a political prisoner and former aviation pilot, 
committed suicide in prison. He was reportedly suffering from extreme 
physical and emotional distress due to the conditions of his detention 
at the headquarters of the State Intelligence Service (SEBIN) and the 
news that he would soon be transferred to an extremely dangerous prison 
known as ``Yare.'' \96\
    In the heart of Caracas is a prison known as ``La Tumba'' (``the 
tomb''). Located five stories below ground are holding cells for 
protesters and political prisoners. Prisoners of La Tumba are not only 
confined to tight spaces and constantly exposed to subfreezing 
temperatures, but are also deprived of sunlight, sanitary conditions, 
and ventilation. The conditions of detention have reportedly caused all 
inmates to become extremely ill, with symptoms including severe 
vomiting, diarrhea, fever, and hallucinations. However, they are denied 
access to adequate medical treatment.\97\
    Just earlier this month, the IACHR granted precautionary measures 
for the protection of political prisoners, Lorent Saleh and Gerardo 
Carrero.\98\ These measures, which are only granted in extreme cases of 
urgency, gravity, and threats of irreparable harm, were issued based on 
reliable reports that the detention conditions of Mr. Saleh and Mr. 
Carrero put their lives and safety at risk. These deplorable conditions 
have resulted in injuries and illness, for which no adequate medical 
treatment is provided. In issuing the precautionary measures, the IACHR 
referred to multiple reports it had investigated and received in recent 
years regarding serious violations of the human rights of detainees in 
Venezuela.\99\
    The inhumane conditions in Venezuelan prisons are not only suffered 
by political prisoners are exacerbated by extreme overcrowding. During 
the first half of 2014, jails were reported to be at 190 percent 
capacity.\100\ Additionally, as noted by the Committee Against Torture, 
detainees were deprived of medical care, potable water, food, 
sanitation, and ventilation.\101\ Further, 309 prisoners died in 
Venezuelan prisons during 2014 alone,\102\ but the numbers of inmates 
that have died in prison since 2004 is 4,791 and 9,931 have been 
wounded in the last decade.\103\
    The CAT Committee highlighted reports that political prisoners such 
as Leopoldo Lopez, have been held in solitary confinement.\104\ There 
have been numerous reports regarding the cruel, inhuman, and degrading 
treatment of Mr. Lopez, who is detained in Ramo Verde prison. For 
example, in October guards ordered Mr. Lopez and other detainees to 
defecate into plastic bags, and subsequently threw the same bags of 
human excrement at them and prevented them from bathing.\105\
    Last February 13, Mr. Lopez's cell was forcibly broken into for the 
apparent purpose of attacking and intimidating him. Since then, Mr. 
Lopez has been held in isolation, and deprived of communication with 
his lawyers and family, in direct violation of his rights.\106\ The 
U.N. Special Rapporteur on Torture recently expressed that Venezuela 
had violated international law ``by failing to take measures to prevent 
mistreatment'' and ``torture'' of demonstrators and detainees, 
including the imposition of solitary confinement to opposition leader 
Leopoldo Lopez and the recent violent searches in the cells of other 
political prisoners such as Daniel Ceballos, Enzo Scarano, and 
Salvatore Luchesse.\107\
VI. Violations of the right to political participation
    The right to participate in one's political system is a fundamental 
right, which not only gives citizens a voice in their own government, 
but also protects human rights defenders, supports underrepresented and 
vulnerable populations, and prevents violent political 
transitions.\108\ The rights to vote, participate in, and benefit from 
public service are protected by international instruments such as the 
Universal Declaration of Human Rights (UDHR) \109\ and the 
International Covenant on Civil and Political Rights (ICCPR).\110\ 
Article 21 of the UDHR provides that ``Everyone has the right to take 
part in the government of his country, directly or through freely 
chosen representatives.'' ICCPR article 25 affirms that ``Every citizen 
shall have the right and the opportunity . . . (a) To take part in the 
conduct of public affairs, directly or through freely chosen 
representatives; (b) To vote and to be elected at genuine periodic 
elections . . . (c) To have access, on general terms of equality, to 
public service in his country.'' Likewise, the American Declaration on 
the Rights and Duties of Man \111\ states in Article XX: ``Every person 
having legal capacity is entitled to participate in the government of 
his country, directly or through his representatives, and to take part 
in popular elections, which shall be by secret ballot, and shall be 
honest, periodic, and free.''
    Despite these legal obligations enshrined in international law and 
freely accepted by the state of Venezuela, the government has 
repeatedly stymied the right to political participation for opposition 
leaders, thereby repressing the rights of individuals as well as 
limiting free discourse and debate about matters in the public 
interest. Specifically, opposition leaders have both been denied the 
right to run for office and arbitrarily expelled from their positions.
    Leopoldo Lopez, leader of the opposition party Voluntad Popular 
(Popular Will), was elected mayor of the Chacao municipality of Caracas 
in July 2000. Mr. Lopez was recognized for his commitment to 
transparency and accountability.\112\ However, in August and September 
2005 the government imposed sanctions for alleged corruption which had 
the effect of disqualifying Mr. Lopez from public office for a period 
of 3 and 6 years, respectively.\113\ Mr. Lopez was thus prevented from 
running for mayor in 2008. In 2011, the Inter-American Court of Human 
Rights issued a unanimous decision on this matter in favor of Mr. 
Lopez.\114\ The Inter-American Court found that the alleged charges of 
corruption brought against Mr. Lopez, which he maintained were 
baseless, were never adjudicated by a competent tribunal and that Mr. 
Lopez was never charged with a crime. The Inter-American Court held 
that Mr. Lopez's human right to political participation had been 
violated. However, the Venezuelan regime refused to abide by the 
ruling, and Mr. Lopez was thus prevented from running in the 2012 
Presidential election.\115\ As described above, Leopoldo Lopez has been 
arbitrarily detained since February 18, 2014, in the military prison of 
Ramo Verde, specifically for exercising his rights to political 
participation and other human rights.
    Multiple elected officials who are opposition party members have 
been arbitrary expelled or threatened with expulsion from their 
positions. For example, Maria Corina Machado, an opposition leader and 
the founder, former vice president, and former president of the 
Venezuelan volunteer civil organization Sumate, was stripped of her 
seat in the National Assembly after being accused of treason by 
President Maduro in 2014. She had previously been charged with 
conspiracy for funds Sumate received from the National Endowment for 
Democracy (NED).\116\
    Ms. Machado ran for the National Assembly in 2010 and received the 
highest number of votes in the country.\117\ Ms. Machado has been one 
of the most vocal critics of President Maduro and the late President 
Chavez. She has repeatedly called for the removal of Mr. Maduro by 
legal means. In March 2014, after she accepted Panama's invitation to 
speak about repression in Venezuela at the Organization of American 
States General Assembly, and in response to her vocal support of the 
antigovernment protests last year, she was expelled from the National 
Assembly.\118\ By arbitrarily ousting Ms. Machado, the government 
violated her right to political participation and inhibited free 
expression and dissent among the legislature. The Inter-American 
Commission on Human Rights expressed concern about the reported ``lack 
of guarantees to ensure due process in the investigations and 
prosecutions'' of Ms. Machado and other members of the opposition.\119\
    Further evidence of the government's campaign to silence dissent 
and violate the right to political participation came last month, when 
the ruling party in the National Assembly moved to strip opposition 
party Congressman Julio Borges of his seat.\120\ Legislators called for 
an investigation into Mr. Borges, accusing him of conspiring along with 
Mr. Ledezma to foment a coup to overthrow President Maduro. The 
National Assembly President, Diosdado Cabello, also accused him of 
planning to murder Leopoldo Lopez to create chaos.\121\ Like other 
opposition leaders accused of plotting to overthrow the government, Mr. 
Borges would lose his legislative immunity if expelled from Congress, 
and thus could be prosecuted.\122\ The pattern of repression of the 
right to political participation thus has a chilling effect on all 
Venezuelans who hold dissenting views and wish to advocate for 
democratic change.
    Mr. Chairman, Ranking Member Boxer, and members of the Subcommittee 
on the Western Hemisphere, the disregard by the Venezuelan Government 
of the human rights of its people is absolute. The account I have just 
presented is only but a fraction of the grave and systematic violations 
that are taking place in that country but show the speedy deterioration 
of the security and enjoyment of the most basic rights and freedoms of 
the Venezuelan people. It is time for the international community to 
ensure through multilateral and bilateral efforts that democracy and 
the rule of law are respected in Venezuela. In 2001, the hemisphere 
adopted the Democratic Charter to address challenges such as the ones 
Venezuela is going through. The U.S. Government should work together 
with the Organization of American States (OAS), the Union of South 
American Nations (UNASUR) and the leaders of the region to ensure that 
the Democratic Charter is respected.

----------------
End Notes

    \1\ According to the information published by the Office of the 
High Commissioner for Human Rights (OHCHR), only a visit by the Special 
Rapporteur on the Right to Food was accepted by the Government of 
Venezuela in 2011 but it has not yet taken place.
    \2\ HRW, ``Venezuela: Human Rights Watch Delegation Expelled,'' 
September 19, 2008.
    \3\ Committee Against Torture (CAT), Concluding Observations: 
Bolivarian Republic of Venezuela, UN Doc. CAT/C/VEN/CO/3-4 (in 
Spanish), December 12, 2014, para. 8.
    \4\ Law authorizing the President of the Republic to Issue Decrees 
with the Level, Strength and Validity of Laws on delegated matters. 
Articles 1 and 2. Published in Extraordinary Official Gazette No. 6.112 
of November 19, 2013.
    \5\ Reuters, ``Venezuela's Maduro seeks decree powers to face U.S. 
`imperialism' '', March 10, 2015.
    \6\ Resolution No. 008610 of the Ministry of Defense published in 
the Official Gazette on January 27, 2015.
    \7\ CAT, Concluding Observations: Bolivarian Republic of Venezuela, 
para. 15.
    \8\ The Petrocaribe program established in 2005 by Venezuela is 
described as a development cooperation program through energy supply 
assistance. Official page of Petrocaribe: http://www.petrocaribe.org/.
    \9\ FAO, Progress is proof that hunger can be eliminated, press 
release of June 16 2013.
    \10\ IACHR, Annual Report 2013, para. 667.
    \11\ Aporrea.org, ``Venezuela pide a la FAO apoyo para sistema de 
oferta de alimentos,'' June 16, 2013, as cited in IACHR, Annual Report 
2013, para. 669.
    \12\ Decree No. 8,331 with rank, value and force of Law on Costs 
and Fair Prices. Published in Official Gazette No. 39,715, of July 18, 
2011.
    \13\ CNN, ``Facing shortages, Venezuela takes over toilet paper 
factory,'' September 21, 2013.
    \14\ Bloomberg, ``Venezuelans Throng Grocery Stores Under Military 
Protection,'' January 9 2015.
    \15\ U.N., ``Venezuela: U.N. Human Rights Chief Urges Halt to 
Violence, Inflammatory Rhetoric,'' Feb. 28, 2014.
    \16\ Freedom House.`` Venezuela: Freedom of the Press 2014.''
    \17\ Id.
    \18\ HRW, ``Venezuela: Legislative Assault on Free Speech, Civil 
Society,'' Dec. 22, 2010.
    \19\ Freedom House, ``Venezuelan Government Silencing Media During 
Protests, Undermining Free Expression,'' Feb. 21, 2014.
    \20\ El Nacional, ``300 desempleados ha dejado cierre de 
periodicos,'' Feb. 8, 2014.
    \21\ Freedom House, ``Venezuelan Government Silencing Media During 
Protests, Undermining Free Expression,'' Feb. 21, 2014.
    \22\ IACHR ``Annual Report of the Office of the Special Rapporteur 
for Freedom of Expression: 2013,'' OEA/Ser.L/V/II.149 Doc. 50 Dec. 31, 
2013.
    \23\ IACHR, ``IACHR Expresses Deep Concern over Acts of Violence in 
Venezuela and Urges the State to Ensure Democratic Citizen Security,'' 
press release No. 13 of Feb. 14, 2014.
    \24\ Id.
    \25\ Freedom House, ``Freedom of the Press 2003: Venezuela.''
    \26\ Id.
    \27\ Id.
    \28\ HRW, ``World Report 2014: Venezuela.''
    \29\ Reporters without Borders, ``Venezuela.''
    \30\ Reporters without Borders, ``World Press Freedom Index 2014: 
Venezuela.''
    \31\ Reporters without Borders, ``Venezuela.''
    \32\ Committee to Protect Journalists (CPJ), ``In Venezuela, 
Campaign to Silence Press.''
    \33\ Id.
    \34\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 14.
    \35\ Freedom House, ``Venezuelan Government Silencing Media During 
Protests, Undermining Free Expression,'' Feb. 21, 2014.
    \36\ IACHR., ``Annual Report of the Office of the Special 
Rapporteur for Freedom of Expression: 2013,'' OEA/Ser.L/V/II.149, Doc. 
50, Dec. 31, 2013.
    \37\ Id.
    \38\ IACHR, ``Office of the Special Rapporteur Expresses Concern 
over the Situation of the Freedom of Expression in Venezuela,'' Sept. 
22, 2014.
    \39\ IACtHR., ``Case of Perozo et al. v. Venezuela'', Series C No. 
195, January 28, 2009.
    \40\ HRW, ``Venezuela: Unarmed Protestors Beaten, Shot,'' May 5, 
2014.
    \41\ Resolution No. 008610 of the Ministry of Defense published in 
the Official Gazette on January 27, 2015.
    \42\ HRW, ``Venezuela: Legislative Assault on Free Speech, Civil 
Society,'' Dec. 22, 2010.
    \43\ Id.
    \44\ Id.
    \45\ Id.
    \46\ Int'l. Ctr. for Not-for-Profit Law, ``NGO Law Monitor: 
Venezuela,'' Dec. 1, 2014.
    \47\ See, e.g. Vision Global, ``Capriles: ``Cespa busca ocultar 
realidad de los venezolanos,'' 2013. Available (in Spanish). Manzana 
Mecanica, ``Venezuela censura Twitter y fortalece CESPA: duro golpe a 
la libertad de informacion,'' Feb. 28, 2014.
    \48\ IACHR, ``Annual Report 2009: Chapter IV, Human Rights 
Developments in the Region: Venezuela,'' OEA/Ser.L/V/II. Doc. 51, corr. 
1, Dec. 30, 2009.
    \49\ Id.
    \50\ Id.
    \51\ Freedom House, ``Venezuela: Freedom in the World 2013.'' See 
also PROVEA, ``Provea rechaza la criminalizaci"n de la protesta y 
dvierte sobre la institucionalizaci"n de la mentalidad represiva en la 
acci"n de gobierno,'' Feb. 7, 2014.
    \52\ Freedom House, ``Freedom of Association Under Threat: The New 
Authoritarians' Offensive Against Civil Society.''
    \53\ See International Covenant on Civil and Political Rights 
[hereinafter ICCPR] art. 21, art. 22(2), 999 U.N.T.S. 171, entered into 
force Mar. 23, 1976; Manfred Nowak, U.N. Covenant on Civil and 
Political Rights: CCPR Commentary 487-488 (2005). See generally Basic 
Principles on the Use of Force and Firearms by Law Enforcement 
Officials (1990), available at http://www2.ohchr.org/english/law/
firearms.htm [hereinafter ``Use of force principles"].
    \54\ Code of Conduct for Law Enforcement Officials art. 3, G.A. 
Res. 34/169 (1979).
    \55\ Code of Conduct, art. 3.
    \56\ Use of force principles, at 5.
    \57\ Use of force principles, at 5.
    \58\ IACHR, ``IACHR expresses deep concern over the situation with 
respect to the right to peaceful protest, freedom of association and 
freedom of expression in Venezuela,'' press release No. 17 of February 
21, 2014.
    \59\ HRW, ``World Report 2012: Venezuela,'' p. 9.
    \60\ Id. at p. 8.
    \61\ Amnesty International, ``Venezuela: Human rights at risk amid 
protests'' (AMR 53/009/2014), April 1, 2014, p. 5.
    \62\ Id. at p. 6.
    \63\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 12.
    \64\ Id.
    \65\ Id. at para. 13.
    \66\ HRW, ``World Report 2012: Venezuela,'' p.12.
    \67\ IACHR, ``IACHR expresses deep concern over the situation with 
respect to the right to peaceful protest, freedom of association and 
freedom of expression in Venezuela,'' press release No. 17 of February 
21, 2014.
    \68\ IACHR, ``IACHR Laments the Death of a Student during Protests 
in Venezuela,'' press release no. 22 of March 3, 2015. See also Amnesty 
international, public declaration of February 25, 2015 (in Spanish).
    \69\ ``Ley Organica del Tribunal Supremo de Justicia (2004).
    \70\ HRW, Submission to the Human Rights Committee in advance to 
its presessional review of Venezuela, July 29 2014.
    \71\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 16.
    \72\ IACHR, Annual Report 2013, para. 441.
    \73\ OHCHR, ``Preocupante la situacion de la justicia en Venezuela, 
advierte experto de la ONU,'' July 30, 2009.
    \74\ HRW, ``Tightening the Grip: Concentration and Abuse of Power 
in Chavez's Venezuela,'' July 2012, pp. 30-36.
    \75\ ID at p. 36.
    \76\ BBC, ``Venezuela ends house arrest of Judge Maria Afiuni,'' 
June 14, 2013.
    \77\ U.N. News Centre, ``Venezuelan leader violates independence of 
judiciary--U.N. rights experts,'' 16 December 2009.
    \78\ HRW, ``Tightening the Grip: Concentration and Abuse of Power 
in Chavez's Venezuela,'' July 2012, p. 5. See also IACHR, Annual Report 
2013, para. 660.
    \79\ International Bar Association, ``IBAHRI expresses grave 
concern at arrests and further deterioration of rule of law in 
Venezuela,'' 18 February 2015.
    \80\ OHCHR, U.N. Human Rights Chief urges Venezuela to release 
arbitrarily detained protestors and politicians, 20 October 2014.
    \81\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 9.
    \82\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 9. See also Amnesty International, 
Report 2014/15, Venezuela.
    \83\ OHCHR, U.N. Human Rights Chief urges Venezuela to release 
arbitrarily detained protestors and politicians, 20 October 2014.
    \84\ Amnesty International, Venezuela: Trial of opposition leader 
Leopoldo Lopez raises concerns about the independence of the justice 
system in Venezuela, 21 July 2014.
    \85\ Amnesty International, Venezuela: Arrest of local mayor 
signals potential ``witch hunt,'' 20 March 2014.
    \86\ Opinion Number 26/2014 (Bolivarian Republic of Venezuela) 
adopted by the Working Group on Arbitrary Detention at its seventieth 
session, August 25-29, 2014, para. 54.
    \87\ Id. at para. 55.
    \88\ OHCHR, U.N. Human Rights Chief urges Venezuela to release 
arbitrarily detained protestors and politicians, 20 October 2014.
    \89\ OHCHR, U.N. Human Rights Chief urges Venezuela to release 
arbitrarily detained protestors and politicians, 20 October 2014.
    \90\ El Pais, ``La policia de Maduro detiene al alcalde opositor de 
Caracas,'' February 20, 2015. Available (In Spanish).
    \91\ Id.
    \92\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 10. See also U.N. Human Rights 
Chief urges Venezuela to release arbitrarily detained protestors and 
politicians, October 20, 2014.
    \93\ Human Rights Watch, ``Punished for Protesting: Rights 
Violations in Venezuela's Streets, Detention Centers, and Justice 
System'' 2014, pp. 15.
    \94\ Id. at p. 17
    \95\ Amnesty International, ``Venezuela: Human rights at risk amid 
protests'' (AMR 53/009/2014), April 1, 2014.
    \96\ ``Muere en prision Rodolfo Gonzalez, opositor detenido en 
manifestaciones en Venezuela,'' BBC Mundo, March 13, 2015. Available 
(in Spanish).
    \97\ ABC.es, `` `La tumba,' siete celdas de tortura en el corazon 
de Caracas,'' February 10, 2015.
    \98\ IACHR, Resolution 6/2015, Precautionary Measure No 223-13, 
``Matter of Lorent Saleh y Gerardo Carrero regarding Venezuela,'' March 
2, 2015.
    \99\ Id. at para. 16.
    \100\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 18.
    \101\ See generally CAT, Concluding Observations: Bolivarian 
Republic of Venezuela, December 12, 2014.
    \102\ Venezuelan Prisons Observatory. See more information (in 
Spanish) at: http://elimpulso.com/articulo/violencia-en-carceles-
venezolanas-dejo-309-reclusos-muertos-en-2014.
    \103\ CAT, Concluding Observations: Bolivarian Republic of 
Venezuela, December 12, 2014, para. 19.
    \104\ Id. at para. 18.
    \105\ Juan Carlos Vargas, ``Caso Leopoldo L"pez: Situaci"n actual 
del juicio, violaciones de DDHH y pronunciamientos internacionales,'' 
Acci"n por la Libertad, January 30, 2015 (in Spanish, on file with 
author).
    \106\ Americas Quarterly, ``Meeting with Vice President Biden 
Triggers Alleged Retaliation from Venezuelan Government,'' February 13, 
2015.
    \107\ El Heraldo, ``Venezuela no previno actos de torturas," 
relator de ONU, March 12, 2015. Available (in Spanish) at:http://
www.elheraldo.co/internacional/venezuela-no-previno-actos-de-torturas-
relator-de-onu-187298.
    \108\ See ``Political Participation: A Fundamental Right in Need of 
Protection,'' submission by Human Rights Advocates and University of 
San Francisco School of Law's International Human Rights Clinic to the 
U.N. Human Rights Council.
    \109\ U.N. General Assembly, Universal Declaration of Human Rights, 
10 December 1948, 217 A (III).
    \110\ ICCPR. Ratified by Venezuela on May 10, 1978. Ratified by the 
United States of America on June 8, 1992.
    \111\ American Declaration of the Rights and Duties of Man, O.A.S. 
Res. XXX, adopted by the Ninth International Conference of American 
States (1948)
    \112\ See, e.g. ``Premio Transparencia 2008 para Leopoldo Lopez,'' 
October 6, 2008.
    \113\ IACtHR, ``Case of Lopez Mendoza v. Venezuela,'' Judgment of 
September 1, 2011 (Merits, Reparations, and Costs), Series C No. 233.
    \114\ Id.
    \115\ See, e.g., Jeremy McDermott, ``Chavez accused of behaving 
like `dictator' ahead of elections,'' The Telegraph (UK), November 21, 
2008.
    \116\ HRW, ``Venezuela: Court Orders Trial of Civil Society 
Leaders,'' July 8, 2005.
    \117\ Mery Mogollon and Chris Kraul, ``Venezuela elections weaken 
Chavez's hold,'' Los Angeles Times, September 28, 2010.
    \118\ ``Venezuela opposition congresswoman's mandate revoked,'' BBC 
News, March 24 2014.
    \119\ IACHR, ``IACHR Expresses Deep Concern over the Situation 
regarding the Rule of Law in Venezuela,'' press release No. 15 of 
February 24, 2015.
    \120\ Sara Schaefer Munoz and Ezequiel Minaya, ``Venezuela Cracks 
Down on Dissent,'' Wall Street Journal, February 24, 2015.
    \121\ The Star, ``Venezuela's Ruling Socialists Target Another 
Opposition Leader,'' February 24, 2015.
    \122\ The New York Times, ``Clashes, Tear Gas After Police Kill Boy 
at Venezuela Protest'', February 25, 2015.

    Senator Rubio. Thank you.
    Mr. Farah.

STATEMENT OF DOUGLAS FARAH, PRESIDENT, IBI CONSULTANTS, TAKOMA 
                            PARK, MD

    Mr. Farah. Thank you, Chairman Rubio, for the chance to be 
here today to discuss the accelerating crisis in Venezuela and 
its implications for the United States and regional security. I 
speak only on behalf of myself, and my views are not 
necessarily those of CSIS or IASC.
    I want to focus on Venezuela's regional role rather than 
its internal problems because I believe this is where the 
strategic threat to the United States actually resides.
    There is little doubt that Venezuela has, for a decade now, 
posed a significant threat not only to U.S. security interests 
in the Western Hemisphere but to the survival of democracy and 
the rule of law in the region. A recent investigation by Veja, 
a respected Brazilian magazine, shows that Venezuela, with the 
help of Argentina, actively tried to help Iran's nuclear 
program in violation of international sanctions. More than a 
dozen Venezuelan officials have been publicly identified by 
U.S. law enforcement as being directly involved in drug 
trafficking or the support of terrorist groups.
    The threat originating in Venezuela is not confined to 
Venezuela. The late Hugo Chavez, acting in concert with his 
allies, Rafael Correa in Ecuador, Evo Morales in Bolivia, 
Daniel Ortega in Nicaragua, and Cristina Fernandez de Kirchner 
in Argentina, set out to redefine the political landscape in 
Latin America. And to a large degree, they have been 
successful. Unfortunately, the changes wrought under the banner 
of ``Socialism for the 21st Century'' 
have brought massive corruption, rising violence, and 
repression. Venezuela is the indisputable leader and primary 
axis around which the others revolve.
    Venezuela and its allies have moved perilously close to 
becoming criminalized states, that is, states where the senior 
leadership is involved with, and act in concert with, 
transnational organized crime groups as a matter of statecraft. 
The Maduro administration is the central component of a 
multistate, ongoing criminal enterprise, carried out in concert 
with Iran and a growing Russian presence, whose primary 
strategic objective is to cling to power by whatever means 
necessary and harm the United States and its allies. In this 
endeavor, it has embraced the FARC, Hezbollah, ETA of Spain, 
the Sinaloa Cartel, and other terrorist and drug trafficking 
organizations and--I repeat--as a matter of state policy, not 
as rogue elements acting on their own.
    The stakes in the unfolding crisis in Venezuela for United 
States interests and the survival of democracy in Latin America 
are high. The consequences of the growth of this poisonous 
Bolivarian criminal enterprise is lethal.
    Few understood this better than Alberto Nisman, the 
courageous Argentine prosecutor who was investigating the 1994 
Iran-backed bombing of the AMIA Jewish Center in Buenos Aires. 
Before being murdered on January 18, Nisman had documented the 
Bolivarian-Iran ties across the Western Hemisphere, including 
two attempted attacks backed by Iran in the United States. 
Iran, identified by successive U.S. administrations as a state 
sponsor of terror, has expanded its political alliances, 
diplomatic presence, trade initiatives, military and 
intelligence programs in the Bolivarian axis primarily through 
its deep ties with Venezuela.
    The Iranian Constitution, first pointed out by Prosecutor 
Nisman, is an extraordinary document in which Iran stakes its 
claim to world domination in the name of Allah. The preamble to 
the Iranian Constitution states: ``With due consideration for 
the Islamic Element of the Iranian Revolution, which has been a 
movement for the victory of all oppressed peoples who are 
confronted with aggressors, this Constitution shall pave the 
way for the perpetuation of this revolution within and outside 
the country. This Constitution seeks to lay the groundwork for 
the creation of a single world nation and perpetuate the 
struggle to make this nation a reality for all the world's 
needy and oppressed nations.'' That is quite a statement for a 
constitution.
    This is the country with whom Venezuela and the Bolivarian 
states have chosen to align themselves while seeking to 
eradicate U.S. influence. U.S. influence is being replaced by a 
lethal doctrine of asymmetrical warfare inspired by an 
authoritarian government seeking perpetual power and nurtured 
by Iran in its overt desire to violently spread its brand of 
Islamic revolution.
    In addition to serving as a gateway for Iran's presence in 
the region, Venezuela has also been the primary conduit for 
Russia's growing presence in the region, something that is of 
growing concern in our national security community. And I deal 
with this at length in my written statement.
    In my written testimony, I detail many of the other cases 
to substantiate the statements that I make here.
    But I want to close with the words of the legendary 
Manhattan district attorney, Robert Morgenthau, as he retired 
in 2009 after decades of public service, including the pursuit 
of numerous and ongoing criminal investigations into the 
Venezuelan Government's criminal activities. He said: ``Let 
there be no doubt that Hugo Chavez leads not only a corrupt 
government but one staffed with terrorist sympathizers. The 
government has strong ties to narcotrafficking and money 
laundering, and reportedly plays an active role in the 
transshipment of narcotics and the laundering of narcotics 
proceeds in exchange for payments to corrupt government 
officials.'' Under the even less competent hands of Nicolas 
Maduro, the situation described by Morgenthau 6 years ago has 
grown considerably worse, as has the threat.
    Thank you very much.
    [The prepared statement of Mr. Farah follows:]

                  Prepared Statement of Douglas Farah

    Chairman Rubio, Ranking Member Boxer and members of the committee, 
thank you for the invitation today to discuss the ongoing and 
accelerating crisis in Venezuela and its implications for the United 
States and regional security issues. I speak on behalf of only IBI 
Consultants and myself. The views are mine and do not necessarily 
reflect those of CSIS or IASC.
    There is little doubt that Venezuela has for a decade now posed a 
significant threat not only to U.S. security interests in the Western 
Hemisphere, but to the survival of democracy and the rule of law in the 
region. A recent investigation by Veja, a respected Brazilian magazine, 
shows that Venezuela, with the help of Argentina, actively tried to 
help Iran's nuclear program in violation of international sanctions.\1\ 
More than a dozen senior Venezuelan officials have been publicly 
identified by U.S. officials as being directly involved in supporting 
and participating in drug trafficking and support of designated 
terrorist groups.
    The threat originating in Venezuela is not confined to Venezuela. 
The late Hugo Chavez, acting in concert with his allies Rafael Correa 
in Ecuador, Evo Morales in Bolivia, Daniel Ortega in Nicaragua, 
Cristina Fernandez de Kirchner in Argentina, set out to redefine the 
political landscape in Latin America. And to a large degree they have 
been successful. Unfortunately the changes wrought under the banner of 
``Socialism for the 21st Century'' have brought massive corruption; 
rising violence; a disdain for the rule of law; the rise of equating an 
individual leader as the state (``Chavez is Venezuela''); a significant 
and ongoing, concerted effort to silence peaceful opposition and 
independent media; and collapse of institutions designed to guarantee 
oversight and transparency of public individuals and entities.
    My testimony will focus on this alliance, of which Venezuela is the 
indisputable leader and primary axis around which the others revolve. 
However, and this is what presents the greater strategic threat 
emanating from Venezuela, it is not acting alone, but in concert with 
multiple other nations.
    Venezuela and its allies have moved perilously close to being 
``criminalized states,'' that is, states where the senior leadership is 
aware of and involved and act on behalf of the state, with 
transnational organized crime (TOC), where TOC is used as an instrument 
of statecraft, and where levers of state power are incorporated into 
the operational structure of one or more TOC groups.\2\ The Maduro 
administration is the central component to a multistate ongoing 
criminal enterprise, carried out in concert with Iran and a growing 
Russian presence, whose primary strategic objective is to cling to 
power by whatever means necessary and harm the United States and its 
allies.
    Democracy was far from perfect before the advent of the 
``Bolivarian Revolution,'' as Chavez defined his movement. Many of the 
region's countries were emerging from years of brutal and repressive 
military dictatorship, many of them backed by the United States. The 
new electoral systems were often rigid, exclusive and corrupt. However, 
rather than bringing about necessary reforms, Chavez created a system 
that has completely corrupted the electoral system, institutionalized 
massive corruption, criminalized nonviolent dissent, and made common 
cause with transnational terrorist and drug trafficking organizations. 
Beginning with the Chavez government and continuing into the Maduro 
administration Venezuela has actively pursued an official military 
doctrine that embraces the use of weapons of mass destruction against 
the United States.\3\
    The stakes in the unfolding crisis in Venezuela for U.S. interests 
and the survival of democracy in Latin America are high. The 
consequences of the growth of the poisonous Bolivarian criminal 
enterprise are lethal.
    Few understood this better than Alberto Nisman, the courageous 
Argentine prosecutor who was investigating the 1994 Iran-backed bombing 
of the AMIA Jewish center in Buenos Aires. Before being murdered on 
January 18 Nisman had documented the Bolivarian-Iran actions across the 
Western Hemisphere, including two attempted attacks backed by Iran in 
the United States. The week before his death, Nisman had formally 
accused Argentine President Cristina Fernandez de Kirchner and senior 
members of her inner circle of illegally seeking to cut to hide Iran's 
role in the AMIA case in exchange for oil to relieve Argentina's 
chronic fuel shortages. The warming relationship between Iran and 
Argentina was directly brokered by Venezuelan leaders. Whether or not 
the Argentine or Iranian government had direct roles in the unsolved 
murder of Nisman, the three nations together clearly created a climate 
in which he could be killed with impunity.\4\
    As the Veja investigation shows, Venezuela was a key player in the 
efforts of Iran to reestablish nuclear ties to Argentina, and that such 
a relationship was of primary interest to the Iranians.\5\ Because of 
the high value Iran placed on the acquisition of nuclear technology, 
Chavez promised to personally request Argentina's help, and to do so 
immediately.\6\
    In addition nuclear overtures, Venezuela and Argentina have 
developed an elaborate and opaque mechanism for transferring millions 
of dollars in funds between the two nations with no oversight or 
accountability. One of the primary mechanisms was a program called 
``200 Socialist Factories,'' (200 Fabricas Socialistas). Venezuelan 
Government documents show that this program, although producing few 
functioning factories and even fewer economic benefits, allowed for 
direct Iranian participation in the ventures, most likely as a way of 
moving money that otherwise would be frozen under international 
financial sanctions.\7\
    Of concern to the United States should be the stated policy of the 
Bolivarian bloc of nations to break the traditional ties of the region 
to the United States. To this end, the Bolivarian alliance has formed 
numerous organizations and military alliances--including a military 
academy in Bolivia to erase the vestiges of U.S. military training--
which explicitly exclude the United States.\8\
    U.S. influence is being replaced by a lethal doctrine of 
asymmetrical warfare, inspired by authoritarian governments seeking 
perpetual power and nurtured by Iran. Through an interlocking and 
rapidly expanding network of official Web sites, publishing houses, 
think tanks and military academies, the governments of Venezuela, 
Argentina, and Cuba have created a dominant narrative that identifies 
the United States as the primary threat to Latin America.
    A constant in the narrative, and a particular favorite of the late 
Chavez, is that a U.S. invasion is imminent and unavoidable. This is 
because the alleged United States policy is based on pillaging the 
region's natural resources, toppling the revolutionary regimes leading 
the march to Latin American independence, and subjugating its citizens. 
This preposterous narrative is often used by Maduro to justify the 
repressive and illegal arrest of opposition leaders who are held for 
months and years without trial or charges, as alleged accomplices in 
the fabricated crimes.
    This narrative has long been a part of the Latin American 
landscape, shaped by mass movements, armed insurgencies and Marxist 
ideologies, and based on the turbulent history of relations between the 
United States and the region. What is different now is the overt 
multigovernment sponsorship of the effort and the official adoption of 
these positions as policy and doctrine. This gives the current campaign 
deeper roots and access to levers of state power.
    As discussed at length below, Iran, identified by successive U.S. 
administrations as a state sponsor of terrorism, has expanded its 
political alliances, diplomatic presence, trade initiatives, and 
military and intelligence programs in the Bolivarian axis, primarily 
through the deep ties with Venezuela.
    In 2012 the United States intelligence community assessed that 
Iranian leadership was more willing to launch a terrorist attack inside 
the Homeland in response to perceived threats from the United 
States.\9\
    In 2013 the Argentine prosecutor Nisman released a report 
documenting through little-studied reports, informants, and the Iranian 
media, how official Iran state policy embraced assassination and 
terror, something which it never tried to hide and has never recanted, 
and the role of Venezuela in Iran's strategy.
    Many of the assumptions undergirding Prosecutor Nisman's work were 
drawn directly from the Iranian Constitution, an extraordinary document 
in which Iran stakes its claim to world domination in the name of 
Allah. It is worth a somewhat extended review here, given the repeated 
statements of solidary with Iran and its revolution by Venezuelan 
leaders. The preamble to the Iranian Constitution states:

          With due consideration for the Islamic Element of the Iranian 
        Revolution, which has been a movement for the victory of all 
        oppressed peoples who are confronted with aggressors, the 
        constitution shall pave the way for perpetuation of this 
        revolution within and outside the country, particularly in 
        terms of the expansion of international relationships with 
        other Islamic and popular movements. The Constitution seeks to 
        lay the groundwork for the creation of a single world nation . 
        . . and perpetuate the struggle to make this nation a reality 
        for all the world's needy and oppressed nations.

    It goes on to say that:

          In establishing and equipping the country's defense forces, 
        we will allow for the fact that faith and ideology constitute 
        the foundation and the criterion we must adhere to. Therefore, 
        the army of the Islamic Republic of Iran and troops of the 
        Revolutionary Guard will be created in accordance with the 
        objective mentioned above, and will be entrusted with the task 
        not only of protecting and preserving our borders, but also an 
        ideological mission, that is to say, Jihad in the name of Allah 
        and the world.\10\

    Shortly after Nisman's 2013 report the U.S. Department of State 
issued a congressionally mandated report on Iran's activities in Latin 
America which completely ignored Nisman's fieldwork, as well as 
dissenting views within the U.S. government--most notably U.S. Southern 
Command, which has military responsibility for the region. Instead the 
State Department concluded that, while Iran's interest in Latin America 
``is of concern,'' Iranian ``influence in Latin America and the 
Caribbean is waning.'' \11\ In September 2014 the Government 
Accountability Office (GAO) issued a sharp critique of the State 
Department effort, noting the report only fully addressed 2 of the 12 
issues raised, while partially addressing 6 issues, and leaving 4 
completely unaddressed.\12\
    In addition to serving as a gateway for Iran's presence in the 
region, Venezuela has also been the primary conduit for Russia's 
growing presence in the region, something of growing concern.
    Riding on the wave of radical anti-U.S. populism sponsored by 
Venezuela, Russia is now firmly allied with the ranks of Latin 
America's populist, authoritarian and virulently anti-American leaders 
of the Bolivarian Alliance for the Peoples of Our America--(Alianza 
Bolivariana para los Pueblos de Nuestra America--ALBA). The Putin 
government is providing ALBA nations with weapons, police and military 
training and equipment, nuclear technology, oil exploration equipment, 
financial assistance, and an influential friend on the United Nations 
Security Council and other international forums.
    In return, these allies are shielding Russia from international 
isolation, providing political and diplomatic support, and an important 
regional media network--both traditional and social--that offers 
unstinting support for Putin while casting the United States as the 
global aggressor. At the same time, ALBA countries are increasing 
Russia's access to the hemisphere's ports and airspace, and ultimately, 
increasing Russia's sphere of influence in a region where the United 
States has seldom been so challenged.\13\
    Gen. John Kelly, the commander of the U.S. Southern Command, in his 
2015 testimony before Congress, noted Russia's growing activities in 
Latin America were part of a global strategy of using ``power 
projection in an attempt to erode U.S. leadership and challenge U.S. 
influence in the Western Hemisphere . . . Russia has courted Cuba, 
Venezuela and Nicaragua to gain access to air bases and ports of supply 
for Russian naval assets and strategic bombers operating in the Western 
Hemisphere.'' \14\
    Where the Russian state establishes a presence, Russian organized 
crime invariably follows. The immediate consequence is the rapid 
increase in cocaine flows from Latin America to Russia, and the former 
Soviet Union, with almost all of the cocaine originating from countries 
that Russia vehemently supports--Venezuela, Nicaragua, Ecuador, and 
Bolivia.\15\
    The FARC,\16\ the hemisphere's oldest and largest insurgency and 
designated drug trafficking and terrorist organization by both the 
United States and European Union \17\, remains at the center of a 
multitude of criminal enterprises and terrorist activities that stretch 
from Colombia south to Argentina, and northward to Central America and 
into direct ties to the Mexican drug cartels, primarily the Sinaloa 
organization. Despite ongoing peace talks with the government over the 
past 2 years, the insurgency remains involved in the massive laundering 
of drug money, and recent cases by the Drug Enforcement Administration 
(DEA) have shown the direct and growing criminal drug ties of the FARC 
and Hezbollah.
    Following the model pioneered by Iran and Hezbollah, senior 
Venezuelan military and political leaders have allowed the FARC to 
traffic cocaine through Venezuela to West Africa, sharing in the 
profits. Almost every major shipment of cocaine to West Africa that 
U.S. law enforcement officials have been able to trace back have 
originated from or passed through Venezuelan territory.\18\
    Under the protection of the Governments of Venezuela, Ecuador, 
Nicaragua and Bolivia--as well as powerful friends in El Salvador and 
Panama--the FARC maintains a robust international infrastructure that 
is producing and moving thousands of kilos of cocaine and laundering 
hundreds of millions of dollars. It has emerged as a pioneer hybrid 
criminal-terrorist insurgency, using drug money to sustain an 
ideological movement. Over time the ideology has faded and the FARC has 
become much more of a business enterprise, helping to enrich its 
leadership and the leadership of the regional governments it supports.
    As one study of internal FARC documents, noted: ``When Chavez 
became President of Venezuela in February 1999, FARC had not only 
enjoyed a relationship with him for at least some of the previous seven 
years but had also penetrated and learned how to best use Venezuelan 
territory and politics, manipulating and building alliances with new 
and traditional Venezuelan political sectors, traversing the Colombia-
Venezuela border in areas ranging from coastal desert to Amazonian 
jungle and building cooperative relationships with the Venezuelan armed 
forces. Once Chavez was inaugurated, Venezuelan border security and 
foreign policies shifted in the FARC's favor.'' \19\
    In this context there is also growing evidence that the Venezuela 
Government under Chavez and Maduro is actively promoting drug 
trafficking and TOC/terrorist groups, particularly the FARC and 
Hezbollah.\20\ Perhaps the strongest public evidence of the importance 
of Venezuela to the FARC is the public designation of three of senior 
government officials by the U.S Treasury Department's Office of Foreign 
Assets Control (OFAC).
    OFAC said the three--Hugo Armando Carvajal, director of Venezuelan 
Military Intelligence; Henry de Jesus Rangel, director of the 
Venezuelan Directorate of Intelligence and Prevention Services; and 
Ramon Emilio Rodriguez Chacin, former Minister of Justice and former 
Minister of Interior--were responsible for ``materially supporting the 
FARC, a narcoterrorist organization.'' It specifically accused Carvajal 
and Rangel of protecting FARC cocaine shipments moving through 
Venezuela, and said Rodriguez Chacin, who resigned his government 
position just a few days before the designations, was the ``Venezuelan 
Government's main weapons contact for the FARC.'' \21\
    In November 2010, Rangel was promoted to the overall commander of 
the Venezuelan Armed Forces \22\ and in January 2012 was named Defense 
Minister as part of Chavez's promotion of close associates tied to drug 
trafficking and the FARC.\23\ In July 2014 Carvajal was detained in 
Aruba because of a U.S. indictment against him for drug trafficking in 
support of the FARC. Aruban authorities released him before he could be 
extradited. He received as a conquering hero when he returned to 
Venezuela.\24\
    As legendary Manhattan district attorney Robert M. Morgenthau 
warned as he left public service in 2009 after decades of public 
service, including pursuit of numerous (and ongoing) criminal 
investigations into the Chavez government's role in TOC: ``. . . [L]et 
there be no doubt that Hugo Chavez leads not only a corrupt government 
but one staffed by terrorist sympathizers. The government has strong 
ties to narcotrafficking and money laundering, and reportedly plays an 
active role in the transshipment of narcotics and the laundering of 
narcotics proceeds in exchange for payments to corrupt government 
officials.'' \25\
    OFAC charges were buttressed by three other developments: A public 
presentation of Colombian intelligence on FARC camps in Venezuela and 
the meeting of high-level FARC commanders with senior Venezuelan 
officials, delivered at a session of the Organization of American 
States in July 2010; \26\ the public release of an analysis of all the 
FARC documents--captured by the Colombian military from the March 1, 
2008, killing of senior FARC commander Raul Reyes--by a respected 
British security think that outlined some of the same ties; \27\ and 
the public statements of Walid Makled, a Venezuelan who was formally 
designated a drug kingpin by the U.S. Government.
    Arrested by Colombian police after he fled Venezuela, Makled was 
eventually extradited back to Venezuela. Preet Bharara, U.S. Attorney 
for the Southern District of New York, dubbed Makeld, also known as 
``The Turk,'' a ``king among kingpins.'' While in Colombian custody 
Makled gave multiple interviews and showed documents that he claimed 
showed he acquired control of one of Venezuela's main ports, as well as 
an airline used for cocaine trafficking, but paying millions of dollars 
in bribes to senior Venezuelan official.
    According the U.S. indictment against him, Makled exported at least 
10 tons of cocaine a month to the United States by keeping more than 40 
Venezuelan generals and senior government officials on his payroll. 
``All my business associates are generals. The highest,'' Makled said. 
``I am telling you, we dispatched 300,000 kilos of coke. I couldn't 
have done it without the top of the government.'' \28\ What added 
credibility to Makled's claims were the documents he presented showing 
what appear to be the signatures of several generals and senior 
Ministry of Interior officials accepting payment from Makled. ``I have 
enough evidence to justify the invasion of Venezuela'' as a criminal 
state, he said.\29\
    There is growing evidence of the merging of the Bolivarian 
Revolution's criminal-terrorist pipeline activities and those of the 
criminal-terrorist pipeline of radical Islamist groups (Hezbollah in 
particular) supported by the Iranian regime. The possibility opens a 
series of new security challenges for the United States and its allies 
in Latin America.
    Among the cases that provide evidence of these ties are:

  <bullet> In 2008, OFAC designated senior Venezuelan diplomats for 
        facilitating the funding of Hezbollah.
      One of those designated, Ghazi Nasr al Din, served as the charge 
        d'affaires of the Venezuelan Embassy in Damascus, and then 
        served in the Venezuelan Embassy in London. According to the 
        OFAC statement in late January 2008, al Din facilitated the 
        travel of two Hezbollah representatives of the Lebanese 
        Parliament to solicit donations and announce the opening of a 
        Hezbollah-sponsored community center and office in Venezuela. 
        The second individual, Fawzi Kan'an, is described as a 
        Venezuela-based Hezbollah supporter and a ``significant 
        provider of financial support to Hezbollah.'' He met with 
        senior Hezbollah officials in Lebanon to discuss operational 
        issues, including possible kidnappings and terrorist 
        attacks.\30\
  <bullet> In April 2009, police in the island country of Curacao 
        arrested 17 people for alleged involvement in cocaine 
        trafficking with some of the proceeds being funneled through 
        Middle Eastern banks to Hezbollah.\31\
  <bullet> A July 6, 2009, indictment of Jamal Yousef in the U.S. 
        Southern District of New York alleges that the defendant, a 
        former Syrian military officer arrested in Honduras, sought to 
        sell weapons to the FARC--weapons he claimed came from 
        Hezbollah and were to be provided by a relative in Mexico.\32\

    Such a relationship between nonstate and state actors provides 
numerous benefits to both. In Latin America, for example, the FARC 
gains access to Venezuelan territory without fear of reprisals; it 
gains access to Venezuelan identification documents; and, perhaps most 
importantly, access to routes for exporting cocaine to Europe and the 
United States--while using the same routes to import quantities of 
sophisticated weapons and communications equipment. In return, the 
Venezuelan Government offers state protection, and reaps rewards in the 
form of financial benefits for individuals as well as institutions, 
derived from the cocaine trade.
    Iran, whose banks, including its central bank, are largely barred 
from the Western financial systems, benefits from access to the 
international financial market through Venezuelan, Ecuadoran, and 
Bolivian financial institutions, which act as proxies by moving Iranian 
money as if it originated in their own, unsanctioned financial 
systems.\33\ Venezuela also agreed to provide Iran with 20,000 barrels 
of gasoline per day, leading to U.S. sanctions against the state 
petroleum company.\34\
    There is now a significant body of evidence showing the FARC's 
operational alliance with Hezbollah and Hezbollah allies based in 
Venezuela under the protection of the Maduro government, to which 
relatively little attention has been paid.
    A clear example of the breadth of the emerging alliances among 
criminal and terrorist groups was Operation Titan, executed by 
Colombian and U.S. officials beginning in 2008. Colombian and U.S. 
officials, after a 2-year investigation, dismantled a drug trafficking 
organization that stretched from Colombia to Panama, Mexico, West 
Africa, the United States, Europe and the Middle East. The operation 
then continued on for several more years as part of the Lebanese-
Canadian National Bank case.
    Colombian and U.S. officials say that one of the key money 
launderers in the structure, Chekry Harb, AKA ``Taliban'' acted as the 
central go-between among Latin American drug trafficking organizations 
(DTOs) and Middle Eastern radical groups, primarily Hezbollah. Among 
the groups participating together in Harb's operation in Colombia were 
members of the Northern Valley Cartel, right-wing paramilitary groups 
and the FARC.
    While there has been little public acknowledgement of the Hezbollah 
ties to Latin American transnational organized crime (TOC) groups, 
recent indictments based on DEA cases point to the growing overlap of 
the groups. In December 2011, U.S. officials charged Ayman Joumaa, an 
accused Lebanese drug kingpin and Hezbollah financier, of smuggling 
tons of U.S.-bound cocaine and laundering hundreds of millions of 
dollars with the Zetas cartel of Mexico, while operating in Panama, 
Colombia, the DRC and elsewhere.
    ``Ayman Joumaa is one of top guys in the world at what he does: 
international drug trafficking and money laundering,'' a U.S. antidrug 
official said. ``He has interaction with Hezbollah. There's no 
indication that it's ideological. It's business.'' \35\ Joumaa was tied 
to broader case of massive money laundering case that led to the 
collapse of the Lebanese Canadian Bank, one of the primary financial 
institutions used by Hezbollah to finance its worldwide activities.
    Another little-studied aspect of Venezuela's vast financial network 
is the use of PDVSA, the state oil company, to move hundreds of 
millions of dollars, with no legal financial backing, through its 
friends and allies in the Petrocaribe association, which was 
established by Chavez as a way to provide subsidized oil to poorer 
countries in the region. Under the construct, the receiving country is 
supposed to pay for 50 percent of the oil deliveries at market prices 
on delivery and pay for the other 50 percent over a 22-year period at a 
2-percent interest rate.
    Yet the numbers don't add up in Central America's strongest 
Bolivarian members, Nicaragua and El Salvador. Hundreds of millions of 
dollars are received and spent with no auditing, no accountability and 
generally no trace.
    The decision made by the leadership of the governing Sandinista 
party (FSLN )in Nicaragua and the governing Farabundo Marti (FMLN) in 
El Salvador, to work with the ALBA bloc of nations \36\ and their 
nonstate allies such as the FARC in Colombia to move hundreds of 
millions of dollars in untraceable ways through interconnected state 
oil companies, sets them apart from other Central American nations. 
While Venezuela's oil exports plummet and the price of oil has 
collapsed, these two governments receive ever-larger amounts of cash 
that is untraceable.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In El Salvador, the governing FMLN controls ALBA Petroleos, which 
is 60 percent owned by PDVSA. President Salvador Sanchez Ceren is a 
member of the ALBA leadership and former guerrilla commander with close 
ties to the FARC. According to public statements of FMLN leaders such 
as Jose Luis Merino, \37\ ALBA Petroleos began with $1 million from 
PDVSA in 2007 and by the end 2013 had revenues of $862 million, with no 
explanation for the massive growth.\38\ Merino, who is a senior ALBA 
Petroleos advisor, publicly stated that he knew that ``many people are 
nervous because ALBA Petroleos was born 6 or 7 years ago with $1 
million and now has $400 million. Let me correct myself, $800 million, 
and we are trying to change the lives of Salvadorans.'' \39\

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    One of the signature programs of ALBA in Nicaragua was to have been 
the construction of a large oil refinery. Named the ``Supreme Dream of 
Bolivar'' (Sueno Supremo de Bolivar), the refinery received $32 million 
in startup funding in 2008 and an additional $60 million over the 
following 3 years. In 2012 the program received an additional $141.2 
million.
    Yet all that is visible of the $237.2 million dollar investment is 
an empty field of compact earth with the flagstaffs bearing the flags 
of Nicaragua, Venezuela, Cuba, and ALBA. Construction machinery has 
remained idle at the site for 3 years.\40\

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    These last few cases, though far afield from Venezuela, constitute 
a key part of Venezuela's reach across the hemisphere and its ability 
to create corrupt structures, move well over $1 billion a year in 
unaccounted funds, and support criminal and terrorist organizations. 
These massive financial flows serve to corrupt the state, shield 
officials from accountability, create enormous ``slush funds'' for the 
governments to act without transparency, and are undermine the rule of 
law. They may also be of significant aid to drug trafficking and 
terrorist organizations.
    As I noted earlier, Venezuela's ongoing state-sponsored criminal 
activities and ties to terrorist organizations are not confined to 
Venezuela. Rather, Venezuela has made itself the hub of a multinational 
criminal enterprise that has tentacles across the hemisphere, and that 
receives the active support of Iran, Russia and other nations that have 
a declared hostile intent toward the United States. This is the direct 
threat posed by Venezuela and its ongoing crisis.

----------------
End Notes

    \1\ Leonardo Courinho, ``Chavistas confirmam conspiracao denuciada 
por Nisman,'' Veja, March 14, 2015.
    \2\ This definition is drawn from my study of transnational 
organized crime in Latin America. For a full discussion see: Douglas 
Farah, Transnational Organized Crime, Terrorism, and Criminalized 
States in Latin America: An Emerging Tier-One National Security 
Priority (Carlisle, PA: Strategic Studies Institute, U.S. Army War 
College, August 2012).
    \3\ The primary text outlining this philosophy, from which Chavez 
adopted his military doctrine is Peripheral Warfare and Revolutionary 
Islam: Origins, Rules and Ethics of Asymmetrical Warfare (Guerra 
Periferica y el Islam Revolucionario: Origenes, Reglas y Etica de la 
Guerra Asimetrica ) by the Spanish politician and ideologue Jorge 
Verstrynge. The tract is a continuation of and exploration of convicted 
terrorist Ilich Sanchez Ramirez's thoughts, incorporating an explicit 
endorsement of the use of weapons of mass destruction to destroy the 
United States. Verstrynge argues for the destruction of United States 
through series of asymmetrical attacks like those of 9/11, in the 
belief that the United States will simply crumble when its vast 
military strength cannot be used to combat its enemies.
      Although he is not a Muslim, and the book was not written 
directly in relation to the Venezuelan experience, Verstrynge moves 
beyond Sanchez Ramirez to embrace all strands of radical Islam for 
helping to expand the parameters of what irregular warfare should 
encompass, including the use of biological and nuclear weapons, along 
with the correlated civilian casualties among the enemy.
    \4\ For a fuller discussion of the Nisman murder see: Douglas 
Farah, ``The Murder of Alberto Nisman: How the Government of Cristina 
Fernandez de Kirchner created the environment for a perfect crime," 
International Assessment and Strategy Center, March 2015. For a fuller 
discussion of the triangulation efforts of Iran, Venezuela and 
Argentina in the nuclear program, see: Courihno, op cit.; Douglas 
Farah, ``Back to the Future: Argentina Unravels," International 
Assessment and Strategy Center, February 2013.
    \5\ It is important to remember that throughout the 1970s until 
1993 Argentina had a robust nuclear relationship with Iran, and the 
current Iranian reactors were retrofitted and upgraded with Argentine 
nuclear technology. Nisman, in his indictment of Iranian leaders for 
planning the AMIA bombing, stated that a major trigger for Iran's 
decision to blow up the AMIA building was the decision by Argentina, 
under pressure from the U.S. and Europe, to pause its nuclear 
cooperation with Iran. In addition to the Veja article, see: Kaveh L. 
Afrasiabi, ``Iran Looks to Argentina for nuclear fuel," Asia Times, 
November 6, 2009.
    \6\ Courinho, op. cit.
    \7\ Documents in possession of the author.
    \8\ These include recently founded Community of Latin American and 
Caribbean States (Comunidad de Estados Latinoamericanos y Caribenos-
CELAC), and the Bolivarian Alliance for the Peoples of Our America 
(Alianza Bolivariana para los Pueblos de Nuestra America-ALBA).
    \9\ James R. Clapper, Director of National Intelligence, 
``Unclassified Statement for the Record: Worldwide Threat Assessment of 
the U.S. Intelligence Community for the Senate Select Committee on 
Intelligence, January 31, 2012, p. 6.
    \10\ Translation of the Iranian Constitution of 1979 provided by 
the University of Nevada Las Vegas.
    \11\ U.S. Department of State, ``Annex A: Unclassified Summary of 
Policy Recommendations,'' June 2013. Most of the seven-page report was 
classified.
    \12\ United States Government Accountability Office, ``Combatting 
Terrorism: Strategy to Counter Iran in the Western Hemisphere Has Gaps 
that State Department Should Address,'' September 2014, p. 8.
    \13\ Douglas Farah and Liana Eustacia Reyes, ``Russia in Latin 
America: A Strategic Challenge,'' University of Miami, Center for 
Hemispheric Policy, January 15, 2015.
    \14\ ``Posture Statement of General John F. Kelly, United States 
Marine Corps, Commander United States Southern Command Before the 114th 
Congress Senate Armed Services Committee,'' March 12, 2015.
    \15\ For the most comprehensive look at Russian Organized Crime in 
Latin America, see: Bruce Bagley, ``Globalization, Ungoverned Spaces 
and Transnational Organized Crime in the Western Hemisphere: The 
Russian Mafia,'' paper prepared for International Studies Association, 
Honolulu, Hawaii, March 2, 2005.
    \16\ ``Fuerzas Armadas Revolucionarias de Colombia'' (Revolutionary 
Armed Forces of Colombia).
    \17\ ``FARC Terrorist Indicted for 2003 Grenade Attack on Americans 
in Colombia,'' Department of Justice Press Release, September 7, 2004, 
and: Official Journal of the European Union, Council Decision of Dec. 
21, 2005.
    \18\ Author interviews with Drug Enforcement Administration and 
National Security Council officials. For example two aircraft carrying 
more than 500 kilos of cocaine that were stopped in Guinea Bissau after 
arriving from Venezuela. See: ``Bissau Police Seize Venezuelan cocaine 
smuggling planes,'' Agence France Presse, July 19, 2008.
    \19\ ``The FARC Files: Venezuela, Ecuador and the Secret Archives 
of `Raul Reyes,' '' International Institute for Strategic Studies,'' 
May 2011.
    \20\ The strongest documentary evidence of Chavez's support for the 
FARC comes from the Reyes documents, which contained the internal 
communications of senior FARC commanders with senior Venezuelan 
officials, discussing everything from security arrangements in hostage 
exchanges to the possibility of joint training exercises and the 
purchasing of weapons. For full details of these documents and their 
interpretation, see: ``The FARC Files: Venezuela, Ecuador and the 
Secret Archives of `Raul Reyes,' '' op cit.
    \21\ ``Treasury Targets Venezuelan Government Officials Support of 
the FARC,'' U.S. Treasury Department Office of Public Affairs, Sept. 
12, 2008. The designations came on the heels of the decision of the 
Bolivian Government of Evo Morales to expel the U.S. Ambassador, 
allegedly for supporting armed movements against the Morales 
government. In solidarity, Chavez then expelled the U.S. Ambassador to 
Venezuela. In addition to the designations of the Venezuelan officials, 
the United States also expelled the Venezuelan and Bolivian Ambassadors 
to Washington.
    \22\ ``Chavez Shores up Military Support,'' Stratfor, November 12, 
2010.
    \23\ ``Venezuela: Asume Nuevo Ministro De Defensa Acusado de Narco 
por EEUU,'' Agence France Presse, January 17, 2012.
    \24\ ``Venezuela gives `hero's welcome' to freed Carvajal,'' BBC 
News, July 28, 2014.
    \25\ Robert M. Morgenthau, ``The Link Between Iran and Venezuela: A 
Crisis in the Making,'' speech at the Brookings Institution, September 
8, 2009.
    \26\ ``Colombia, Venezuela: Another Round of Diplomatic Furor,'' 
Strafor, July 29, 2010.
    \27\ The FARC Files: ``Venezuela, Ecuador and the Secret Archives 
of `Raul Reyes,' '' An IISS Strategic Dossier, International Institute 
for Strategic Studies, May 2011.
    \28\ The Colombian decision to extradite Makled to Venezuela rather 
than the United States caused significant tension between the two 
countries and probably means that the bulk of the evidence he claims to 
possess will never see the light of day. Among the documents he 
presented in prison were checks of his cashed by senior generals and 
government officials and videos of what appear to be senior government 
officials in his home discussing cash transactions. For details of the 
case see: Jose de Cordoba and Darcy Crowe, ``U.S. Losing Big Drug 
Catch,'' The Wall Street Journal, April 1, 2011; ``Manhattan U.S. 
Attorney Announces Indictment of one of World's Most Significant 
Narcotics Kingpins,'' United States Attorney, Southern District of New 
York, November 4, 2010.
    \29\ ``Makled: Tengo suficientes pruebas sobre corrupcion y 
narcotrafico para que intervengan a Venezuela,'' NTN24 TV (Colombia), 
April 11, 2011.
    \30\ ``Treasury Targets Hizbullah in Venezuela,'' United States 
Department of Treasury Press Center, June 18, 2008.
    \31\ Orlando Cuales, ``17 arrested in Curacao on suspicion of drug 
trafficking links with Hezbollah,'' Associated Press, April 29, 2009
    \32\ United States District Court, Southern District of New York, 
The United States of America v Jamal Yousef, Indictment, July 6, 2009.
    \33\ For a look at how the Ecuadoran and Venezuelan banks function 
as proxies for Iran, particularly the Economic Development Bank of 
Iran, sanctioned for its illegal support of Iran's nuclear program, and 
the Banco Internacional de Desarrollo, see: Farah and Simpson, op cit.
    \34\ Office of the Spokesman, ``Seven Companies Sanctioned Under 
Amended Iran Sanctions Act,'' U.S. Department of State, May 24, 2011.
    \35\ Sebastian Rotella, ``Government says Hezbollah Profits From 
U.S. Cocaine Market via Link to Mexican Cartel,'' ProPublica, December 
11, 2011.
    \36\ The name is derived from former Venezuelan President Hugo 
Chavez's desire to recreate the original country created by South 
American liberator Simon Bolivar, which included Venezuela, Colombia, 
Panama, Bolivia and Ecuador. Chavez dubbed his movement, which has 
relied heavily on the FARC both for financing and as a nonstate armed 
actor, the Bolivarian Revolution. The radical populist bloc is formally 
known as ALBA, the Bolivarian Alliance for the Peoples of Our America 
or Alianza Bolivariana Para los Pueblos de Nuestro America. It members 
include Venezuela, Ecuador, Bolivia, Nicaragua, Jamaica, the Dominican 
Republic and El Salvador.
    \37\ Merino, better known by his nom de guerre Ramiro Vasquez, was 
a Communist Party urban commando during El Salvador's civil war and 
carried out a number of high profile kidnappings both during and after 
the war. He was a well-known weapons provider to the FARC. His 
relationship with the FARC leadership, as well as the Chavez 
government, were well documented in captured FARC documents, where he 
is identified as ``Ramiro the Salvadoran.''
    \38\ These figures are taken from ALBA Petroleos official financial 
filings.
    \39\ ``Jose Luis Merino defiende a Alba Petroleos por ataques de 
ANEP,'' Verdad Digital, October 31, 2013.
    \40\ For an more comprehensive look at the refinery project and 
interesting graphics see: Jose Denis Curz, ``El Supremo Sueno de 
Bolivar no avanza,'' La Prensa (Nicaragua), March 25, 2013.

    Senator Rubio. Thank you, all three, for being here.
    Let me start with you, Dr. Sabatini. I wanted to ask you 
why--you have shared in your testimony something that Senator 
Boxer brought up earlier, and that is the silence of 
communities in Latin America and in the Western Hemisphere to 
what is happening in Venezuela. You compared it to the Honduran 
case that occurred back in 2009, if I am correct, and how that 
was met. Why, in your mind, is--why the silence from virtually 
everyone in the hemisphere with the exception of President 
Santos who condemned a specific arrest. But why the silence?
    Dr. Sabatini. It is a good question, Senator. I have 
several theories.
    I think first there has occurred in the last 10 years a 
proliferation of new regional organizations, led primarily by 
Brazil. There is a South American union, UNASUR. Then there is 
the Latin American-Caribbean union, CELAC. Both of those are 
intended to sort of marginalize the United States from those 
discussions. And not to wax too academic here, but those 
institutions actually lack a fundamental element of a 
multilateral institution. They do not ask their member 
countries to surrender any part of their sovereignty for a 
larger collective good. If you look at their founding 
documents, if you look at their statements, they always talk 
about how national sovereignty is supreme.
    So I actually think that we have gone backward in the 
region. We talk about popular sovereignty. We are back to the 
point when Latin American countries assert this principle of 
nonintervention, which can have very dangerous consequences 
because that principle of popular sovereignty evolved after 
World War II to protect the horrendous things that happened in 
Nazi Germany. So I think, first of all, there has been actually 
a philosophical institutional shift within the region.
    Second, I think that the region simply does not want to 
have the United States involved, and it is actively seeking to 
marginalize to do that. To give an example and to refer to what 
was said earlier about the need for election observation, be 
very careful. UNASUR's election observation program explicitly 
says that they are there to accompany--to accompany--the 
electoral commission which, if your electoral commission is 
vitiated or politicized, means you are just going there as a 
rubber stamp. So it is very important who monitors those 
elections.
    And on the last point, there is certainly a level of 
ideological sympathy and affinity with a number of these 
governments which is a shame because while I believe Dilma 
Rousseff and the PT may be genuinely leftist, even a social 
democratic government, basically Venezuela is a military 
government led by a group of thugs. But unfortunately, they 
cannot make that distinction.
    And last point, there are also very tight economic 
relations between--Brazil benefits deeply from agricultural 
exports, investment in infrastructure, and other things that 
sort of have made it very, very difficult to break its ties 
with Venezuela.
    Senator Rubio. Dr. Sabatini, you also talked and touched 
upon the drug trade. And as we know, if you watch the flights 
that come out of Colombia and South America and inner Central 
America and ultimately are transited into the United States, 
many of them over-fly Venezuela. It is hard to believe that 
those flights are occurring without the knowledge of someone in 
Venezuela. In fact, the allegations and some of the proof is 
very clear that the Venezuelan Government actually allows these 
flights to pay for protection money in exchange for being able 
to use airspace in Venezuela. If you do not pay the protection 
money, you may be shot down. If you pay the protection money to 
either a corrupt individual or to the Maduro government, you 
can over-fly that airspace. Is that an accurate assessment of 
the role Venezuela is playing in the drug trade?
    Dr. Sabatini. That is a very accurate assessment. If you 
look at a map, basically Venezuela is crosshatched by flights 
that are coming from Colombia or leaving from Venezuela mostly 
to go to West Africa but now increasingly going to the 
Caribbean, again raising two points. One is why Venezuela is--
as you say, since it is so closely tied to the drug trade at a 
state level and particularly at a military level, why this is a 
security risk to the region. And so Brazil and other countries 
ignore what is going on at their own peril. They will be most 
affected. And not coincidentally, one of the highest per capita 
consumers of cocaine today is Brazil.
    Senator Rubio. Mr. Canton, you described a Venezuela where 
there is no freedom of expression, where there is no freedom of 
assembly and association, where there is a lack of any sort of 
judicial independence, where there are arrests and detentions 
of opponents of the government, where there is degrading and 
cruel treatment of those opponents when imprisoned. Going 
deeper than that, we know that if you are a member of the 
opposition, you have virtually no access to the airwaves, no 
independent press. They are denied things like bulk paper 
imports. So they cannot even print. You are forced to sell to 
owners that are friendly to the regime.
    Just a moment ago, I struggled to get the Department of 
State of the United States to acknowledge that Venezuela was no 
longer a democracy. In essence, democracy is more than just 
elections. Why should I continue to consider what they have in 
Venezuela today as a democracy given the fact that beyond 
having an election, which may or may not be even valid in some 
cases because of manipulation of the ballot, all the other 
underlying conditions of a democracy are not present? In 
essence, there cannot be a democracy unless both sides have 
free and fair access to the people who vote. Is Venezuela still 
a democracy?
    Mr. Canton. That is an excellent question. It is more 
academic than practical to some extent.
    Maduro is the President elected by the popular vote, and 
nobody can argue against that. Maybe someone can argue that the 
elections were not free and fair. That is a possibility because 
he won only for 1.5. But he was elected by the popular vote.
    All the other conditions of democracy are not there. I 
completely agree with you on that aspect. There is no 
independence of the judiciary. Legislation is just a rubber 
stamp institution. And there is constantly violations of human 
rights in the country.
    Senator Rubio. I am sorry. Let me rephrase my question this 
way. And I get your point.
    Let us assume--and I do not. I do not accept this, but let 
us assume that the election was free and fair. Is Nicolas 
Maduro today governing Venezuela as a democrat?
    Mr. Canton. No, absolutely not. And rather than using the 
word ``democracy'' that can give space for ambiguity, I would 
say there is absolutely no rule of law in Venezuela.
    Senator Rubio. So formally on paper and institutionally, 
Venezuela has a democratic form of government. In how it is 
being governed today, it is no longer being governed as a 
democracy.
    Mr. Canton. Correct.
    Senator Rubio. And then, Mr. Farah, I wanted to talk to you 
about the national security aspects of this. Actually before I 
go to you, let me just finish this with Mr. Canton.
    I know you did not get to it or could not get to it in your 
written statement because of the limited amount of time. Can 
you briefly describe, as you wrote in your testimony, the 
conditions that Leopoldo Lopez now faces in captivity?
    Mr. Canton. Everybody in jail in Venezuela is in a very 
serious situation and very grave situation on personal 
integrity and right to life.
    Senator Rubio. Is he in solitary confinement?
    Mr. Canton. He is in solitary confinement. And only a few 
weeks ago, there was an attempt to get into his cell by a gang 
of thugs in the prison. Nothing, fortunately, happened. I spoke 
with Leopoldo's mother only a week ago. He is in okay 
condition, but being in a jail in Venezuela, everybody, and 
particularly Leopoldo Lopez, your life is at risk.
    Senator Rubio. Is he allowed visits from his family on a 
regular basis?
    Mr. Canton. Not on a very regular basis. His mother can 
visit him once in a while, as well as his wife, but it is not 
very regular.
    Senator Rubio. Mr. Farah, I wanted to talk about the 
national security components. First of all, I think it is 
important at the outset to point to something that you did, and 
that is that throughout the 1970s until 1993, Argentina had a 
robust nuclear relationship with Iran and the current Iranian 
reactors were retrofitted and upgraded with Argentine nuclear 
technology. That is accurate.
    Mr. Farah. Yes, sir.
    Senator Rubio. Can you describe the nexus that exists today 
in your mind between Argentina, Iran, and Venezuela?
    Mr. Farah. Well, I think that Iran desperately wants to get 
its nuclear program up and running, and until the 1994 AMIA 
bombing, there was a very close exchange program between 
Iranian scientists and Argentinean scientists, et cetera. 
Prosecutor Nisman identified the cutting off of that 
relationship under U.S. and European pressure in 1993 as the 
trigger factor that set off the AMIA bombing in Buenos Aires in 
1994.
    So when Iran needed to get back in the game or wanted 
desperately to get back in the game, they approached Venezuela, 
Hugo Chavez specifically, with Nestor Kirchner, Cristina's 
husband and predecessor, to begin opening the dialogue. As the 
recent Veja investigation shows, President Chavez said 
immediately, yes, let me do this, get on it.
    Nestor Kirchner was not particularly interested. In 2009, 
with Cristina they revisited it, and there was a steady flow or 
there has been a steady flow of Argentine scientists, nuclear 
folks, going to Venezuela. My understanding, from talking to 
people very familiar with Argentina's nuclear program, is that 
Iran has been interested in trying to recruit the entire team 
of scientists. They do not ones or twos. They want an entire 
team. And they are simply not willing to go. So that has not 
happened yet.
    But I think Venezuela was the necessary bridge to bring the 
Kirchner government into contact with Iran, and then you had 
the whole ongoing scandal with the memorandum of understanding 
and other things that happened in Argentina as a result of that 
growing closeness. And ultimately you have Prosecutor Nisman's 
accusation that the President Kirchner and her Foreign Minister 
and others had illegally agreed with Iran to get the Interpol 
red notices dropped against senior Iranian officials in 
exchange for oil, et cetera. And you end up with Prosecutor 
Nisman dead.
    But I think that in that entire process, the main 
interlocutor, the bridge between Iran and Argentina, has been 
and was very active was Venezuela, particularly President 
Chavez while he was alive, and ongoing with President Maduro.
    Senator Rubio. Okay. So we have established that there is a 
nexus there.
    Let me ask you about this group called the FARC, which is 
largely operational within Colombia. This is a drug 
trafficking, narcoguerilla group currently engaged in peace 
negotiations with the Colombian Government. But they do things 
like extortion and kidnapping and bombings and so forth, in 
addition to their narcotrafficking activities. Correct?
    Mr. Farah. Yes, sir. They are one of three organizations 
that is both designated as a major drug trafficking 
organization and a terrorist organization by the U.S. 
Government.
    Senator Rubio. So the FARC is treated by the United States 
Government as both a terrorist organization and a 
narcotrafficking organization. Do they not have a presence in 
Venezuela today, and if so, what is the nature of it?
    Mr. Farah. They have a significant presence. I think 
captured FARC documents beginning in 2008 with the death of 
Raul Reyes, the FARC commander who was killed in Ecuador--we 
got about 600 gigabytes of data for the first time on the 
internal FARC communications. And what was shocking in that--I 
worked with both the Colombian Government and others on 
analyzing a chunk of those documents. And what was really eye-
opening was the intense level of senior contact between the 
FARC Secretariat, the General Secretariat, and not only 
President Chavez directly but his entire Cabinet including 
Diosdado Cabello, Maduro, and all the others who are still 
there and the very intense relationship at the same level with 
the Ecuadorian Government of Rafael Correa. Those were the two 
sort of really significant findings.
    But you see there the Venezuelan Government not only gave 
them shelter, it offered to set up joint businesses with them. 
It helped finance many of their activities. It carried their 
political water for them as far as trying to set up these 
different front groups. It hosted their main front group, which 
is the Bolivarian--the CCB, Coordinadora Continental 
Bolivariana. And the founding documents are in the FARC 
documents that were captured where the FARC complains that no 
one knows that this front group is a FARC group, but they 
describe how it was founded in the basement of the Presidential 
palace with President Chavez personally present.
    So it is a very, very organic link that goes to the highest 
levels, and there is nothing nonstate about that relationship. 
The FARC is viewed much like Iran views Hezbollah, as a matter 
of state policy, as a nonstate actor that responds directly to 
them.
    Senator Rubio. What about the links between Venezuela and 
Hezbollah?
    Mr. Farah. I think that you have seen over time something 
that was initially largely dismissed, thanks to the Drug 
Enforcement Administration and the cases that have become 
public over the last few years. You see very, very tight links. 
You have Imad Muginyah and other very specific cases where the 
Hezbollah operatives were buying cocaine from the FARC, and 
much of that money is ending up back in places like the 
Lebanese Canadian Bank that have since been closed because that 
money was detected.
    And it is often not as direct a link as people I discuss 
with in the policy world would like to see, but the money in my 
mind--they say, well, are they card-carrying Hezbollah people 
that are buying the cocaine? Who cares? The money ends up in 
Hezbollah in accounts back in Lebanon. Does it really matter 
whether the person who brokered that deal with the FARC has an 
ID card that says ``FARC'' or whether he is sympathetic enough 
to move that money back to Hezbollah? In my mind there is no 
distinction necessary there. But it becomes a very intense 
policy debate within this administration over what constitutes 
Hezbollah. My argument is that you simply need to look where 
the money ends up and who benefited from it, and it does not 
matter who the intermediaries were, identified specifically as 
that group.
    Senator Rubio. And my last question is about the state-
owned company, PDVSA, Petroleos de Venezuela. How does the 
Venezuelan Government under the Maduro regime use PDVSA as the 
source of influence, activity, laundering, et cetera? How is 
that entity used both in the region and around the world?
    Mr. Farah. Well, I think the Bank of Andorra findings are 
extraordinarily important because I have been hearing for the 
last 3 or 4 years that Andorra was where PDVSA siphoned its 
money into. They have incredibly tough bank secrecy laws, and 
nothing had come out for a significant period of time.
    I think that PDVSA has become sort of the piggybank that no 
longer has much cash in it. But what you see is an architecture 
created around the region, particularly with Maduro's allies in 
Nicaragua, Daniel Ortega, and Salvador Sanchez Ceren, and the 
remnants of the Communist Party in El Salvador, where you have 
architectures built up in which no oil is actually moved, but 
which they use to launder hundreds of millions of dollars a 
year. And simply looking at the financials of those companies, 
they are absurd. There are almost no legal imports coming in.
    For example, ALBA Petroleos in El Salvador began with $1 
million as this joint state enterprise with PDVSA owning 60 
percent of the company and ALBA Petroleos owning 40. They had 
$1 million in 2007. Their earnings statement for 2013 was $863 
million with no visible legitimate imports. That is a rather 
significant increase in your earnings. Daniel Ortega has said 
publicly that he gets $500 million a year from PDVSA 
essentially as a personal slush fund. And they set up with that 
an architecture which allows the FARC, the Sinaloa Cartel, 
Hezbollah, many other groups to launder money through the 
architecture that PDVSA has established.
    Senator Rubio. Let me just ask you one more, and I alluded 
to this earlier, a law enforcement report about the use of 
shipments from Venezuela to Syria to send bulk cash, both cash 
raised from the Arab expatriate community but also cash 
collected through trafficking of drugs and exacting bribes from 
drug traffickers and that money being sent to Assad. Are you 
aware of that report? Are you aware of those allegations? And 
if not, would that surprise you knowing the nature of the 
regime?
    Mr. Farah. I have heard the allegations. I have not seen 
documentation on it. I think that given the fact that when 
Chavez was most active in his direct engagement with Iran, the 
direct flight they set up went from Caracas to Damascus to 
Tehran back to Caracas, it is clear that there is a very strong 
link. If you look at the literature, Chavez had a very robust 
relationship with Assad. That has not changed. Maduro does not 
have the money, but clearly he is carrying on the same 
commitments that Chavez entered into. And I think that we have 
seen numerous cases of massive amounts of bulk cash being 
shipped back usually on Iranian ships which are untraceable 
once they get to Iran, and that some of that money would end up 
with Assad is not remotely----
    Senator Rubio. Is there still a direct flight between 
Caracas and Tehran?
    Mr. Farah. No, sir. That ended in 2011.
    Senator Rubio. So my last question--and I do not know who 
to direct this to, but any of you feel free to answer. I asked 
at the end of the last panel about Cuba's influence in 
Venezuela or its presence in Venezuela. And while I was able to 
get admission that there is an outsized influence, I could not 
get them to admit that the Cubans were actually involved in 
directing or helping the Venezuelan regime, the Maduro regime, 
oppress their own people.
    So let me just ask all of you to comment on both the size, 
the scope of the Cuban presence in Venezuela. I hear from 
Venezuelans that are traveling back and others that it is an 
extraordinary presence, that you cannot miss it. And secondly, 
the nature of that to the extent you are able to comment. I 
guess, Dr. Sabatini, if you have anything to add to that.
    Dr. Sabatini. I will start first. It is real. And I am 
going to tell perhaps an anecdote which illustrates it. I have 
a regular annual dinner with Cubans in the U.N. mission who, as 
we all know, are spies. And one time I was sort of chiding them 
a little bit, saying it must be difficult to be a client-state 
of Venezuela because they are so incompetent. They, of course, 
took umbrage at being called a ``client-state,'' and they 
pushed back. And I said, but yes, they cannot manage it. You 
guys are real professionals. You are good spies. You do things 
very well. And there was a long pause, and finally literally 
they said, yes, but we are training them, which I think is 
precisely the point.
    They are training. They are deeply embedded in the 
intelligence services. They are deeply embedded in the foreign 
ministry. I love that they often talk about they are sharing 
sports trainers. I do not know what sports trainers are, but 
clearly that is a euphemism for something else that is there.
    Of course, they also have the medical doctors which, by the 
way, helps underwrite the Cuban pharmaceutical industry. When I 
was recently on a trip to Cuba, something I had never thought 
of, is the doctors that are being sent to Venezuela are writing 
prescriptions for Cuban drugs that are then shipped. So it sort 
of also benefits the pharmaceutical industry in Cuba.
    It is real, and as I say, I have a firsthand account that 
they are there to train and they are there to advise.
    Mr. Canton. I agree it is real. In the particular case of 
the Inter-American System of Human Rights, the information I 
had when I was at the Inter-American Commission of Human rights 
was that all the movement of Venezuela to withdraw from the 
Inter-American System of Human Rights was orchestrated by Cuba. 
And over the last 2 years, as you know, Venezuela left the 
Inter-American System for the Protection of Human Rights, and 
that was because Cuba initiated all the process.
    Mr. Farah. I would just add one thing. I agree with both of 
my colleagues. One of the things that the Cubans were brought 
in to do--and you see it not only in Venezuela but certainly in 
Bolivia and Ecuador, perhaps more pronounced because they are 
smaller societies--is that in those countries--and I grew up in 
Bolivia-- 
if you were someone of stature and you got arrested, you had a 
social network that would get you out of prison. I never 
worried during the military dictatorships in Bolivia. If I was 
picked up--I was going to school with the sons of colonels--
there was a social network that would get those people out.
    The Cubans were brought in to break that social network. 
They do not care who your uncle went to school with. They do 
not care who you went to class with. They do not care about any 
of that. And that has facilitated in all three of these 
countries the ability to throw people like Leopoldo Lopez in 
prison with no social network that can mobilize to get them 
out. The Cubans were brought in to essentially slice through 
those existing sort of safety net cords that had survived 
through the dictatorships and helped a lot of people get 
sanctuary because they are beholden to no one and they know it 
and they can just tell you to walk away and that is it. So it 
is a very important function they play besides, as was pointed 
out, being incredibly active at the very senior levels.
    Senator Rubio. Well, I guess I ask all these questions 
because while a lot of people were taken aback by the language 
of the President's announcement last week that Venezuela poses 
a national security threat, perhaps a better way to have 
phrased it--and I understand they are constrained by 
bureaucratic necessities, but--is not that Venezuela poses a 
threat per se. The people of Venezuela have no animosity toward 
the United States, at least the vast majority, the enormous and 
overwhelming majority, and certainly do not pose a threat to 
the country.
    But the Maduro regime, as has been described here today, is 
an anti-American one, is a serial human rights violator, is one 
that governs undemocratically. It is one that is helping--has 
and may continue to be helping Iran try to evade international 
sanctions and advance its nuclear program. It is one that is 
involved aiding both a terrorist and narco group called the 
FARC by giving them safe haven and support within their own 
territory. It is one that is involved, by the way, in openly 
providing safe passage for drug traffickers for drugs that are 
ultimately destined for the United States. It is one that 
actively supports financially Hezbollah, and it is one that 
uses its state-owned enterprise to foment and support anti-
American governments in the region. And last by not least, it 
is one that is completely infected by a foreign government that 
has flooded it with sports trainers or, as they are more 
accurately known, spies and agents of repression that allow it 
to crack down on its own people and also further the interests 
of that country over that of the people of Venezuela.
    That sounds like the Maduro regime is not an insignificant 
threat to the national security of the United States when you 
view it in this context. This is not just a nation that is 
failing economically because of incompetent leaders, and it is 
certainly that. But it is also one in the grips of a regime 
that actively supports global terrorism, that actively supports 
one of the most dangerous developments of the last 20 years, 
which is Iran's nuclear ambition, that actively supports a 
group that is both a narcoterrorism group and also just a flat-
out terrorist group. It is one that represses its own people 
brutally with the assistance of the Cuban Government.
    This does not sound to me like something that should be 
taken lightly despite the fact that it does not receive the 
attention it deserves. It does sound like not Venezuela, but 
the Maduro regime poses a real national security risk not just 
to the United States but to the region.
    Would anyone disagree with that assessment or elaborate on 
it?
    Mr. Canton. I agree. But the issue is how to address that 
problem. And I believe it is better if the United States acts 
together with the other countries of the region, with the OAS, 
with UNASUR, not being alone. I am in agreement--we were 
discussing with Chris this before. I am in agreement with the 
sanctions, but it is important for the United States to have 
very active diplomacy with the OAS and UNASUR.
    Over the next few months, there are very important issues 
happening in the region. There is a new change of the Secretary 
General of the OAS. The last Secretary General, Jose Miguel 
Insulza, failed during 10 years, his tenure at the OAS, at the 
same time of the destruction of democracy in Venezuela. There 
is the Summit of the Americas in just a couple of weeks, and 
there is the election internally in Venezuela.
    So I think it is important for the United States to work 
together with the other countries of the region. I know it is 
not easy. I know it is not the best timing, but it is the best 
way to approach the situation in Venezuela.
    Senator Rubio. And, Mr. Canton, I would not disagree. I 
would love nothing more than to see the nations of the region 
condemn what is happening in Venezuela. I would love to see 
nothing more than at least one country, at least one, come 
forward and say what is going on in Venezuela is outrageous and 
as a neighboring country, we are outraged by it. The problem is 
that we have not seen any of that occur, and in the interim 
U.S. national security is at stake.
    In fact, as Senator Menendez pointed earlier, about a year 
ago, the administration did not want to do sanctions because 
they wanted to give time for his UNASUR process to work. And 
the problem with that process, of course, was that they went in 
and basically treated both sides as moral equals when they were 
not. One side was unarmed civilians protesting conditions in 
Venezuela, and the other side were armed with sticks and clubs 
and guns and were beating them. And they also happened to have 
the power of government on their side.
    So while I agree with you and I share with you the hope 
that we would be joined by other nations, recent history does 
not hold much hope that that is going to happen. And I think it 
is to the great shame of the nations in this hemisphere who 
stand by silently and are watching this happen.
    Anyone else care to elaborate on my statement?
    Mr. Farah. I would fully agree. I wrote a paper that the 
Army War College published in 2012 saying that the criminalized 
states of Latin America should be considered a Tier 1 national 
security threat. And I think that that has been--because not 
only, as I said in my testimony, is it Venezuela, it is a 
network of countries now acting in concert with extra-regional 
actors with the primary unifying factor in all of their 
ideologies is a hatred for the United States and a firm belief 
in their public doctrine that the use of WMD against the United 
States is acceptable military doctrine and necessary military 
doctrine. I think because we do not take people seriously when 
they tell us what they want to do, that that is a serious 
oversight on our part, and that as they move forward, that 
strategic goal on their end has not changed.
    Dr. Sabatini. I will just add quickly I agree with you. And 
for so long, this administration, which I support, has first 
talked about the new era of partnership in the hemisphere. The 
truth is partners do not treat partners like Brazil and others 
are treating us. They do not denounce--perhaps inflammatory 
language but an action that, in fact, they embraced only a few 
years earlier when it came to Honduras. I think we need to find 
who our allies are in the region and work with them carefully 
to find a comfort zone where they can start to engage in this 
because, I agree with you, Venezuela is a national security 
threat probably more to the region than it is the United 
States, which makes it all the ironic that they are the ones 
who are criticizing us for saying it.
    Senator Rubio. Well, I appreciate your insights today. I 
think, if anything, this hearing I hope will remind my 
colleagues and the American people about what we are facing in 
our own hemisphere. Number one is just an astronomical level of 
human rights abuses and an erosion of democracy which, by the 
way, is not only contained to Venezuela. You find that erosion 
of democracy in Bolivia and in Ecuador and in Nicaragua and 
certainly the total absence of it in Cuba. It is one of those 
startling new developments we have seen after 20 years of 
democratic progress where people come to power through an 
election and then immediately undermine all of the institutions 
necessary for a vibrant democracy. It is one we have ignored 
for far too long.
    The second point is I hope people realize that in our own 
hemisphere there is a regime that is actively supporting and 
profiting from the trafficking of drugs that ultimately wind up 
in our streets, that is actively supporting, openly supporting 
elements that are both narcoterrorists but also just flat-out 
terrorists who have killed and maimed not just people in this 
region but oftentimes Americans, that in this region, there is 
a regime that is an active supporter of Iran's nuclear 
ambitions, that in this region, there is a regime surrounded by 
a level of enablers and cronies who steal all this money from 
the Venezuelan people, who benefit from access to power in 
Venezuela, and then spend weekends and holidays parading up and 
down the streets of Miami enjoying their ill-found gains.
    So that is why I am supportive of the bill we passed last 
year and supportive of the President's decisions. And I hope 
people realize that all the problems of the world are not in 
the Middle East. All problems of the world are not only in Asia 
or in Europe. There are real and significant problems in our 
own hemisphere that impact life in America.
    And the last point I hope people will take away from today 
is that we believe that the future of Venezuela belongs to the 
people of Venezuela. In a perfect and ideal world, the world 
that we are pushing toward, the Venezuelan people through the 
ballot box will replace these leaders with ones of their own 
choosing, which will help Venezuela fulfill its destiny as a 
prosperous, peaceful, and free country. That is not the 
direction it is headed in today.
    And while we cannot mandate the conditions in Venezuela, 
nor should we try and that is not our intention to do so, we 
certainly should lift our voice anytime human rights are being 
violated, especially in such a grotesque manner, and we will 
certainly condemn those who are benefiting and profiting from 
these abuses and then coming to our own shores to enjoy those 
benefits from the money they have stolen from their own people.
    And last but not least, we cannot ignore, despite the 
recent opening, the Cuban influence in Venezuela and the role 
that they are playing. Nicolas Maduro recently said that the 
United States was planning to invade Venezuela, which anyone 
familiar with United States policy just knows how absurd it is 
and how ridiculous a statement that is. But I would say to you 
that there is an invasion going on in Venezuela and it is an 
invasion of Cubans--of Cuban agents and Cuban Government 
officials--that have infiltrated the highest levels of its 
government who provide personal protection to Nicolas Maduro 
and Chavez before him, who control the official documents of 
the government, who are training their sports department better 
known as their repressive regime. And these things are 
happening as well and it should give us insight into the true 
nature of the Cuban Government.
    With that, again, I appreciate you being here today, your 
insights, the work that went into your statements.
    The record is going to remain open until the close of 
business on Thursday, March 19, for any future submissions. You 
may receive questions from other members, and I would encourage 
you to answer those so we can get them officially in the 
record.
    And with that, this hearing is adjourned.
    [Whereupon, at 12:43 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Written Statement of Maria Eugenia Tovar, a Venezuelan Citizen, 
                    Submitted by Senator Marco Rubio

    Honorable Senators, my name is Maria Eugenia Tovar, Venezuelan 
citizen in the process of obtaining political asylum in this country 
because of the political persecution I suffered in Venezuela due to 
what happened to my daughter, Genesis Carmona Tovar, who was murdered 
in the city of Valencia, Carabobo State, Venezuela, by a gunshot to the 
head on February 18, 2014, while we were participating in a pacific 
protest. I would like to respectfully greet you, and to thank the 
United States Congress, for being able to pass the law, Venezuela 
Defense of Human Rights and Civil Society Act of 2014, sanctioning 
those who violated the human rights of the pacific demonstrators in 
Venezuela last February.
    I respectfully ask the committee to process the inclusion of those 
who murdered Genesis Carmona Tovar, into the list of people sanctioned 
for ordering and doing these horrific crimes. This crime still goes 
unpunished.
    On February 18 of 2014, I, Maria Eugenia Tovar, along with my 
children, Christian Carmona Tovar, who is 15 years old; Alejandra 
Carmona Tovar, 19 years old; and Genesis Carmona Tovar, 22 years old, 
were participating in the pacific demonstration in the Cedeno Avenue in 
the city of Valencia, Carabobo State, when we were caught by surprise 
by armed groups known as ``Los Colectivos,'' who shot us, murdering my 
daughter, Genesis.
    One of the people responsible of such a vile and despicable act is 
the governor of Carabobo State, Francisco Ameliach, who in his Twitter 
account, @ameliachpsuv, the day before Genesis was shot dead, wrote 
calling all members of the Unit of the Bolivar-Chavez Battle (UBCH) to 
prepare the ``immediate counterattack" against the ``fascists.''
    Besides Ameliach, members of the UBCH are also responsible. They 
are led by Samuel Martinez Garcia, bearer of the ID number 17,824,120, 
Coordinator of the ``Juventud Partido Socialista Unido de Venezuela 
(Youth of the United Socialist Party of Venezuela), who lives in the 
2nd Street, house number 2,neighborhood Guanabanillo, in the 
municipality of Juan Jose Mora, Carabobo State; and Juan Jose Maza 
Seijas, ID Number 19,425,960, leader of the oganization ``Juventud del 
PSUV'' (PSUV Youth) of Carabobo State, and a public official that works 
in the Ministry of Youth.
    With an arrest warrant, only Juan Jose Maza Seijas appeared before 
a judge, once he got captured while he was staying in his residence. 
The district attorneys 44th and 146th of the Metropolitan Area of 
Caracas (AMC), Ruben Perez and Yackeline Mata, respectively, ratified 
the accusation against Maza Seijas due to his complicity in the felony 
of intentional homicide characterized with malice aforethought and 
ignoble motives, as well as his association to commit a crime.
    The preliminary hearing was held in the Trial Court 36th of Control 
of the AMC, which admitted the introduction of the charges from the 
prosecutors, and ordered the trial of the Maza Seijas case, agreeing on 
an interim measure of a consistent presentation every 15 days before 
said judicial instance, requested by the above mentioned district 
attorneys and agreed on by the judge of the case.
    However, the prosecutors, as well as the judge of this case acted 
by omission, leaving this case to go judicially unpunished. The duties 
of the prosecutors Perez and Mata were not held in accordance to their 
duty as guarantors of the due process; they did not continue with the 
judicial investigation to identify the hooded armed men that murdered 
Genesis Carmona; and considering the extent of such an aberrant crime, 
they should not have requested an interim measure to the judge. As 
prosecutors, they should have continued the process to make Samuel 
Martinez appear before the judge, but they did not do it. The judge, 
also, should have denied the interim measure, and do the necessary 
procedures, but he did not do it either.
    Therefore, the prosecutors Ruben Perez and Yackeline Mata, as well 
as the judge of this case, should be held responsible for the impunity 
of the murder of Genesis Carmona, especially since Martinez and Maza 
still have their jobs at the Mayor's office, and they are enjoying full 
freedom.
    In the following videos, it can be seen both men, who allowed 
themselves to be thoroughly identified in it, unhooded, and giving 
orders to hooded men to shoot and murder my daughter, Genesis Carmona 
Tovar:

    www.youtube.com/watch?v=Humx3BvFQjo
    www.youtube.com/watch?v=zX9Bx7iYzyU
    www.youtube.com/watch?v=EOdDPTiriyM

    Samuel Martinez Garcia, who appears in the video with long hair, 
and Jose Maza Seijas coordinate and manage the violent groups, the 
armed ``Colectivos," whom have been dedicated to suppress the protests 
in Valencia.
    Also, in the video the mayor, Maxum Caldera, and Guilmer Benitez 
were identified but never investigated. In that same event, 8 people 
were wounded.
    I would like to mention Hector Breiia, Coordinator of Economic 
matters of the Governor's Office of the State of Carabobo and one of 
the most loyal for the dirty jobs of Governor Ameliach, who is another 
one of the leaders of the Collectives in Valencia and also he dedicates 
himself to persecute, threaten, track communications and order the 
monitoring of the opposition people he threatens with death. Mr. Breiia 
spent the December holidays of 2014 in the city of New York.
    This case can be found, nowadays, in the Criminal Appellate 
Division of the Supreme Court of Justice (TSJ), where still nothing has 
happened.
    Finding ourselves in the District of Senator Marco Rubio, and he 
being the person who represents us before the Senate, and knows this 
case thoroughly, we feel deeply grateful because he raised his voice 
before the corresponding bodies. We beg for you to follow up on this 
case, and help us bring it to justice, since in Venezuela this is not 
possible.
    We are deeply grateful for having fulfilled the mission of passing 
the Venezuela Defense of Human Rights and Civil Society Act of 2014. 
Now, we are counting on your support so the Department of State can 
continue with the implementation and execution of this law, finding the 
culprits, and sanctioning them as violators of human rights.
    We are absolutely certain that with the sanctions achieved by 
Congress all those guilty of the murder of Genesis Carmona will be 
sanctioned. And even though it does not fix the loss of her life, it 
would comfort us, the family members that hold the ideals of peace and 
justice.
                                 ______
                                 

                  Responses of Alex Lee to Questions 
                    Submitted by Senator Marco Rubio

    Question. Mr. Lee, during this committee's last hearing on 
Venezuela in May 2014, Assistant Secretary Roberta Jacobson stated that 
``We do think that right now they (sanctions) would be 
counterproductive, that they would enable the Venezuelan Government to 
go back to that sort of victim mentality of using us. But there may 
well come a time at some point in the future when they would be useful 
if there has not been movement at the table.''

  <diamond> What has changed in Venezuela in the last 10 months that 
        has made the administration feel now is the right time for 
        targeted sanctions? Why did it take so long?
  <diamond> What process did the administration use in picking who 
        would be targeted for sanctions?
  <diamond> Why are only seven names on the list?
  <diamond> Are there additional members of the Venezuela Government 
        who will be targeted in the future?

    Answer. Over the course of the last year, we have taken several 
steps in response to human rights concerns in Venezuela. On July 30, 
2014, and again on February 2, 2015, the Department imposed visa 
restrictions on certain Venezuelans believed to be responsible for, or 
complicit in, human rights abuses and undermining democratic 
governance. Certain family members of such individuals were also 
affected by these actions.
    The Secretary of State took these steps pursuant to Section 
212(a)(3)(C) of the Immigration and Nationality Act.
    On March 9, 2015, the President issued an Executive order imposing 
sanctions on seven designated individuals and authorizing the Secretary 
of the Treasury to impose sanctions on additional individuals and 
entities, in part to implement the Venezuela Defense of Human Rights 
and Civil Society Act of 2014 (the ``Act''). The interagency culled 
through various public and nonpublic sources to identify candidates 
that meet the criteria provided for in the Executive order. These names 
were thoroughly vetted by the interagency.
    When considering targeted measures, including visa restrictions or 
asset blocking, we routinely take into account a variety of factors 
including the particular facts of each case, the overall political 
context, law enforcement considerations, and consultations with our 
regional partners. We do not take such actions precipitously or without 
serious deliberation and they are always done consistent with relevant 
applicable laws or regulations.
    We will continue our investigations pursuant to the authorities 
established by the Act and the President's Executive order and we stand 
prepared to take action against others, where appropriate, as we assess 
additional information.
    Every situation is unique; our actions must be guided by the 
approach most likely to succeed in advancing respect for democracy and 
human rights for the benefit of the Venezuelan people.

    Question. Recently, Venezuela has requested that the United States 
Embassy reduce its diplomatic staff to 17, to match their staff numbers 
in the Venezuelan Embassy in Washington.

  <diamond> How many diplomatic personal does Venezuela have registered 
        in the United States? (Consulate and Embassy)
  <diamond> What is the latest development regarding Venezuela's 
        request for the United States to develop a plan to downsize the 
        U.S. Embassy to a staff of 17?
  <diamond> What would be the impact of such a staff reduction on U.S. 
        interests in Venezuela and services provided by the Embassy?
  <diamond> What type of response is the State Department considering 
        for Venezuela's diplomatic representation in the United States?

    Answer. According to State Department records, Venezuela has 74 
individuals accredited and/or registered with its Embassy and eight 
Consulates. On March 16, we sent a diplomatic note to the Venezuelan 
Government that extended an offer to send a team of technical experts 
to discuss the size of both our missions. We have not yet received a 
response. The size of the Venezuelan mission to the United States will 
be an important part of those discussions.
    We have made clear to the Venezuelans that they need to comply with 
their international obligations to protect diplomats. Under the Vienna 
Convention on Diplomatic Relations, Venezuela committed to take steps 
to protect our diplomatic mission and our personnel at the mission, and 
the Department has made clear, and will continue to insist, that 
Venezuela provide such protection as the host government.
    A top priority for us remains the ability to ensure the welfare of 
American citizens in Venezuela. We will work to ensure the Embassy can 
continue to provide that assistance. Further, we have advised the 
Venezuelan Government that a reduction in our staff could negatively 
affect our ability to meet the demand for U.S. visas in Venezuela. It 
could also impact our public outreach efforts and the size and scope of 
cultural and educational exchanges.

    Question. The ``Anti-Imperialist Enabling Law'' was passed by the 
Venezuelan Legislature on Sunday and gives President Nicolas Maduro the 
ability to enact laws without congressional authorization through the 
rest of this year.

  <diamond> With the passage of the ``Anti-Imperialist Enabling Law,'' 
        is President Nicolas Maduro now essentially Dictator Nicolas 
        Maduro?
  <diamond> Are there any checks on Maduro's power? Anything to prevent 
        him from beginning mass arrest of opposition leaders?
  <diamond> Has there been any outcry from the international community 
        about the gross injustice to the democratic process in that has 
        just occurred?
  <diamond> Has any South American country called out for a return to 
        democratic process?

    Answer. We are concerned by the weakening of democratic 
institutions in Venezuela and have called for a clear separation of 
powers. Political interference in both the legislature and the judicial 
branch has undermined the ability of those institutions to provide a 
significant check on the Executive. There is a process in the 
Venezuelan Constitution for Venezuela's National Assembly to grant a 
Venezuelan President the power to rule by decree.
    As underscored in the Inter-American Democratic Charter, which all 
democracies of the region have committed to uphold, the separation of 
powers and the independence of the branches of government are essential 
elements of representative democracy. An independent legislature has an 
essential role to play in the political system in order to meet the 
principles laid out in the Charter.
    This year's National Assembly elections present an opportunity for 
Venezuelans to engage in legitimate, democratic discourse. Transparent 
election processes and credible election results could also reduce 
tensions in the country. We have urged regional partners to encourage 
Venezuela to accept a robust international electoral observation 
mission, using accepted international standards, for those elections. 
Now is the time for the region to cooperate and help Venezuela work 
toward a democratic and inclusive solution to the challenges it faces. 
We will also continue to work closely with others in the region to 
support greater political expression in Venezuela, and to encourage the 
Venezuelan Government to live up to its commitments to democracy and 
human rights, as articulated in the OAS Charter, the Inter American 
Democratic Charter, and other relevant instruments.
    Foreign Ministers from the Union of South American Nations (UNASUR) 
released a March 14 statement announcing support for the upcoming 
parliamentary elections, the importance of the maintenance of the 
constitutional order, as well as democracy and the full expression of 
all human rights.

    Question. To what extent is there genuine independence between the 
Venezuelan executive, legislative, and judiciary powers?

    Answer. In Venezuela today, there is an increasingly authoritarian 
Executive exercising significant control over the legislative, 
judicial, and electoral branches of government as well as the human 
rights ombudsman.
    As underscored in the Inter-American Democratic Charter, which all 
democracies of the region have committed to uphold, the separation of 
powers and the independence of the branches of government are essential 
elements of representative democracy. We will continue to work closely 
with others in the region to support greater political expression in 
Venezuela and to encourage the Venezuelan Government to live up to its 
required commitments to democracy and human rights, as articulated in 
the OAS Charter, the Inter American Democratic Charter, and other 
relevant instruments.

    Question. Is Venezuela a democracy today?

    Answer. Venezuela is formally a multiparty constitutional republic, 
but unfortunately, in recent years, political power has been 
concentrated in a single party with an increasingly authoritarian 
Executive exercising significant control over the legislative, 
judicial, and electoral branches of government as well as the human 
rights ombudsman. The government's actions have not met its required 
commitments to democracy and human rights, as articulated in the OAS 
Charter, the Inter American Democratic Charter, and other relevant 
instruments.

    Question. Do you agree that financial and visa sanctions could be a 
strong deterrent against further brutality against demonstrators?

  <diamond> If so, why has the administration been so slow to deploy 
        these tools as a deterrent?

    Answer. Our efforts to sanction the individuals listed in the annex 
to the March 9 Executive order, and cut them off from the U.S. 
financial system, exposes their objectionable behavior. We hope this 
increased pressure will prompt authority figures to change their ways 
or face further isolation from the international community.
    In addition, the United States is sending a clear message that it 
does not welcome money or travel of those who may be involved in human 
rights violations and abuses, undermining democratic governance, or 
engaging in public corruption.
    The Department has stated in the past that a balanced approach 
toward targeted measures, including visa restrictions or asset 
blocking, must account for a variety of factors such as the overall 
political context, law enforcement considerations, and consultations 
with our regional partners. With that in mind, the Department first 
took steps to impose visa restrictions for certain Venezuelans believed 
to be responsible for, or complicit in, human rights abuses and 
undermining democratic governance, including public corruption on July 
30, 2014, and again February 2, 2015. Certain family members of such 
individuals may also be affected by these actions.
    Any sanctions efforts should be seen as a tool in the context of a 
broader diplomatic strategy that must include working with allies in 
the region, those defending democracy within countries, and partners 
outside the region as well as multilateral organizations.

    Question. How many Active Duty military officers lead civilian 
agencies in the Government of Venezuela?

    Answer. Currently, five out of Venezuela's 28 ministries are headed 
up by active military personnel, by our estimate. These military 
officers lead the ministries of the Presidency (Admiral Carmen Melendez 
Rivas); defense (General Vladimir Padrino Lopez); economy and finance 
(Brigadier General Rodolfo Clemente Marco Torres); interior, justice, 
and peace (Major General Gustavo Gonzalez Lopez); and aquatic and 
aerial transport (Mayor General Giuseppe Yoffreda). In his last 
Cabinet, President Hugo Chavez only had three active military officers, 
including the Defense Minister, although in some of his previous 
Cabinets, Chavez had as many as seven Active-Duty ministers.
    President Nicolas Maduro has also appointed Active-Duty military 
officers to lead the National Police (General Manuel Eduardo Perez 
Urdaneta) and the state-run supermarket cooperatives, Mercal 
(Lieutenant Coronel Tito Gomez) and Abastos Bicentenarios (Major 
Anderson Medina). In addition to being Minister of Interior, Justice 
and Peace, Major General Gustavo Gonzalez Lopez also serves as the 
director general of the Bolivarian National Intelligence Service 
(SEBIN).

    Question. How does that number [of Active-Duty military officers 
leading civilian agencies] compare to other countries in the Western 
Hemisphere?

    Answer. Venezuela has one of the highest rates of Active-Duty 
military officers in civilian cabinet positions, according to our 
estimates. Most other countries in the region--with the exception of 
Cuba--have all civilian cabinets or only have military officers heading 
the Ministry of Defense or defense-related agencies.

    Question. Does the Venezuelan military pose a threat to peace and 
the return of democracy in Venezuela?

    Answer. Elected civilian authorities' decisions have led to the 
significant economic, social, and political challenges in Venezuela. We 
believe the long-term solution in Venezuela will require meaningful 
dialogue among Venezuelans that yields concrete results and this year's 
National Assembly elections are an important part of that process. In 
general, we believe civilian leadership should handle the civilian 
functions of a government along with overseeing a nation's military.

    Question. Would you agree that, in Congress passing the ``Venezuela 
Defense of Human Rights and Civil Society Act of 2014'' (113-278) and 
in the President of the United States signing and implementing this law 
the United States acted entirely within its sovereign right to protect 
the integrity of its financial system and national security?

    Answer. Yes, the United States, like all states, can decide who may 
use its financial system or enter its territory. Executive Order 13692 
and the Venezuela Defense of Human Rights and Civil Society Act of 2014 
embodied this decision by the United States in relation to individuals 
that meet the criteria for sanctions under those authorities. The visa 
restrictions and asset blocking against individuals who meet the 
criteria in the Executive order signaled that those Venezuelans who 
violate or abuse human rights or undermine democracy are not welcome in 
the United States, nor are they allowed to use our financial system. 
These actions made clear the U.S. Government's concerns about the 
erosion of human rights and democracy in Venezuela.

    Question. Would you say that it is hypocritical for the United 
States to be criticized for acting within its sovereign rights while 
other countries hide behind this principle in order to avoid taking a 
stance regarding human rights in Venezuela?

    Answer. We believe that all actors should focus their efforts on 
promoting democratic dialogue and free and fair elections in Venezuela. 
Other states and international organizations have highlighted the 
importance of democracy in the region and have called for Venezuela to 
respect democracy, human rights, and the rule of law.
    The long list of international actors who have voiced concerns 
about the human rights situation in Venezuela over the past year 
includes the Governments of Colombia, Costa Rica, and Peru; the former 
Presidents of Brazil, Chile, Costa Rica, Mexico, Panama, Peru, and 
Uruguay; as well as respected international bodies such as the United 
Nations Committee against Torture, and the Secretary General of the 
Organization of American States.
    Ultimately, Venezuela's political and economic problems will be 
solved by Venezuelans talking to one another in a climate of respect 
for human rights and democracy, and we should all encourage moves in 
that direction.

    Question. Would you agree that the United States deserves the same 
respect for its sovereignty as other nations in the world, and 
specifically in the Western Hemisphere?

    Answer. Yes.

    Question. I find it hypocritical that the administration has 
supported sanctions in Venezuela but yet relaxed them in Cuba. We have 
seen the influx of Cuban military and state security in repressing 
activists in Venezuela. After Cuba's history of supporting violence in 
Latin America and Africa when it was heavily subsidized by the U.S.S.R.

  <diamond> Does the administration want, by weakening sanctions 
        against the Castro regime, to help that dictatorship spread its 
        repression even more into Venezuela and beyond?

    Answer. The United States imposes sanctions on both countries out 
of concern for human rights. But those sanctions are applied 
differently according to an evolving and unique set of challenges that 
each country presents.
    We constantly reevaluate the implementation of these policies and 
whether we need to change our course. In the case of Venezuela, the new 
sanctions are aimed at persons involved in or responsible for the 
erosion of human rights guarantees, persecution of political opponents, 
curtailment of press freedoms, use of violence and human rights 
violations and abuses in response to antigovernment protests, and 
arbitrary arrest and detention of antigovernment protestors, as well as 
the significant public corruption by senior government officials in 
Venezuela. In the case of Cuba, the new measures allowing for greater 
travel and commerce are intended to support the ability of the Cuban 
people to gain greater control over their own lives and determine their 
country's future.

    Question. According to high-level military defectors from 
Venezuela's Government, there are between 2,700 and 3,000 Cuban 
intelligence agents in the South American nation, embedded in sectors 
such as the military, agriculture, finance, and petroleum refining.

  <diamond> Is this assessment correct?
  <diamond> How many Cuban intelligence agents in Venezuela is the U.S. 
        Government aware of?

    Answer. Cuba and Venezuela have a long-standing and wide-ranging 
partnership. They cooperate in areas ranging from intelligence services 
to medical services. In light of the close ties between the two 
countries, it should come as no surprise that Cubans are involved in 
the military, agriculture, finance, and petroleum refining sectors. 
However, we are not able to comment in a public manner about the 
estimates of the number of Cuban intelligence agents in Venezuela that 
may be provided by Venezuelan defectors or other open sources.

    Question. According to high-level military defectors from 
Venezuela's Government, the Cubans have modernized Venezuela's 
intelligence services, both the Sebin (Bolivarian National Intelligence 
Service) that reports directly to the President, and military 
intelligence. They also set up a special unit to protect Nicolas 
Maduro.

  <diamond> Do you have any reason to doubt this assessment?

    Answer. According to Venezuelan Government-associated media, an 
estimated 40,000 Cuban advisers and aid workers are in Venezuela, 
including doctors, teachers, and Cuban military personnel. While both 
governments have stated that the Cuban presence in Venezuela is limited 
to these areas, we are also aware of reports of Cuban-Venezuelan 
cooperation in the intelligence services. We can provide you a more 
detailed explanation in a classified briefing.

    Question. Last year, former Venezuelan intelligence agents and 
sources with direct access to active officers of the Bolivarian Armed 
Forces told El Nuevo Herald newspaper that Cuba plays a leading role in 
the repression unleashed by Maduro against Venezuelan protesters. The 
Cubans are in charge of operations, which range for security around the 
Presidential palace to the planning of arrests of opponents. These 
Venezuelan sources also told El Nuevo Herald that Cubans have planned 
the operations of between 600 and 1,000 armed men who comprise the 
Chavista paramilitary groups, known as ``colectivos.''

  <diamond> Do you have any reason to doubt this assessment?

    Answer. We are aware of media reports indicating that Cuban 
security and military advisers played a role in activities against 
Venezuelan protesters, including training pro-government vigilante 
groups, which subsequently attacked peaceful protesters during 
demonstrations. However, we have not seen further evidence establishing 
a direct link between Cuban advisers and these acts of violence. We can 
provide you a more detailed explanation in a classified briefing.

    Question. In 2007, Juan Jose Rabilero, head of Cuba's Committees 
for the Defense of the Revolution (CDR) claimed that there were over 
30,000 members of Cuba's Committees for the Defense of the Revolution 
in Venezuela.

  <diamond> Do you have any reason to doubt this assessment?

    Answer. Cuba and Venezuela have a long-standing and wide-ranging 
partnership. They cooperate in areas ranging from intelligence services 
to medical services. We have seen a range of estimates regarding the 
presence and activities of Cubans in various fields in Venezuela, and 
are unable to publicly comment on the quality of this information.

    Question. According to investigations by independent Venezuelan 
journalists, the Cubans have computerized Venezuela's public records, 
giving them control over the issue of identity papers and voter 
registration. The Cubans have representatives in the ports and 
airports, and have taken part in the purchases of military equipment. A 
state-owned Cuban company Albet Ingenieria y Sistemas, received US$170 
million to develop electronic data systems in Venezuela. Through Albet, 
the Cuban Government has been given access to Venezuelan databases, 
from which it could modify and even issue documents to citizens of 
other countries. Its portfolio includes the Maduro's communications 
office, and operating systems for prisons, emergency services, 
hospitals and police.

  <diamond> Do you have any reason to doubt this assessment?

    Answer. Cuba and Venezuela have a long-standing and wide-ranging 
partnership. They cooperate in areas ranging from intelligence services 
to medical services. We have seen a range of reports regarding the 
presence and activities of Cubans in various fields in Venezuela, 
including the Albet case that you cite. Venezuela is ultimately 
responsible for the identity documents issued by its agencies.

    Question. The Cuban regime has rushed to the side of Venezuela 
after the administration began to implement the financial sanctions 
portion of our law. No surprise there given their alliance. But in your 
normalization talks with Cuba, does the administration categorically 
rule out putting U.S.-Venezuela policy options on the table, should the 
regime demand them?
    When the President announced his changes to U.S. Cuba policy in 
December, administration officials touted the changes this would bring 
to perceptions regarding U.S. policy in the region?

    Answer. We have not accepted any preconditions in our talks with 
the Cuban Government. The current focus of talks with Cuba is on the 
reestablishment of diplomatic relations and reopening of embassies. 
Once diplomatic relations are reestablished and embassies reopened, we 
will be better able to press the Cuban Government on a full range of 
issues, including human rights, claims, and the return of fugitives 
from U.S. justice.
    The response from partners throughout the region and around the 
globe to our new approach toward Cuba has been overwhelmingly positive. 
The updated approach gives us a greater ability to engage other nations 
in the hemisphere and around the world to join us in promoting respect 
for human rights and fundamental freedoms in Cuba and throughout the 
hemisphere.

    Question. What has the administration done to rally regional 
support for U.S. policy toward Venezuela?

    Answer. Our policy toward Venezuela reflects our commitment to 
advance respect for human rights and safeguard democratic institutions, 
not only in Venezuela, but also across the hemisphere and the world. We 
have expressed our concerns to governments in the region about the 
worsening situation in Venezuela. We have urged our partners to speak 
out in meetings of the Organization of American States and the U.N. 
Human Rights Council. We have encouraged their support for the release 
of Mayor Antonio Ledezma, opposition leader Leopoldo Lopez, Mayor 
Daniel Ceballos, and others unjustly jailed, including dozens of 
students, by the Venezuelan Government.
    We have also called on regional partners to encourage Venezuela to 
accept a robust international electoral observation mission, using 
accepted international standards, for this year's National Assembly 
elections. We have emphasized to them that the region has an 
opportunity to play a productive role to support free and fair 
elections, which will help Venezuela steer toward a democratic solution 
to tackle its challenges.
    We have countered inaccurate claims by the Maduro government and 
other governments in the hemisphere about the March 9 Executive order 
and sanctioning of seven individuals and have explained that our 
actions were within our right to protect U.S. immigration prerogatives 
and the U.S. financial system. We have stressed that our actions are 
not against the economy of Venezuela nor the people of Venezuela. We 
appreciate your remarks on March 17 that helped reinforce this.
    We will continue to work closely with others in the region to 
support greater political expression in Venezuela and to encourage the 
Venezuelan Government to live up to its shared commitment to democracy 
and human rights, as articulated in the OAS Charter, the Inter American 
Democratic Charter, and other relevant instruments.

    Question. What regional countries have spoken out against the 
ongoing human rights abuses in Venezuela?

    Answer. The United States is joined by dozens of governments and 
individuals from the region in calling for the release of Mayor Antonio 
Ledezma, opposition leader Leopoldo Lopez, Mayor Daniel Ceballos, and 
others unjustly jailed, including dozens of students, by the Venezuelan 
Government. These include the Chilean, Colombian, and Peruvian 
Governments; former Presidents Fernando Henrique Cardoso (Brazil), 
Sebastian Pinera (Chile), Oscar Arias (Costa Rica), Felipe Calderon 
(Mexico), Ricardo Martinelli (Panama), Alejandro Toledo (Peru), and 
Jorge Batlle (Uruguay); and Chilean Senators Isabel Allende, Juan Pablo 
Letelier, and Ignacio Walker. The Costa Rican Government called for a 
dialogue between the Venezuelan Government and the opposition and also 
noted that the OAS should play a role in observing the Venezuelan 
National Assembly elections. In mourning the death of a student, 
reportedly at the hands of government forces, OAS Secretary General 
Jose Miguel Insulza called for ``inclusive dialogue that leads to 
reconciliation between Venezuelans.''

    Question. What regional organizations have done so [spoken out 
against the ongoing human rights abuses in Venezuela]?

    Answer. The OAS Secretary General Jose Miguel Insulza called on the 
Venezuelan Government to respect the due process of the law in Mayor 
Antonio Ledezma's case while noting the importance of Venezuela holding 
National Assembly elections with the ``required democratic character.''
    The Inter-American Commission on Human Rights (IACHR) expressed 
``deep concern'' on the investigations and prosecutions of Mayor 
Ledezma, opposition leader Leopoldo Lopez, and Mayor Daniel Ceballos. 
The body also called on the Venezuelan Government not to criminalize 
opposition political leaders and to pursue a dialogue with the 
opposition.
    The U.N. High Commissioner for Human Rights (UNHCHR), Zeid Ra'ad Al 
Hussein, expressed concern over the continued detention of opposition 
leaders and demonstrators and the government's harsh response to 
criticism and peaceful expressions of dissent. The European Union (EU) 
called on the Venezuelan Government to work with the opposition and 
civil society to meet the legitimate concerns of the Venezuelan people 
while highlighting that it is important that freedom of expression and 
fundamental rights are respected in an electoral year. The Canadian, 
Italian, Norwegian, and Spanish Governments called on the Venezuelan 
Government to demonstrate its commitment to human rights, including 
freedom of expression and peaceful protest. Pope Francis urged 
Venezuelans to refuse violence and called for a sincere and 
constructive dialogue between the government and the opposition.
    On March 14, Union of South American Nations (UNASUR) issued a 
statement expressing support for a dialogue between all the 
``Venezuelan democratic forces'' respecting human rights, rule of law, 
and institutional order. UNASUR also expressed support for this year's 
National Assembly elections while emphasizing the importance of 
respecting the constitutional order and human rights.

    Question. Ambassador Brownfield, the Assistant Secretary, Bureau of 
International Narcotics and Law Enforcement Affairs, has been quoted as 
saying that recent media reports about the Venezuelan government's 
complicity with cartels were ``not inconsistent'' with the evidence.

  <diamond> Can you elaborate on Venezuela's interaction with the 
        cartels?
  <diamond> Please describe some of the evidence you have seen that 
        would support this.
  <diamond> What is Cartel de los Soles or the ``Cartel of the Suns'' 
        relationship with the Venezuelan Government.
  <diamond> Does the Venezuelan Government have a relationship 
        (narcotics trafficking/armed support) with the Revolutionary 
        Armed Forces of Colombia (FARC)? What is the extent of that 
        relationship?

    Answer. In Venezuela, public corruption is a major problem that 
makes it easier for drug-trafficking organizations to move and smuggle 
illegal drugs, according to Venezuelan nongovernmental organizations. 
Media reports alleged that some military and law enforcement personnel 
directly assisted Colombian drug trafficking organizations, including 
not only the Revolutionary Armed Forces of Colombia (FARC), but also 
the National Liberation Army (ELN), Clan Usuga, and Los Rastrojos. 
There are also media reports alleging that Mexican drug-organizations, 
including the Sinaloa cartel and Los Zetas, operate in Venezuela.
    The term ``Cartel de los Soles'' is used to describe a collection 
of groups within the Venezuelan Armed Forces that are allegedly 
involved in drug trafficking. Press reports indicate that elements of 
the military believed to be most deeply involved in Venezuelan drug 
trade are concentrated along the western border with Colombia, 
especially in the states of Apure, Zulia and Tachira.
    An indication that some officials at the top level of the military 
have been involved in drug trafficking are the Treasury Department's 
designations of current and former Venezuelan Government officials 
under the Kingpin Act for materially assisting the Revolutionary Armed 
Forces of Colombia (FARC) in trafficking narcotics. The Venezuelan 
Government has yet to take action against these government and military 
officials who have engaged in drug trafficking activities with the 
FARC.

    Question. A recent report by the Washington DC-based, Center for a 
Secure Free Society, and Canada's Institute for Social and Economic 
Analysis, raises concerns about the use of Venezuela as a ``bridge'' to 
smuggle Iranian agents into North America. It states that Venezuelan 
authorities provided at least 173 passports, visas, and other 
documentation--controlled by Cuba's state-owned Albet--to Islamist 
extremists seeking to slip unnoticed into North America.

  <diamond> Do you have any reason to doubt this assessment?

    Answer. We take any allegations that threaten our national security 
seriously. The Department closely watches all signs of activity of 
Iranian influence in the Western Hemisphere. We share your concern that 
Venezuelan citizenship, identity, and travel documents are easy to 
obtain, making Venezuela a potentially attractive source of 
documentation for terrorists. International authorities remain 
suspicious of the integrity of Venezuela documents and their issuance 
process. We can provide you a more detailed explanation in a classified 
briefing.

    Question. Last month, Nicolas Maduro ordered the arrest of the 
Mayor of Caracas, Antonio Ledezma, and ordered a further crackdown 
against student protesters, upon returning from a previously 
undisclosed trip to Cuba, where Maduro met with both Raul and Fidel 
Castro.

  <diamond> Do you find the timing curious?

    Answer. We have publicly condemned the detention of Caracas 
Metropolitan Mayor Antonio Ledezma by Venezuelan security forces, as 
well as the systematic intimidation of other leading opposition 
figures. It is difficult to speculate on the direct precipitating 
factors leading to Ledezma's arrest, but the arrest of opposition 
figures appear to be a clear attempt by the Venezuelan Government to 
divert attention from the country's economic and political challenges 
and to destabilize the opposition. Rather than imprisoning and 
intimidating its critics, the Venezuelan Government should focus on 
finding real solutions through democratic dialogue.
    Venezuela's problems cannot be solved by criminalizing legitimate, 
democratic dissent. These tactics violate the Venezuelan people's basic 
human rights and civil liberties as well as the principles and values 
set forth in the American Declaration of the Rights and Duties of Man 
and the Inter-American Democratic Charter.
    The Venezuelan Government should release those it has unjustly 
jailed and respect human rights and fundamental freedoms, including the 
freedoms of expression, association, and peaceful assembly. The United 
States calls on other countries, leaders, and organizations to urge the 
Venezuelan Government to cease these efforts to silence the political 
opposition and further weaken democratic institutions.

    Question. What consideration do you give Cuba's continued efforts 
to subvert democratic institutions in Latin America, including within 
your review of the State Sponsors of Terrorism list, on which Cuba was 
placed in 1982 precisely for its subversive tactics in the Western 
Hemisphere?

    Answer. The Department of State is undertaking a serious review of 
Cuba's designation based on all relevant, applicable information and 
the statutory standard. We will not prejudge that process.

    Question. Why hasn't the State Department publicly denounced the 
role that Cuba's Government has played in subverting Venezuela's 
democratic institutions?

    Answer. We should not let the potential influence of outside 
parties like Cuba distract our attention from the need to hold the 
Venezuelan Government accountable for its actions. The Venezuelan 
Government alone is responsible for the actions of its officials and 
institutions, including those that undermine democracy and the 
protection of human rights in Venezuela.
    The repression and abuses of human rights that occur in Venezuela 
are the responsibility of the Venezuelan Government.

    Question. A July 2009 GAO report (GAO-09-806) stated that the so-
called Bolivarian National Guard is deeply involved in the trafficking 
of illicit narcotics. Please provide an assessment of the Venezuelan 
National Guard's involvement in illicit trafficking and other 
transnational criminal activities.

    Answer. According to public reports, members of the Bolivarian 
National Guard continue to facilitate or are directly involved in drug 
trafficking. Corruption among some members of the Bolivarian National 
Guard poses a significant threat because of this organization's role in 
controlling Venezuelan airports, borders and ports. This concern is 
coupled with the fact that Venezuelan law enforcement does not 
effectively prosecute drug traffickers, in part due to political 
corruption.
    It is a concern not only for the United States, but also for the 
rest of the hemisphere, that Venezuela remains a key transit country 
for the shipment of illegal drugs from South America. The U.S. 
Government and its regional partners have repeatedly said more 
effective counternarcotics efforts are necessary to curb the flow of 
drugs into and out of the region. Since the Venezuelan Government ended 
formal cooperation with the U.S. Drug Enforcement Agency in 2005, 
bilateral counternarcotics cooperation has been conducted on a case-by-
case basis, including informal information exchanges and maritime 
interdiction activities with the U.S. Coast Guard. However, a lack of 
sustained, high-level cooperation reduces the ability of our U.S. law 
enforcement partners to investigate and prosecute violators of U.S. law 
residing or operating in Venezuela. We nonetheless encourage our 
partners to work as closely with their Venezuelan counterparts as is 
permitted by the Venezuelan Government.
    We will continue to support drug interdiction programs throughout 
the region, including programs in Colombia, Peru, Central America, and 
the Caribbean. We will urge those partners to encourage the Venezuelan 
Government to step up its efforts and fulfill regional commitments and 
responsibilities to combat drug trafficking.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
